<html>
<title> - OVERSIGHT HEARING ON EMPOWERING STATE BASED MANAGEMENT SOLUTIONS FOR GREATER SAGE GROUSE RECOVERY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 EMPOWERING STATE BASED MANAGEMENT SOLUTIONS FOR GREATER SAGE GROUSE 
                               RECOVERY

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, October 25, 2017

                               __________

                           Serial No. 115-25

                               __________

       Printed for the use of the Committee on Natural Resources
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-440 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c6b7c634c6f797f786469607c226f636122">[email&#160;protected]</a>         
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Darin LaHood, IL
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, October 25, 2017......................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    .............................................................
    Bedke, Hon. Scott, Speaker of the Idaho House of 
      Representatives, Oakley, Idaho.............................     7
        Prepared statement of....................................     8
        Questions submitted for the record.......................    10
    Bird, Darin, Deputy Director, Utah Department of Natural 
      Resources, Salt Lake City, Utah............................    10
        Prepared statement of....................................    12
    Goicoechea, Hon. J.J., DVM, Chairman, Board of Eureka County 
      Commissioners, Eureka, Nevada..............................    22
        Prepared statement of....................................    23
    Tubbs, John, Director, Montana Department of Natural 
      Resources and Conservation, Helena, Montana................    13
        Prepared statement of....................................    14
        Questions submitted for the record.......................    19

Additional Materials Submitted for the Record:
    Hammack, Katherine, Assistant Secretary of the Army, 
      Department of the Army, April 15, 2016 Letter to 
      Congressman Adam Smith.....................................    55
    Herbert, Gary R., Governor of the State of Utah, prepared 
      statement..................................................    52
    List of documents submitted for the record retained in the 
      Committee's official files.................................    70
    Wilderness Society, Sage-Grouse Implementation Options.......    56
                                     


 
 OVERSIGHT HEARING ON EMPOWERING STATE BASED MANAGEMENT SOLUTIONS FOR 
                      GREATER SAGE GROUSE RECOVERY

                              ----------                              


                      Wednesday, October 25, 2017

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:05 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Committee] presiding.
    Present: Representatives Bishop, Lamborn, Wittman, 
McClintock, Pearce, Thompson, Labrador, Tipton, LaMalfa, Cook, 
Hice, Radewagen, Cheney, Gianforte; Grijalva, Tsongas, Torres, 
and Soto.
    Also present: Representative Amodei.
    The Chairman. Thank you. We welcome you to the Committee 
hearing today. I will call this meeting to order when it is 
time. But according to our clock up there we still have a half-
hour before it starts, so if any of you want to just flit 
around for a while, you got it.
    [Laughter.]
    The Chairman. This Committee is called to order. The 
Committee is meeting today to hear testimony on empowering 
state based management solutions for the greater sage-grouse 
recovery.
    I ask unanimous consent at this time that the gentleman 
from Nevada, Mr. Amodei, be allowed to sit with the Committee 
and participate in the hearing.
    Without objection, so ordered.
    However, that is conditioned upon the fact that I never see 
him carrying his laundry to his apartment again in the morning. 
If you want to look like a peasant woman carrying your clothes, 
that is fine, but not in public. OK, we are set.
    Under Committee Rule 4(f), any oral opening statements are 
limited to the Chairman, the Ranking Minority Member, and the 
Vice Chair. This will allow us to hear from witnesses faster. I 
ask unanimous consent that all other Members' opening 
statements be made part of the hearing record if they are 
submitted to the Subcommittee Clerk by 5:00 p.m. today.
    Without objection, so ordered.
    Let me start with my opening statement.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    The Chairman. Today, the Committee members are meeting to 
examine state-driven successes that we have seen in the 
management of the greater sage-grouse. Clearly, there is a 
continuing need for local control over both the bird and its 
habitat.
    The range of the greater sage-grouse covers millions of 
acres over parts of 11 states. It is as expansive as it is 
varied, and yet there are different ways in which we handle 
that.
    Once upon a time, a long time ago, there was an 
administration that decided to tell the states we have a 
problem with the sage-grouse, you come up with a plan to solve 
that problem and we will implement that. Then I watched as 
states busily became involved in coming up with a plan that met 
the environmental needs of their particular communities. Only 
then to find, later on, that the administration that said we 
will honor the state plans decided to change their mind. They 
instead came up with a one-size-fits-all approach, based on 
whatever science, we don't know, because it was never actually 
shown to us. Nor were those who came up with that science ever 
allowed to talk to this particular Committee.
    So, instead, we have a hybrid system that is not 
necessarily helping the problem today. That is the purpose of 
today's hearing: to provide further evidence that state and 
local control leads to lasting success, not just to actually 
control and manage the bird, but to rehabilitate the species. 
And that is the goal of the state-side programs, which is not 
necessarily the product of a one-size-fits-all Federal approach 
to this particular issue.
    States have consistently proven they are masters at caring 
for their own lands and their wildlife, and sage-grouse is no 
different. In my home state of Utah, for example, the state 
spends an average of $5 million a year managing sage-grouse. 
With its state plan, Utah can cut fire lines, remove flammable 
invasive species, and react quickly in the event of wildfire. 
The plan has produced excellent results, with significantly 
fewer wildfire damages to sage-grouse habitat in 2016, and 
minimizing the impact of this and future fire seasons.
    The reason I mention that is, quite frankly, the greatest 
threat we have to sage-grouse in my state is wildfire. If we 
can actually control and manage the wildfire, we actually help 
the habitat of that bird. And if you can get the crows to quit 
eating their eggs, that would be helpful, too.
    I look forward to hearing from local stakeholders, 
representing several sage-grouse states that not only have 
state plans working, but the bird is thriving under their local 
management.
    It is important that we applaud the current 
Administration's efforts to correct the flaws in these resource 
management plans of the past. However, it is also important 
that the Administration fully recognize the successes of state 
plans, the opportunity we have with state plans, and to ensure 
a robust local input as they develop these kinds of 
corrections.
    I thank our witnesses for traveling great distances to be 
here today and to outline what their states have and can do in 
the future. We have found that implementing their locally 
developed recovery plans will be the best source that we can 
do, not just, as I said, to control sage-grouse, but to 
rehabilitate this species and move forward in the future.

    [The prepared statement of Mr. Bishop follows:]
   Prepared Statement of the Hon. Rob Bishop, Chairman, Committee on 
                           Natural Resources
    Today, the Committee meets to examine state-driven successes we 
have seen in the management of the greater sage-grouse. Clearly, there 
is a continuing need for local control over both the bird and its 
habitat.
    The range of the greater sage-grouse, covering millions of acres 
over parts of 11 states, is as expansive as it is varied. Yet, the 
Federal Government under the Obama administration insisted on managing 
greater sage-grouse recovery with a Washington, DC, one-size-fits-all 
approach that fails miserably to address the individual management 
challenges present in each state.
    The purpose of today's hearing is to provide further evidence that 
state and local control leads to lasting success. States have 
consistently proven to be masters at caring for their own lands and 
wildlife, and sage-grouse is no different.
    In my home state of Utah, for instance, the state spends an average 
of $5 million a year managing sage-grouse. The results are encouraging: 
our state has seen the population of the bird increase steadily since 
1990, and Utah is well exceeding the target number of male sage-grouse 
established by our recovery plan.
    This success is due to the state's ability to tailor the management 
plan to meet the distinct needs of Utah's environment. Unlike other 
states, the single greatest problem threatening sage-grouse in Utah is 
catastrophic wildfires. With its state plan, Utah can cut fire lines, 
remove flammable invasive species, and react quickly in the event of a 
wildfire. The plan has produced excellent results, with significantly 
fewer wildfires damaging sage-grouse habitat in 2016, and minimizing 
the impact of this and future fire seasons.
    All of this, despite the prior administration's regulatory attempt 
to force a Federal `one-size-fits-all' approach. Simply put, had Utah 
been mandated to implement a Nevada plan, or a California plan, or 
anything less than a tailored solution, much more of Utah would have 
quite literally gone up in smoke and our grouse population would have 
suffered.
    Irrespective of what success Utah or other states can achieve on 
their own, however, the Fish and Wildlife Service has dictated its 
intent to re-examine the species for listing by 2020.
    I look forward to hearing from local stakeholders representing 
several sage-grouse states that, not only are the state plans working, 
but the bird is thriving under local management.
    Imposing an ESA listing decision of the sage-grouse would stifle 
state-based management plans, unravel the nearly 15 years of positive 
advances made by western states, and disregard the investment each 
state has made to protect the species. In addition, the BLM and Forest 
Service are currently reviewing the 98 resource management plans that 
were developed simultaneously with the Fish and Wildlife Service's 
decision to not list sage-grouse. These federally decreed plans, which 
left in place would create a `de facto' listing, are overly 
restrictive, rushed decisions that did failed to consider local input 
in many areas.
    We applaud the current Administration's efforts to correct the 
flaws in these resource management plans. However, it is important also 
that the Administration fully recognize the successes of the state 
plans, and ensure robust local input as they develop their corrections.
    I thank our witnesses for traveling out to be here today to outline 
the successes each of their states have found in implementing their 
locally developed recovery plans, underscoring the all that is possible 
through smart and effective local control.

                                 ______
                                 

    The Chairman. With that I yield back, and I recognize the 
Ranking Member for his statement.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman, and let me also join 
with you in welcoming our witnesses.
    In 2015, the last time we held an oversight hearing on the 
sage-grouse management, the Majority and their witnesses 
complained about being cut out of the process. Of course, these 
claims were false and have been abandoned. People know that the 
corresponding effort to conserve sage-grouse and sagebrush 
habitat without an ESA listing was highly inclusive and 
transparent.
    Now, the Majority has shifted from criticizing the process 
to criticizing the outcome. They claim that sage-grouse 
conservation plans put in place last year are not based on 
sound science, are hindering economic development, and are 
increasing wildfires and encroachment by invasive species. 
These claims are also false.
    Let's talk about the real facts that are grounded in 
science, and put aside the ``alternative facts'' grounded in 
nothing more than the hope that nobody is really paying 
attention.
    It is a fact that restoring sagebrush ecosystems is more 
complicated than allowing more cattle grazing. Scientific 
studies show not only that cattle grazing played a big role in 
spreading cheatgrass, but also that higher grazing intensity 
promotes the continued spread of that plant. The same is true 
for pinyon-juniper encroachment, which scientists have found to 
be significantly greater in grazed areas.
    The science also shows that grazing will not stop fires 
under very hot and dry conditions, just as those being 
experienced more and more in our West as a result of climate 
change. But climate change is a factor that is not being 
considered by this Administration and Congress. In fact, it is 
being debased and denied as a science and a reality in that 
climate change is and must be factored in the future.
    Making our lands more resilient to these threats is a 
complex challenge, and the solution is painstaking, science-
based range restoration, not turning cattle loose and calling 
it a day.
    The science also shows that habitat fragmentation from 
energy development and mining are key threats to sage-grouse. 
The Obama administration worked with states, localities, 
tribes, industry, scientists, and other stakeholders to protect 
core sage-grouse habitats without impacting existing mining and 
energy claims and still maintaining access to the vast majority 
of these recoverable resources.
    That is not a job killer; that is the definition of 
multiple use and sustainable, responsible management of our 
natural resources.
    Cries that the Federal Government imposed cookie-cutter or 
one-size-fits-all policies are also disingenuous. States have 
full control over how they manage for sage-grouse conservation 
on state and private lands, and all 98 of the resource 
management plans underpinning the conservation strategy are 
individually tailored.
    Of course, the Majority does not really care about any of 
these facts. All they care about is their crusade to transfer 
U.S. public lands, or management of these lands, from Federal 
agencies representing all Americans to states and localities 
that represent a few.
    Two of our invited guests, witnesses today, have publicly 
argued for this approach, never mind the fact that the states 
lack the resources to manage these lands effectively without 
selling them off to the highest bidder.
    So, instead of celebrating the sage-grouse conservation 
success, the Majority is focused on keeping two myths alive to 
support their seize-and-sell agenda.
    The first myth is that the Endangered Species Act does not 
work. That has been disproven time and time again, but never 
more clearly than in the particular case that we are dealing 
with today, where state and Federal partners worked hand in 
hand to prevent the listings of a species.
    The second is the myth that the West is a land of 
inexhaustible natural resources that could produce infinite 
wealth and job opportunities, if only the Federal Government 
would get out of the way. Much of the West is evolving. Its 
economic future is in clean energy, outdoor industries, and 
lower-impact, more sustainable resource use.
    The Trump-Zinke plan to roll back sage-grouse protections 
will only hurt the West. It will make it more likely that the 
bird will warrant Endangered Species Act listing when the Fish 
and Wildlife reviews its status.

    [The prepared statement of Mr. Grijalva follows:]
   Prepared Statement of the Hon. Raul M. Grijalva, Ranking Member, 
                     Committee on Natural Resources
    Thank you, Mr. Chairman.
    In 2015, the last time we held an oversight hearing on sage-grouse 
management, the Majority and their witnesses complained about being cut 
out of the process. Of course, those claims were false and have been 
abandoned.
    People know the effort to conserve sage-grouse and sagebrush 
habitat without an ESA listing was highly inclusive and transparent.
    Now, the Majority has shifted from criticizing the process to 
criticizing the outcome. They claim that the sage-grouse conservation 
plans put in place last year are not based on sound science, are 
hindering economic development, and are increasing wildfires and 
encroachment by invasive species. These claims are also false.
    Let's talk about real facts that are grounded in science and put 
aside ``alternative facts'' grounded in nothing more than the hope that 
nobody is really paying attention.
    It is a fact that restoring sagebrush ecosystems is more 
complicated than allowing more cattle grazing. Scientific studies show 
not only that cattle grazing played a big role in spreading cheatgrass 
but also that higher grazing intensity promotes the continued spread of 
the plant. The same is true for pinyon-juniper encroachment, which 
scientists have found to be significantly greater in grazed areas.
    The science also shows that grazing will not stop fires under very 
hot and dry conditions, such as those being experienced more and more 
often across the West as a result of climate change.
    Making our lands more resilient to these threats is a complex 
challenge and the solution is painstaking, science-based range 
restoration--not turning a bunch of cattle loose and calling it a day.
    The science also shows that habitat fragmentation from energy 
development and mining are key threats to sage-grouse.
    The Obama administration worked with states, localities, tribes, 
industry, scientists, and other stakeholders to protect core sage-
grouse habitat without impacting existing mining and energy claims and 
still maintaining access to the vast majority of recoverable resources.
    That's not a job killer--that's the definition of multiple use and 
sustainable, responsible management of our natural resources.
    Cries that the Federal Government imposed ``cookie cutter'' or 
``one-size-fits-all'' policies are also disingenuous. States have full 
control over how they manage for sage-grouse conservation on state and 
private lands, and all 98 of the resource management plans underpinning 
the conservation strategy are individually tailored.
    But, of course, the Majority doesn't really care about any of these 
facts. All they care about is their crusade to transfer U.S. public 
lands, or management of those lands, from Federal agencies representing 
all Americans to states and localities that represent only a few.
    Two of their invited witnesses have publicly argued for this 
approach, never mind the fact that states lack the resources to manage 
these lands effectively without selling them off to the highest bidder.
    So, instead of celebrating the sage-grouse conservation success, 
the Majority is focused on keeping two myths alive to support their 
``seize and sell'' agenda.
    The first is the myth that the Endangered Species Act doesn't work. 
That has been disproven time and time again, but maybe never more 
clearly than in this particular case where state and Federal partners 
worked hand in hand to prevent the listing of a species.
    The second is the myth that the West is a land of inexhaustible 
natural resources that could produce infinite wealth and job 
opportunities if only the Federal Government would get out of the way. 
Much of the West is evolving. Its economic future is in clean energy, 
outdoor industries, and lower-impact, more sustainable resource use.
    The Trump-Zinke plan to roll back sage-grouse protections will only 
hurt the West. It will make it more likely that the bird will warrant 
an ESA listing when the Fish and Wildlife Service reviews its status.
    I yield back.

                                 ______
                                 

    Mr. Grijalva. With that, Mr. Chairman, I yield back.
    The Chairman. Thank you for that opening statement.
    Mr. Grijalva. You are welcome.
    The Chairman. I am now going to introduce our witnesses.
    You will notice the restraint I am having here. All the 
wonderful one-liners, I am going through my head and I am not 
going to use any of them right now. We will go directly to the 
witnesses that are there. I appreciate them being here.
    We will hear from you in this order: the Honorable Scott 
Bedke, who is the Speaker of the House in the State of Idaho 
from Oakley, Idaho, thank you for being here; Mr. Darin Bird, 
who is the Deputy Director of the Utah Department of Natural 
Resources from Salt Lake City, Utah; the Honorable John Tubbs, 
who is the Director of the Montana Department of Natural 
Resources and Conservation in Helena, Montana; the Honorable 
J.J.--oh, I was going to say that correctly and I screwed it up 
already, Goicoechea--the County Commissioner and the Chairman 
of the Eureka County Commissioners in Eureka County, Nevada.
    We appreciate you being here. I am going to remind the 
witnesses that, under our Committee Rules, they are limited in 
their oral testimony to 5 minutes, but their entire statement 
will appear in the record.
    The microphones in front of you are not automatic. 
Actually, this is the first time we have used this committee 
room since it was fixed. Hopefully it works. But at least, on 
the plus side, you don't have to look at the old chairmen of 
the Budget Committee any more. So, at least that is a plus for 
us. Since they are not automatic, you are going to have to 
press the button to be on there, and just adjust how close you 
need to be to be heard from that point on.
    If any of you are not aware of the light system, when the 
green light is on, you are using your 5 minutes and everything 
is going great. When the yellow light comes on, it is like a 
traffic light and you have to hustle through as fast as you 
possibly can, because when the red light goes on I am going to 
cut you off, even though that is rude. But I apologize, we are 
going to have to do that. I will do the same with Members, too. 
So, when it is your turn, remember, if it is yellow, go faster, 
because I am going to cut you off at 5 minutes.
    Speaker Bedke, you are recognized for 5 minutes, and thank 
you for being here.

 STATEMENT OF THE HON. SCOTT BEDKE, SPEAKER OF THE IDAHO HOUSE 
               OF REPRESENTATIVES, OAKLEY, IDAHO

    Mr. Bedke. Thank you, Mr. Chairman, Ranking Member, and 
members of the Committee. Thank you for this invitation to 
testify on the importance of sage-grouse conservation in the 
West. I am the Speaker of the House in Idaho and a charter 
member of the governor's task force on sage-grouse, and I 
perhaps am uniquely qualified to testify on this topic.
    For five generations my family has had a ranching operation 
in the heart of greater sage-grouse habitat in the Great Basin 
of Southern Idaho and Northern Nevada. Our ranch operates in a 
way that benefits the greater sage-grouse and its habitat.
    The best available science has shown us that the major 
threats to sage-grouse populations in the Great Basin are, 
Number one, wildfire; and Number two, the invasive plants that 
follow a large fire. The best science also says that livestock 
grazing is a second-tier threat, and then only when it is 
employed improperly. Proper livestock grazing is not deemed to 
be a threat at all.
    The Idaho sage-grouse plan is predicated on decades of 
science and expertise. Instead of adopting Idaho's sage-grouse 
plan, the 2015 Federal land use plan amendments seek to punish 
livestock grazing with unreasonably large lek buffers and 
impossible minimum stubble height requirements. If, as the 
science says, wildfire is the Number one threat to sage-grouse 
populations, then further reductions on livestock grazing 
create and increase fuel load, making the habitat much more 
susceptible to larger and more frequent wildfires. The 
amendments are counterproductive to the sage-grouse 
conservation.
    This past summer, my family witnessed firsthand how good 
intentions and a total lack of practical knowledge can 
backfire. Lightning started a small fire on one of our grazing 
allotments on the Nevada-Idaho border. The first burned 
approximately 500 acres before it was declared out and 
contained. The next day the fire started up, however, and the 
firefighters returned with their equipment. To our surprise, 
some of the heavy equipment sat around unused for hours, while 
the fire continued to grow and eventually burned another 20,000 
acres, all of which was in prime sage-grouse habitat.
    Why? Because Federal regulations prevented the use of 
firefighting equipment since there was not a qualified Cat 
tender on the fire. A Cat tender is a person that walks in 
front of the bulldozer as the fire line is created, in order to 
assure that no historical artifacts are disturbed. However, 
most of the time the fire line is laid down in an area that has 
already been disturbed, such as an existing road or fence line, 
as it was in this case, thus obviating the need for 
archeological clearance.
    So, thousands of acres of prime sage-grouse habitat burned 
because of improper Federal firefighter policy. This scenario 
will be repeated if fuel control activities such as grazing are 
further restricted. There is nothing wrong with using a Cat 
tender, but Federal red tape resulted in a perverse outcome, 
since those on the ground did not have the decision-making 
authority to quickly assess and adapt to a rapidly escalating 
range fire. In other words, they were not allowed to employ 
common sense, and thousands of acres of habitat burned, 
arguably, needlessly.
    Range fire is the top concern in Idaho sage-grouse habitat. 
Our plans are specifically designed to address the factors 
which result in catastrophic wildfire, but there seems to be a 
growing trend in the Federal resource planning ignoring decades 
of experience and the specific needs of the western states. In 
fact, Federal sage-grouse plans will actually make the 
situation worse.
    Let me explain how that has happened. Anti-grazing 
activists have been fighting lawsuits for decades, trying to 
list grazing as one of the threats to the greater sage-grouse. 
The activists hold to a completely unproven theory that minimum 
stubble height will help grouse hide from ravens and crows, who 
predate on sage-grouse nests. But because ravens and crows have 
been unmanaged for decades due to Federal restrictions on 
predator control, their numbers now far exceed historical 
levels. As a result, in many places sage-grouse nest predation 
by crows and ravens is somewhere in the range of 60 to 90 
percent mortality.
    Rather than implement predator control to reduce nest 
predation, the BLM and the Forest Service have adopted unproven 
stubble height requirements that will result in fewer AUMs and 
increased fuel loads. Federal agencies have made the Number one 
threat to sage-grouse in Idaho worse. In fact, these Federal 
amendments, if left standing, will create an explosive wildfire 
situation throughout the Great Basin.
    In summary, Mr. Chairman, since 2014, I have been meeting 
with you and your staff regarding the coming disaster of these 
sage-grouse plan amendments. The very things that we warned 
against are now adopted by the BLM and Forest Service. More 
Federal regulation is only making the situation on the ground 
worse for the greater sage-grouse.

    [The prepared statement of Mr. Bedke follows:]
 Prepared Statement of Rep. Scott Bedke, Speaker of the Idaho House of 
                            Representatives
    Mr. Chairman and members of the Committee, thank you for the 
invitation to testify regarding the importance of protecting state 
sage-grouse conservation in the West. We appreciate your efforts to 
provide congressional protections for Idaho's sage-grouse plans.
    I am the Speaker of the House in the state of Idaho and a charter 
member of the Governor of Idaho's sage-grouse task force. I am also 
perhaps uniquely positioned to testify regarding the greater sage-
grouse. My brother and I run a family ranching operation. For five 
generations, our family has operated in the heart of greater sage-
grouse habitat in the Great Basin of southern Idaho and northern 
Nevada. We understand the needs of greater sage-grouse. Our ranching 
operation is designed to operate according to the best available 
science and methodology to benefit the greater sage-grouse and its 
habitat.
    Idaho's sage-grouse conservation efforts are designed to address 
the conservation of sage-grouse in the state of Idaho using the best 
available science. That science determined that the largest threat to 
the sage-grouse population in the Great Basin is, Number one, wildfire, 
and Number two, the invasive plant species that proliferate after a 
large fire. The best science also says that livestock grazing is a 
``second tier'' threat--and then only if the grazing is carried out 
improperly. Proper livestock grazing is not deemed to be a threat at 
all.
    All of the sage-grouse stakeholders were disappointed in the 
Federal land management agencies' disregard for the decades of science 
and expertise upon which Idaho's sage-grouse plans are predicated. 
Instead of adopting Idaho's sage-grouse plan, the 2015 Federal land use 
plan amendments seek to punish livestock grazing with unreasonably 
large lek (breeding ground) buffers and impossible minimum stubble 
height requirements. If, as the science says, wildfire is the Number 
one threat to the sage-grouse population, then Federal plan amendments 
that further restrict livestock grazing create an increased fuel load, 
thus making the habitat much more susceptible to larger and more 
frequent wildfires. The amendments are counterproductive to sage-grouse 
conservation.
    This past summer, my family witnessed firsthand how good intentions 
and a total lack of practical knowledge can backfire. Lightning started 
a range fire on one of our grazing allotments on the Nevada-Idaho 
border. The fire burned approximately 500 acres and was declared out 
and contained, and the fire crews left. The next day, the fire started 
again and burned approximately another 20,000 acres, all of which was 
in sage-grouse habitat.
     As the fire began to build again, the hardworking firefighters 
showed up with their firefighting equipment. To our surprise, most of 
the heavy equipment sat unused for hours. The fire continued to grow 
and get more out of control. Why? Because Federal regulations prevented 
the use of firefighting equipment since a ``Cat tender'' had not shown 
up. A ``Cat tender'' is a person who walks in front a bulldozer as the 
fire line is created, in order to assure that no historical artifacts 
are disturbed. However, most of the time the fire line is laid down in 
areas that have already been disturbed, such as an existing road or 
fence line, as it was in this case--thus obviating the need for 
archaeological clearance or cat tending. So instead of extinguishing 
the fire, thousands of acres of prime sage-grouse habitat burned. In 
fact, essentially the entire winter unit of our allotment was consumed 
in one large catastrophic wildfire.
    These dangerous situations will be made worse by restrictions on 
fuel control activities such as grazing. There is nothing wrong with 
using a ``Cat tender.'' But Federal red tape resulted in a perverse 
outcome. Rather than being able to quickly assess the situation on the 
ground and doing the right thing, those on the ground did not have the 
decision-making authority to adapt to a quickly escalating wildfire.
    What we are talking about here is using common sense.
    There seems to be a growing trend in Federal resource planning of 
ignoring the needs of the western states, to say nothing of the decades 
of wisdom and practical experience we can offer. Let me speak more 
specifically: catastrophic wildfire is the top concern in Idaho sage-
grouse habitats. Our plans are designed to address the factors which 
can result in catastrophic wildfire. Federal sage-grouse plans not only 
ignore Idaho's science and our decades of experience in addressing 
these contributing factors, but they will actually make the situation 
worse.
    Let me explain how this happened. Anti-grazing activists have been 
filing lawsuits for decades to list livestock grazing as one of the 
threats to the greater sage-grouse. Their theory has been to reduce 
AUMs by requiring a minimum stubble height on the range. Their 
justification is a completely unproven theory that a minimum stubble 
height requirement will help grouse hide from ravens and crows who 
predate on sage-grouse nests. Because ravens and crows have been 
literally unmanaged for decades due to Federal restrictions on predator 
control, their numbers far exceed historic levels. As a result, in many 
places, nest predation by ravens and crows is somewhere in the range of 
60-90 percent of the sage-grouse nests. So rather than implement 
predator control to reduce nest predation, the BLM and Forest Service 
adopted unproven stubble height restrictions that will result in fewer 
AUMs.
    In addition, there are common-sense changes that can be employed in 
firefighting protocols. In the process of placating anti-grazing 
activists, Federal agencies have made the Number one threat to the 
greater sage-grouse in Idaho worse. In fact, these Federal amendments, 
if left to stand, will create an explosive wildfire situation 
throughout the Great Basin. This shows a lack of common sense and 
ignores the threat assessment and the best available science upon which 
the states' sage-grouse plans are based.
    Mr. Chairman and members of the Committee, since 2014 we have been 
meeting with you and your staff regarding the coming disaster of these 
Federal sage-grouse plan amendments. The very things which we warned 
against were adopted by the BLM and Forest Service. This summer, our 
family witnessed the catastrophic wildfire which we had predicted could 
occur. More Federal regulation is not helping sage-grouse and their 
habitats; in fact, it is hurting. Placating anti-grazing, anti-
sportsmen, and radical anti-use activists is making the situation on 
the ground worse for the greater sage-grouse. Good intentions are not 
good enough for the people of the West. These plans are bad for the 
West, bad for jobs, and bad for sage-grouse.
    We are encouraged by Chairman Bishop's sage-grouse legislation. 
Western states have invested $750 million to address the needs of sage-
grouse. These state conservation measures need to be respected and 
protected. The previous administration's 2015 BLM and Forest Service 
sage-grouse plans are misguided at best, catastrophic at worst. These 
plans are based on restrictions on human activity rather than 
addressing the real threats of pinyon/juniper encroachment, wildfire, 
and post-wildfire effects, which account for the greatest challenges to 
sage-grouse habitat in the state of Idaho and across the Great Basin. 
Instead, these plans seem to be based on the Wyoming and Colorado sage-
grouse plans which do not, and will not, work for Idaho.
    This past winter, Governor Butch Otter and I visited congressional 
leaders and expressed Idaho's strong support for reversing these 
Federal sage-grouse plan amendments and providing congressional 
protections for Idaho's conservation measures. For the last 20 years, 
sage-grouse populations have been steady or increasing in Idaho and 
across the West. We are committed to sage-grouse conservation in the 
state of Idaho. For 30 years, radical environmental activists have been 
petitioning to list this bird and have been filing lawsuit after 
lawsuit. Greater sage-grouse are not endangered. State conservation 
plans are working to protect and conserve sage-grouse and their 
habitat. It is time to take congressional action to protect the state 
plans. Please give the state-based plans a chance and some time to 
work. We in Idaho are committed to their success.
    Thank you.

                                 ______
                                 

Questions Submitted for the Record by Rep. Hice to the Honorable Scott 
          Bedke, Speaker of the Idaho House of Representatives

The Honorable Scott Bedke did not submit responses to the Committee by 
the appropriate deadline for inclusion in the printed record.

    Question 1. Speaker Bedke, in your testimony, you indicate that 
sportsmen and women are not being utilized adequately in the fight to 
conserve sage-grouse. This was disappointing to hear as most sportsmen 
and women that I know agree that conservation of public lands and 
species is important.

    Can you expand on that statement and explain why sportsmen and 
women are integral to conservation and why you feel this is not 
happening in your state?

    Question 2. How should sportsmen and women serve as partners in 
sage-grouse conservation? What options are available to the average 
sportsman to engage in conservation efforts?

                                 ______
                                 

    The Chairman. All right, thank you. I appreciate it. Thank 
you for your testimony.
    Mr. Bird, you are recognized for 5 minutes.

 STATEMENT OF DARIN BIRD, DEPUTY DIRECTOR, UTAH DEPARTMENT OF 
            NATURAL RESOURCES, SALT LAKE CITY, UTAH

    Mr. Bird. Thank you. Chairman Bishop, Ranking Member 
Grijalva, and members of the Committee, thank you for your kind 
invitation for me to appear today. I am appearing on behalf of 
Governor Gary Herbert, and ask that a copy of his written 
testimony be included as part of the hearing record, as well.
    It is easy to come and testify against unpopular Federal 
programs; however, that is not my purpose today. I am here to 
talk about one of the successes, and what is needed to protect 
sage-grouse, western habitats, and hardworking Americans.
    Catastrophic wildfire has become a major concern across the 
American West. This year the Federal Government has spent $2 
billion on wildfire control. This is a new record, and 
tremendously burdensome for the American taxpayer.
    When it comes to sage-grouse, our Number one concern in the 
state of Utah is wildfire. In 2007, Utah experienced a severe 
wildfire season. One catastrophic wildfire burned over 300,000 
acres in central Utah. As a state, we assessed the problem and 
took action. We raised millions of dollars in private and state 
funding. Along with our Federal partners, we began to address 
the root causes of catastrophic fire in sage-grouse habitats, 
and began to restore Utah watersheds.
    This program, Utah Watershed Restoration Initiative, has 
completed hundreds of projects in the last 10 years. Over 500 
private, state, and Federal partners have contributed to this 
program financially. We have invested over $150 million and 
treated approximately 1.3 million acres. In just 9 years, we 
have cut the number of wildfire and sage-grouse habitat by 50 
percent. We have had almost no catastrophic wildfires in our 
sage-grouse habitat.
    In fact, the total acres burned since these efforts began 
has been one-fifth of what it was before we started these 
conservation actions. This has saved 514,552 acres of sage-
grouse habitat in these last 9 years. It has also saved tens of 
millions of dollars of wildfire-fighting costs in the state of 
Utah. These projects do more than just control fire; they 
restore our watersheds, native vegetative communities, and 
dramatically enhance habitat for wildlife. These areas are 
wetter, produce more runoff, and they dramatically increase the 
resilience and redundancy of habitats for sage-grouse.
    Our researchers are documenting dramatic, measurable 
improvements in habitat utilization, nesting success, and 
population response of sage-grouse in these restored areas. By 
every measure, this program has become a resounding success for 
sage-grouse and sage-grouse habitat.
    I am here to do more than just share a feel-good success 
story of a program that is working. I am here to protect these 
programs. In 2015, the Obama administration adopted land-use 
plan amendments aimed at imposing more regulations on human 
activities on millions of acres across the state of Utah. These 
Federal sage-grouse plans may be well intentioned, but they are 
a threat to the partnerships, funding, and collaboration that 
makes Utah's watershed restoration initiative work.
    Here is the problem: the state of Utah relies on economic 
activity on areas outside of our sage-grouse management areas 
to help pay for Utah's Watershed Restoration Initiative. These 
new regulations have essentially brought much of the new 
economic activity in areas outside of Utah's sage-grouse 
management areas to a standstill. What this means is that 
funding for mitigation, sportsmen, and state tax revenues are 
being lost. This threatens the one program, the watershed 
initiative, that is doing the most to protect and restore sage-
grouse in the state of Utah.
    Good intentions do not make good policy. My earnest 
petition is that Congress let the people who are impacted the 
most enact the policies needed to protect our families and our 
communities. I am asking you to protect a program that is 
unrivaled in the Nation. The success of our Watershed 
Restoration Initiative in restoring and protecting sage-grouse 
is one of the reasons why Utah's legislature passed a nearly 
unanimous bipartisan resolution in support of a bill introduced 
by Congressman Bishop to protect Utah's sage-grouse 
conservation efforts.
    Take action and pass legislation that will protect the 
proven, on-ground conservation programs that are working for 
sage-grouse, sage-grouse habitats, and hard-working Americans. 
Thank you very much, and I look forward to your questions.

    [The prepared statement of Mr. Bird follows:]
 Prepared Statement of Darin Bird, Deputy Director, Utah Department Of 
                           Natural Resources
    Chairman Bishop, Ranking Member Grijalva and members of the 
Committee, thank you for the kind invitation to testify today. I am 
appearing on behalf of Governor Gary Herbert and kindly ask that a copy 
of his written testimony be included as part of the hearing record as 
well.
    It is easy to come and testify against unpopular Federal programs. 
However, that is not my purpose today. I am here to talk about one of 
our successes and what is needed to protect sage-grouse, western 
habitats, and hardworking Americans.
    Catastrophic wildfire has become a major concern across the 
American West. This year, the Federal Government has spent $2 billion 
on wildfire control. This is a new record and a tremendously burdensome 
expenditure for the American taxpayer.
    When it comes to sage-grouse, our Number one concern in the state 
of Utah is wildfire. In 2007, Utah experienced a severe wildfire 
season. One catastrophic wildfire burned over 300,000 acres in central 
Utah. As a state, we assessed the problem and took action. We raised 
millions of dollars in private and state funding. We began to address 
the root causes of catastrophic wildfire in sage-grouse habitats and 
began to restore Utah watersheds.
    This program, The Utah Watershed Restoration Initiative, has 
completed hundreds of projects in the last 10 years. Over 500 private, 
state, and Federal partners have contributed to this program 
financially. We have invested over $160 million and treated 
approximately 1.3 million acres. In just 9 years we have cut the number 
of wildfires in sage-grouse habitat by 50 percent. We have almost no 
catastrophic wildfires in our sage-grouse habitat. In fact, total acres 
burned since these efforts began has been one-fifth of what is was 
before we started these conservation actions . . . this has saved 
514,552 acres of sage-grouse habitat in the last 9 years. It has also 
saved tens of millions of dollars in wildfire fighting costs in the 
state of Utah.
    These projects do more than just control wildfire. They restore our 
watersheds, native vegetative communities, and dramatically enhance 
habitat for wildlife. These areas are wetter, produce more runoff, and 
they dramatically increase the resilience and redundancy of habitats 
for sage-grouse. Our researchers are documenting dramatic measurable 
improvements in habitat utilization, nesting success, and population 
response of sage-grouse in these restored areas.
    By every measure, this program has been a resounding success for 
sage-grouse and sage-grouse habitat.
    I am here to do more than just share a feel good success story of a 
program that is working. I am here to protect these programs. In 2015, 
the Obama administration adopted land use plan amendments aimed at 
imposing more regulations on human activity on millions of acres across 
the state of Utah. These Federal sage-grouse plans may be well 
intentioned, but they are a threat to the partnerships, funding, and 
collaboration that makes Utah's Watershed Restoration Initiative Work.
    Here is the problem: the state of Utah relies on economic activity 
in areas outside of our Sage Grouse Management Areas to help pay for 
Utah's Watershed Restoration Initiative. These new regulations have 
essentially brought much of the new economic activity in areas outside 
of Utah's SGMAs to a standstill. What this means is that funding from 
mitigation, sportsmen, and state tax revenues are being lost. This 
threatens the one program, (i.e. the Watershed Restoration Initiative) 
that is doing the most to protect and restore sage-grouse in the state 
of Utah.
    Good intentions do not make good policy. My earnest petition is 
that Congress let the people who are impacted the most enact the 
policies needed to protect our families, and our communities. I am 
asking you to protect a program that is unrivaled in the Nation.
    The success of our Watershed Restoration Initiative in restoring 
and protecting sage-grouse is one of the reasons why Utah's legislature 
passed a nearly unanimous bipartisan resolution in support of a bill 
introduced by Congressman Bishop to protect Utah's sage-grouse 
conservation efforts. Take action and pass legislation that to protect 
the proven on-the-ground conservation programs that are working for 
sage-grouse, sage-grouse habitats, and hardworking Americans.
    Thank you very much and I look forward to answering any questions 
that you may have.

                                 ______
                                 

    The Chairman. Thank you.
    Mr. Tubbs.

   STATEMENT OF JOHN TUBBS, DIRECTOR, MONTANA DEPARTMENT OF 
      NATURAL RESOURCES AND CONSERVATION, HELENA, MONTANA

    Mr. Tubbs. Good morning, Mr. Chairman, Ranking Member 
Grijalva, and members of the Committee. My name is John Tubbs, 
and I am the Director of the Department of Natural Resources 
and Conservation and the Chairman of the Montana Sage Grouse 
Oversight Team. Thank you for the opportunity to provide 
Montana's perspective on how Congress and the Administration 
can effectively empower state management for the greater sage-
grouse.
    I have three main points today. First and foremost, the 
states have been and will continue to be empowered if Congress 
and the Administration recognize and support the long history 
of bipartisan state-led collaboration to conserve the greater 
sage-grouse across its range in the West.
    States have served as the primary convener of diverse 
stakeholders for decades, and have been the primary drivers of 
policy initiatives, targeting sage-grouse conservation through 
the Western Association of Fish and Wildlife Agencies and the 
Western Governors' Association Sage Grouse Task Force. Congress 
and the Administration should continue to give deference to 
state leadership and should avoid actions that undermine years 
of collaborative efforts among our partners.
    Montana finalized its most recent plan in 2015. It too is 
grounded in the work of diverse stakeholders, and continues 
with an all lands/all hands approach. Montana's plan aligns 
closely with Wyoming's plan, only with a greater emphasis on 
private lands, where most of Montana's best sage-grouse habitat 
occurs. It also has a broad bipartisan support of the Montana 
State Legislature.
    Our stakeholders are directly engaged with our state 
program on a regular basis. They continue to express support 
for how the Federal plans and state plans work together in 
concert toward Montana's common shared goal of precluding the 
need to list the greater sage-grouse under the ESA, so that we 
maintain authority to manage our lands, our economy, and our 
wildlife.
    Second, Congress and the Administration can empower states 
by avoiding policy changes that foster uncertainty and hold the 
potential to land sage-grouse on the Endangered Species Act 
list. The conclusion that the sage-grouse did not warrant 
listing in 2015 was predicated on the fact that Federal and 
state land use plans provide the certainty required to 
demonstrate that the threats would be reduced in approximately 
90 percent of the breeding habitat and a majority of the 
occupied range.
    These regulatory mechanisms did not exist in 2010, when it 
was determined that a listing was warranted. Congress and the 
Administration should avoid changes that undermine the 
foundation of the 2015 not-warranted finding, and must consider 
how future risks of listing may disproportionately impact 
states.
    Montana is concerned that the potential changes to Federal 
plans may erode the very underpinnings that were critical to 
achieving the conservation rangewide of sage-grouse, and that 
it was sufficient to avoid listing in 2015. State plans alone 
are not sufficient. Montana believes potential legal issues 
could arise from taking a hasty and narrow view toward changing 
Federal plans. A thoughtful analysis is needed to identify 
elements of Federal plans that were necessary to conserve 
habitat and that were relied upon by the Service when it 
concluded that the listing was not warranted. Any changes that 
would undercut the efficacy of the conservation measures to 
address threats and measured against the best-available science 
should make us pause to reconsider.
    Finally, states can be supported by efforts to adaptively 
implement land use plans to address changing conditions, use 
new science, build consistency across ownerships with state 
conservation strategies. The Administration should use all 
available tools, including the issuance of guidance, 
instruction memoranda, training, and other strategies to build 
consistencies. The Administration must exercise due diligence, 
and consult with states prior to embarking on the costly, time-
consuming plan amendments.
    We spent 3 years developing those plans in Montana, 
engaging with our state BLM, multiple years working our state 
plan. We are in the process of implementing those plans, and 
believe that the next 3 years is most profitable, working 
together with our Federal partners toward the 2020 consistency 
review by the Service, as opposed to going back into plan 
amendment processes.

    With that, thank you for your time today.

    [The prepared statement of Mr. Tubbs follows:]
  Prepared Statement of John Tubbs, State of Montana, Chairman of the 
 Montana Sage Grouse Oversight Team and Director of Montana Department 
                          of Natural Resources

    Good morning Chairman Bishop, Ranking Member Grijalva and members 
of the Committee. My name is John Tubbs and I serve as Chairman of the 
Montana Sage Grouse Oversight Team and Director of the Montana 
Department of Natural Resources and Conservation. Thank you for the 
opportunity to provide Montana's perspectives on how Congress and the 
Administration can most effectively empower state management for the 
greater sage-grouse.

    I have three main points today.

    First and foremost, states have been and will continue to be 
empowered best if Congress and the Administration recognize and support 
the long history of bipartisan, state-led collaboration to conserve 
greater sage-grouse across its range in the West. States have served as 
the primary convener of diverse stakeholders for decades and have been 
the primary drivers of policy initiatives targeting sage-grouse 
conservation through executive action and through the Western 
Association of Fish and Wildlife Agencies and the Western Governors' 
Association Sage Grouse Task Force. Congress and the Administration 
should continue to give deference to state leadership and should avoid 
actions that undermine years of collaborative efforts among our 
partners.
    Second, Congress and the Administration can best empower states by 
avoiding policy changes that foster uncertainty and hold potential to 
land sage-grouse on the Endangered Species Act (ESA) list. The 
conclusion that sage-grouse did not warrant listing in 2015 was 
predicated on the fact that Federal and state land use plans provided 
the certainty required to demonstrate that threats would be reduced in 
approximately 90 percent of the breeding habitat and the majority of 
occupied range. These regulatory mechanisms did not exist in 2010 when 
it was determined that listing was warranted. Congress and the 
Administration should avoid changes that undermine the foundation of 
the 2015 not warranted finding and must consider how future risk of a 
listing may disproportionately impact states.
    Finally, states can be supported by efforts to adaptively implement 
land use plans to address changing conditions, use new science and 
build consistency across ownerships with state conservation strategies. 
The Administration should use all available tools including the 
issuance of guidance, instructional memoranda, trainings and other 
strategies to build consistency. The Administration must exercise due 
diligence and meaningfully consult with states prior to embarking on 
costly and time consuming plan amendments that may spark litigation or 
new petitions for an Endangered Species Act listing. Congress should 
avoid changes that limit the flexibility of Federal agencies to resolve 
conflicts when and where they occur under the Federal plans.

1.  States will continue to be empowered if Congress and the 
Administration recognize and support the long history of states' 
bipartisan collaboration to conserve greater sage-grouse

    Montana has a long history of bipartisan collaboration to conserve 
greater sage-grouse and their habitats. Montana sportsmen, resource 
managers, landowners and other conservation interests have been 
concerned about the status of sage-grouse as far back as the 1950s. 
Similar concerns across the West crystallized in a formal Memorandum of 
Understanding signed by Western Association of Fish and Wildlife Member 
Agencies and Federal natural resource management agencies in 2000. Each 
state committed to convene a work group and craft a plan.
    Montana adopted its first formal Greater Sage Grouse Management 
Plan in 2005. It was the product of a diverse working group that 
included representatives of Federal and state agencies, tribal 
representatives, private organizations, and the public. The Plan 
charted a path to achieve long-term conservation and enhancement of 
sagebrush steppe that would support not only sage-grouse, but people 
and other wildlife. It created local working groups. As importantly, it 
provided for coordinated management across jurisdictional boundaries 
and development of community support to balance conservation with 
social, cultural, and community values.
    New science, coupled with new or expanded potential threats to 
sage-grouse habitat and populations and litigation prompted Montana to 
update its original 2005 plan. Early in 2013, following efforts in 
Wyoming and other states, Governor Bullock issued Executive Order 2-
2013 creating a diverse citizen-based advisory council. The council was 
directed to gather information, furnish advice, and provide 
recommendations for a state-wide strategy to preclude the need to list 
the greater sage-grouse under the ESA.
    Private landowners, conservation groups, industry, and state and 
Federal partners worked together intensively for nearly a year. After 
extensive public comment and meetings around the state, the council 
finalized their recommendations. Governor Bullock issued Executive 
Order 10-2014 in 2014 based on their work.
    Recognizing the value of proactive stewardship and conservation, in 
2015 the Montana Legislature passed the Greater Sage Grouse Stewardship 
Act (Stewardship Act) by an overwhelming bipartisan majority, codifying 
many of the recommendations of the advisory council. The Legislature 
created the Montana Sage Grouse Oversight Team, which has met regularly 
since fall, 2015. Separately, the Montana Legislature appropriated 
funding to implement Montana's Sage Grouse Program and encourage 
voluntary conservation of private lands to address threats. In fact, 
Montana has committed $10 million toward private land conservation. In 
partnership with others thus far, Montana will have protected 72,000 
acres of private land from the threat of cultivation. Additional 
conservation measures have been implemented on private lands through 
Montana Fish, Wildlife & Parks.
    Governor Bullock issued Executive Order 12-2015 later in 2015 to 
address additional program needs. Taken together, Executive Order 12-
2015 and the Stewardship Act comprise Montana's Conservation Strategy 
(or State Plan). Montana's plan aligns closely with Wyoming's plan, 
only with a greater emphasis on private lands where most of Montana's 
best sage-grouse habitat occurs.
    Montana has nearly 1,000 leks and an estimated 18 percent of the 
total greater sage-grouse population and nearly 20 percent of the 
rangewide habitat; however, about 78 percent of the occupied range is 
in state, tribal and private landownership. Only 22 percent of the 
occupied range is federally owned and managed in Montana.
    Montana takes an ``all lands/all hands'' approach to sage-grouse 
conservation because private lands and state trust lands are 
intermingled with Federal lands in a checkerboard fashion. By working 
with private landowners, conservation groups, industry, and Federal 
agencies, Montana has found a path forward that conserves working 
landscapes and that supports sage-grouse, other wildlife, agriculture, 
economic opportunities for industry, and outdoor recreation.
    Diverse stakeholders have been at the table every step of the way 
in Montana. They lobbied extensively in support of the Stewardship Act 
in 2015 and continue to be directly engaged with Montana's Sage Grouse 
Program on a regular basis. Moreover, they continue to testify before 
the Montana Legislature and various interim committees to support 
Montana's sage-grouse conservation efforts to this day. They also 
express support for how the Federal plans and the State Plan work 
together and in concert toward Montana's common, shared goal: 
maintaining authority to manage our lands, our economy, and our 
wildlife.
    Similar collaborative efforts occurred in other western states, and 
governors have led the way. Along with local citizens and Federal 
partners, states have forged a path that balances economic opportunity 
with conservation. States are committed to maintaining the state and 
Federal conservation efforts developed at the local level, which when 
taken together, will preclude the need to list sage-grouse under ESA 
across its range.
    Meaningful consultation and coordination between states and the 
Federal Government has been a hallmark of this effort. Governors have 
consistently demanded that the Department of the Interior offer direct 
and meaningful consultation opportunities given states' track record, 
the commitments of our partners, and the leadership role and 
responsibility states have for managing wildlife. Those expectations 
have been the same, regardless of the administration.
    Given decades of bipartisan work, Congress and the Administration 
must continue to stand behind and respect state efforts and avoid 
actions that unnecessarily polarize the collaborative work of our 
partners. States have consistently requested the Department of the 
Interior work hand in hand with the Western Governors Sage Grouse Task 
Force. Only the governors can speak for whether this consultation is 
adequate. Future policy actions must be developed in concert with the 
states--top down approaches from Washington, DC, whatever their 
intentions, must not be pursued under the guise of state empowerment.

2.  States will continue to be empowered if Congress and the 
Administration avoid policy changes that foster uncertainty and hold 
potential to disproportionately impact individual states

    In 2010, the U.S. Fish and Wildlife Service (USFWS or Service) 
identified habitat loss, fragmentation, and the inadequacy of existing 
regulatory mechanisms to address threats as the key factors leading to 
the determination that ESA protections for the greater sage-grouse were 
warranted. Populations had been in decline for decades and some local 
populations had been extirpated.\1\
---------------------------------------------------------------------------
    \1\ See 80 Fed. Reg. 59858, 59870 (Oct. 2, 2015).
---------------------------------------------------------------------------
    In September of 2015, the Service concluded that the primary 
threats were ameliorated by conservation efforts implemented by 
Federal, state, and private landowners. Regulatory mechanisms were 
adopted in three state plans and in the Federal land use plans, 
incorporating conservation principles identified by the scientific 
experts to substantially reduce risks through avoidance and 
minimization measures at a landscape scale.\2\ These efforts were 
complimented by voluntary conservation efforts on private lands by 
individual landowners, the NRCS Sage Grouse Initiative, and Candidate 
Conservation Agreements with Assurances.
---------------------------------------------------------------------------
    \2\ See 80 Fed. Reg. 59858, 59874-59882 (Oct. 2, 2015).
---------------------------------------------------------------------------
    Along with Wyoming and Oregon, Montana is one of the three states 
that adopted affirmative regulatory mechanisms that addressed threats 
to sage-grouse. In contrast, other states adopted primarily voluntary 
state plans. Federal land use plans filled the gaps across the West 
through sage-grouse specific provisions and land use allocations. 
Federal land use plans provided the high degree of certainty required 
to demonstrate that threats would be reduced across approximately 90 
percent of the breeding habitat and the majority of occupied range 
because common elements were included across the range which avoided 
and minimized disturbance in the remaining large priority blocks of 
habitat, while also providing management flexibility in areas that are 
less critical for conservation.\3\ The Federal plans and state plans 
from Wyoming, Oregon, and Montana provide protective, regulatory 
mechanisms for the majority of the most important habitat for sage-
grouse. All told, the Montana, Wyoming and Oregon plans provide 
assurances for over 56 million acres of occupied range on state, tribal 
and privately-owned lands.
---------------------------------------------------------------------------
    \3\ See 80 Fed. Reg. 59858, 59874-59882, 59928, 59931, 59934 (Oct. 
2, 2015).
---------------------------------------------------------------------------
    The 2015 not warranted finding relies on the foundation of both the 
state and Federal plans. The regulatory nature of state plans from 
Wyoming, Oregon, and Montana provided the greatest degree of certainty 
in addressing threats on state and private lands and were complemented 
by other state plan efforts, and the voluntary work of NRCS with 
private landowners. The Federal plans provided new regulatory 
mechanisms on over half of the occupied sage-grouse range that did not 
exist in 2010 when listing was warranted and sage-grouse became a 
candidate for listing.\4\ The new sage-grouse measures and land use 
allocations adequately addressed threats, and through common elements, 
conserved the most important habitats across the range of the 
species.\5\ All states benefited from the Federal plans contributing to 
habitat conservation and threat abatement in consistent ways across the 
range, regardless of whether individual state plans were regulatory or 
voluntary. This is because the Service analyzed the adequacy of habitat 
conservation measures, threats, and the combined effect of state and 
Federal regulatory mechanisms at a landscape scale and rangewide.
---------------------------------------------------------------------------
    \4\ See 80 Fed. Reg. 59858, 59873-59882, 59928 (Oct. 2, 2015).
    \5\ See 80 Fed. Reg. 59858, 59874-59882, 59928, 59931, 59934-59936 
(Oct. 2, 2015).
---------------------------------------------------------------------------
    Montana believes there are potential legal issues that could arise 
from taking a hasty and narrow view toward changing Federal plans. 
First, a thoughtful analysis is needed to identify elements of the 
Federal plans that were necessary to conserve habitat through avoidance 
and minimization measures in key habitats across the range and that 
were relied upon by the Service when it concluded that listing was not 
warranted in 2015. Any changes that would undercut the efficacy of 
conservation measures to address threats, as measured against the best 
available science, should give us pause to reconsider. Sage-grouse do 
not tolerate habitat loss and fragmentation very well, nor are they 
good pioneers. The science is unambiguous in that regard.
    Second, the sum of changes within individual states must be 
analyzed when they are aggregated up to a landscape scale and across 
the range. If the aggregate of changes undercuts that which is 
necessary to address threats adequately and sustain sage-grouse into 
the future, then litigation is not only certain, but a listing is also 
likely. Here, Montana again stresses the need for due diligence and 
meaningful consultation prior to moving forward.
    Montana is very concerned that potential changes to Federal plans 
may erode the very underpinnings that were critical to achieving 
conservation rangewide and that was sufficient to avoid a listing in 
2015. State plans alone are not, and will not ever be, adequate.
    Montana did however identify a number of areas where plans could be 
improved as part of our governor's consistency review. To date, those 
issues have been addressed through administrative arrangements not 
requiring plan amendment at the state level. Shortsighted, piecemeal 
changes to Federal plans (individually or collectively) would be a step 
back in time to the days when management was focused on administrative 
boundaries alone, not natural resources on a landscape scale. Piecemeal 
changes could impact and fragment larger blocks of known valuable 
habitat, and as a result, could lead to population declines and 
eventual listing. Montana would be disproportionately impacted by such 
a result.
    Montana's most valuable sage-grouse habitats occur on private 
lands. In fact, 66 percent of Montana's sage-grouse habitat is 
privately owned. That's 21,582,000 acres. An additional 2.2 million 
acres of sage-grouse habitat is state trust land. All told, about 75 
percent of Montana's sage-grouse live on private and state trust lands. 
For generations, Montana ranchers have knit together grazing 
opportunities on private, state, and Federal lands to sustain their 
families and the integrity of the land.
    The impacts to private landowners and Montana's economy if sage-
grouse were listed would be severe, in both regulatory and pragmatic 
ways. Montana's private landowners should not be forced to carry the 
burden for more than their fair share of the stewardship responsibility 
to preclude or respond to an ESA listing.
    Habitat conservation for sage-grouse translates to habitat for big 
game. Montana has a deep tradition of hunting on both public and 
private lands. Big game hunting in Montana contributes $324 million 
annually to the Montana economy. In counties that contain designated 
sage-grouse habitats, big game hunters spend over $113.5 million 
annually when hunting Montana's checkerboard landscape.\6\ For these 38 
rural counties, hunter expenditures have significant and positive 
impacts on local economies. Montana's motto of ``think habitat'' 
applies equally to sage-grouse and big game. The state recognizes the 
synergies between sage-grouse conservation, maintaining working 
ranchlands, and supporting our hunting heritage.
---------------------------------------------------------------------------
    \6\ Montana Fish, Wildlife & Parks (2016); see https://
mtfwp.maps.arcgis.com/apps/Cascade/
index.html?appid=0fa1de4222074cdeb7dbf0710ecb2ee0.
---------------------------------------------------------------------------
    Sagebrush habitats in the West support over 300 other wildlife 
species, any one of which could be in trouble and heading for the ESA 
emergency room. We have limited data for most of these species, but are 
confident that addressing threats to sage-grouse through habitat 
conservation will take care of them, too.
    Congress and this Administration can empower states by fully 
funding Federal agencies to implement their missions and respective 
land management plans. The existing Federal plans account for the 
complexity of managing millions of acres at a landscape scale and 
endeavor to balance multiple use mandates with conservation. This work 
is expensive, but critical to sustaining future energy development and 
outdoor recreation over the long haul. Farm Bill conservation programs 
remain critical to sage-grouse conservation on working lands and must 
continue to receive adequate funding.

3.  States can be supported by efforts to adaptively implement land use 
plans to address changing conditions, use the best available science 
and build consistency across ownerships with state conservation 
strategies

    In July of 2015, Montana voiced a number of concerns regarding 
potential issues with the BLM sage-grouse plans in our governor's 
consistency review letter. We continue to see the need for improvement 
and consistency in some areas. However, we have also learned a lot in 
the first 2 years of implementing the state and Federal plans. Many 
issues flagged at the outset in 2015 have either not materialized or 
have not proven to be insurmountable. We have found ways to address 
them administratively and expect to find new ways in the future.
    For example, Montana BLM now implements Montana's disturbance cap 
threshold of 5 percent. This has been or soon will be institutionalized 
through a new Instructional Memorandum from the BLM State Office. The 
state and Montana BLM now take the same analytic approach to range 
improvement projects. Going even further, conversations have already 
begun in Montana about increasing training and collaboration between 
BLM and livestock producers. This would ensure consistent and effective 
implementation of the plans while also providing needed flexibility for 
local managers to implement science-based management at the local site 
scale in an ecologically meaningful way that's appropriate for Montana 
habitats. It also provides certainty for ranching families. Federal 
land use plans were always expected to evolve based on changing needs 
and circumstances. We have already seen that in Montana, and we will 
continue to adapt and resolve issues locally in the future. A 
commitment to flexibly address conflicts when and where they occur is a 
cornerstone of Montana's Greater Sage Grouse Plan and has proven to be 
a tenant that has been supported by our Federal agency partners.
    Nonetheless, there are areas where alignment could still be 
improved. But it is equally important that we analyze and exhaust the 
full range of administrative tools to address inconsistencies and 
resolve conflicts before resorting to lengthy, costly plan amendments 
under NEPA. Once more, it is equally important that we ensure that any 
new proposed changes to the Federal sage-grouse plans not create 
further inconsistencies with state policy. Top down policy from 
Washington, DC holds potential to further exacerbate the 
inconsistencies with state and Federal efforts rather than resolve 
them.
    Montana believes the most efficient approach to address concerns is 
to look at the full spectrum of tools, ranging from public outreach to 
staff training, instructional memoranda at the national and state 
levels, and maintenance actions to existing plans. In short, we can 
best move forward by refining the existing plans. It is imperative that 
we avoid prolonged and unnecessary work that would unravel the 
foundation of the 2015 ``not warranted'' finding to the point that we 
all risk a result we worked so hard to avoid. Adaptive implementation 
of the plans can reduce uncertainty for our partners, industry, and 
working ranch families who take care of the land and the wildlife on 
our behalf and can help address inconsistencies efficiently. While 
properly vetted, limited plan amendments may be needed to address 
concerns over time, Montana believes most conflicts can be addressed in 
the near term through other means.

    Thank you for the opportunity to share Montana's perspective. We 
look forward to continuing our work with Congress and the 
Administration to improve certainty, address inconsistencies with state 
policy through adaptive actions, and support the collaboration among 
diverse partners that resulted in the 2015 not warranted finding.

                                 ______
                                 
Questions Submitted for the Record by Rep. Grijalva to Mr. John Tubbs, 
  Director of Montana Department of Natural Resources and Conservation

    Question 1. Wildfire is a concern throughout greater sage-grouse 
habitat. Secretary Jewell issued Secretary Order 3336 in 2015 to 
address this concern and develop, in partnership with Federal and state 
agencies, working guidelines and plans that break the cycle of 
spreading invasive, non-native grasses after wildfires. In 2016, 
Jewell's Interior Department issued the Integrated Rangeland Fire 
Management Strategy Actionable Science Plan. Do you believe Secretary 
Jewell's response was timely and appropriate? Do you believe it would 
be wise to stick with this approach rather than roll it back or 
substitute range management that is not based on sound science? Can you 
discuss these wildfire planning efforts and what is being done across 
the West to restore the sagebrush ecosystem?

    Answer. Yes. The Integrated Rangeland Fire Management Strategy 
(Strategy) and the Integrated Rangeland Fire Management Strategy 
Actionable Science Plan (Science Plan) represent affirmative actions 
that can be taken by local, state, and Federal agencies to address 
wildfire, which is a primary threat to sagebrush ecosystems. The threat 
of habitat loss and fragmentation due to wildfire is particularly acute 
and serious in the Great Basin.
    Development of both the Strategy and the Science Plan was timely, 
appropriate, and essential to the U.S. Fish and Wildlife Service 
(USFWS) 2015 determination that listing the Greater Sage Grouse (GRSG) 
was not warranted.\1\ Without these documents, there would be little, 
if any, coordinated and dedicated approach to addressing the 
significant and stochastic wildfire threat that evades all state and 
Federal regulatory mechanisms. Ongoing implementation and adaptive 
refinement should continue in the future. The Strategy is proactive and 
has utility throughout the West, not just states with greater sage-
grouse populations.
---------------------------------------------------------------------------
    \1\ See 80 Fed. Reg. 59858, 59906-59908 (Oct. 2, 2015).
---------------------------------------------------------------------------
    Wildfire kills sagebrush and results in the direct loss of 
sagebrush habitat upon which GRSG depend. In 2010, the USFWS identified 
wildfire as one of the primary factors linked to GRSG declines due to 
the long-term loss of sagebrush and conversion of sagebrush steppe 
habitats to invasive annual grasses such as cheatgrass. At that time, 
USFWS determined that GRSG warranted listing under the Endangered 
Species Act.
    Fire intensity and frequency had been increasing due to the 
establishment of a positive feedback loop between increasing wildfires, 
elimination of sagebrush, and subsequent invasion and establishment of 
cheatgrass--which itself acts as a fine fire fuel leading to increased 
fire intensity and frequency and further precluding re-establishment of 
sagebrush. Development of the Strategy and Science Plan was in direct 
response to the 2010 finding, which identified the lack of any 
integrated fire strategy and concluded that gaps in scientific 
knowledge were problematic.
    The USFWS relied on the Strategy and Science Plan documents, as 
well as their implementation, when analyzing the threat of habitat loss 
and fragmentation due to wildfire in order to reach its conclusion that 
listing was not warranted in 2015.
    Addressing the threat of wildfire and annual invasive grasses is 
vital to long-term GRSG conservation. This is clearly set forth in the 
USFWS administrative record going back at least 10 to 15 years. The 
negative impacts of fire on GRSG and its sagebrush habitat are also 
long supported in the scientific, peer-reviewed literature.
    For example, in the absence of the Strategy and Science Plan and 
under the current burn rates, about 17-25 percent of GRSG range within 
the Great Basin could be impacted in the next 20-30 years. Without 
affirmatively managing wildfire response and restoration, wildfire and 
invasive plants could cause GRSG abundance to decline by 43 percent 
over the next 30 years.\2\ This has important implications for long-
term conservation of the species over a significant portion of its 
range.
---------------------------------------------------------------------------
    \2\ See 80 Fed. Reg. 59858, 59900 (Oct. 2, 2015).
---------------------------------------------------------------------------
    The Strategy outlined a long-term approach to better prevent and 
suppress wildfire through improved efficiency and efficacy of response 
and restoration of fire-impacted areas. Even while maintaining the 
safety of firefighters and preserving the efficiency of operations, the 
Strategy prioritized the protection, conservation, and restoration of 
the sagebrush steppe ecosystems particularly for GRSG.
    Quite simply, states and Federal agencies share a common goal to 
reduce the size, severity and cost of rangeland wildfires. The Strategy 
concluded that a coordinated, science-based adaptive management 
approach was needed. One of the action items specifically called for 
enhancing the capability, capacity, and utilization of non-Federal 
wildlife fire assets and organizations so that local communities were 
in a better position to provide local protection. Rural Fire Protection 
Associations were specifically mentioned. The Strategy also called for 
a coordinated approach to positioning fire-management resources to 
improve fire response and post-fire restoration actions.
    The Strategy also identified the need for and recommended 
development of an actionable science plan to improve knowledge, reduce 
uncertainty and provide better tools for local communities, livestock 
grazing permittees, and on-the-ground fire and natural resource 
managers.
    The Science Plan was completed in 2016. It was developed by a 
multi-disciplinary team comprised of state and Federal experts in their 
respective fields. The document: (1) prioritizes research needs to fill 
current knowledge gaps; (2) connects scientists with fire and natural 
resource managers so managers can make informed decisions and achieve 
management objectives; and (3) creates a process to fund the needed 
science, implement research, and communicate results.
    Specifically, the Science Plan prioritized a total of 37 science 
needs--areas where more research is needed: 8 are specific to fire; 6 
are specific to invasives; 10 are related to restoration; 9 are 
specific to sagebrush and GRSG; and 4 that are related to climate and 
weather. A key emphasis of the Science Plan is to get information and 
tools to on-the-ground fire and land managers so they can make better 
decisions and achieve better outcomes with, and on behalf of, local 
communities. One example where new science has direct application to 
management is a recent study that found that annual wildfire risk 
across the Great Basin can be modeled and predicted based on 
precipitation patterns alone (e.g. consecutive wet years followed by 
consecutive dry years). This information can be applied ahead of each 
fire season to adjust wildfire preparedness or plan fuel treatments as 
appropriate.\3\
---------------------------------------------------------------------------
    \3\ See Pilliod, D.S., Welty, J.L. and Arkle, R.S. 2017. Refining 
the cheatgrass-fire cycle in the Great Basin: precipitation timing and 
fine fuel composition predict wildfire trends. Ecology and Evolution, 
1-26.
---------------------------------------------------------------------------
    With respect to invasives, annual exotic grasses like cheatgrass 
are more prevalent in the Great Basin than the Rocky Mountain 
States.\4\ Absent cheatgrass, many sagebrush ecosystems have 
experienced frequent fire return intervals but exhibited resilience to 
mixed-severity fires common across the West. Range management through 
livestock grazing alone, even if it were infallible, will not be 
sufficient to address habitat loss and fragmentation due to wildfire at 
the necessary scale. Wildfire risk is compounded by unfavorable soil 
and moisture regimes regionally, due to low resistance to fire in the 
first instance, as well as by growing conditions at localized scales in 
any given year. In addition to well-managed grazing practices, 
eradication of invasives such as cheatgrass and restoration of native 
species is required to foster resilience to changing conditions.
---------------------------------------------------------------------------
    \4\ See 80 Fed. Reg. 59858, 59898-59900 (Oct. 2, 2015).
---------------------------------------------------------------------------
    An estimated 2,070,451 acres of GRSG burned in 2017 across the 11 
western states. In Nevada alone, approximately 965,567 acres burned. 
The total number of acres burned rangewide in 2017 is up substantially 
from 2016 (626,268 acres) and 2015 (562,734 acres). It unrealistic to 
think that grazing regimes can effectively reverse soil moisture 
patterns, improve resistance to fire, and align weather and climatic 
trends to neutralize the fact that large portions of GRSG range is 
already predisposed to significant wildfire, particularly in the Great 
Basin.
    About 54 percent of GRSG breeding habitat in substantial portions 
of Nevada and Utah is classified as having a low resistance to wildfire 
and invasion by exotic species. Range management at that scale is not 
commensurate with the response necessary to truly address the threat of 
more frequent and intense wildfire.
    Ameliorating the risk of habitat loss and fragmentation due to 
wildfire at the scale necessary to ensure that listing is never 
warranted requires a more direct, concerted approach--like the Strategy 
and the Science Plan. Continued implementation of both the Strategy and 
the Science Plan is needed to reduce future losses of sagebrush 
habitats, successfully restore that which does burn, and to break the 
cheatgrass invasion-wildfire cycle. To be successful at addressing the 
primary threat of wildfire, managers need to make scientifically 
informed decisions. These documents are scientifically sound.
    Last, the Western Governors' Association (WGA) National Forest and 
Rangeland Management Initiative was launched in July 2016 under Montana 
Governor Steve Bullock's tenure as Chair. This Initiative will 
ultimately lead to valuable administrative and legislative 
recommendations for improving forest and rangeland management. The 
goals of the initiative are to:

    <bullet> Examine existing forest and rangeland management 
            authorities and programs to determine their strengths and 
            weaknesses;

    <bullet> Perform a detailed investigation of the role of 
            collaboratives in landscape restoration;

    <bullet> Create a mechanism for states and land managers to share 
            best practices, case studies, and policy options for forest 
            and rangeland management; and

    <bullet> Recommend improved forest and rangeland management 
            authorities and encourage more effective collaboration.

    A Report was issued in June of 2017.\5\ Based upon the input from 
state and Federal land managers, private landowners, local governments, 
businesses and non-governmental organizations, WGA sought to identify 
best practices and offer recommendations that put western states on a 
path toward healthier, more resilient ecosystems, while continuing to 
support diverse economic opportunities for western communities. The 
Report's findings and recommendations speak to many of the same themes 
raised in the Strategy document: the need for improved collaboration 
and coordination with respect to regional land management challenges 
and opportunities for restoration. The Report also calls for the 
application of the best available science. The Science Plan charts a 
path to fill important knowledge gaps.
---------------------------------------------------------------------------
    \5\ See Special Report: Western Governors' National Forest and 
Rangeland Management Initiative. June 2017 (available at: http: / / 
westgov.org/reports/national-forest-and-rangeland-management-
initiative-special-report).
---------------------------------------------------------------------------
    During the Initiative's second year, Western Governors will be 
primarily focused on the implementation of recommendations in the First 
Year Report, within their own states, collaboratively through WGA and 
with the U.S. Congress. Opportunities to further refine the Integrated 
Rangeland Fire Management Strategy and the Actionable Science Plan may 
be identified.

    Question 2. A 2013 study conducted by scientists at Oregon State 
University and published in the Journal of Applied Ecology found that 
``cattle grazing reduces invasion resistance [to cheatgrass]'' and 
``exacerbates [cheatgrass] dominance in one of North America's must 
endangered ecosystems''--the sagebrush steppe. In light of that fact, 
do you agree with other witnesses that increased grazing is the best 
way to reduce cheatgrass invasions and wildfire potential?

    Answer. No. Historically speaking, improper grazing and severe 
drought affected the sagebrush ecosystem and GRSG habitat across the 
West. Grazing that was inconsistent with local ecological conditions, 
coupled with other disturbance pressures reduced the vigor of native 
rangeland plants and resistance to invasion by exotic annual species 
like cheatgrass. Long-term changes in plant communities and soils 
resulted so that exotic annual grasses like cheatgrass flourished. 
These shifts permanently changed the ecological trajectory of 
rangelands that were historically overgrazed because thresholds of 
recovery by native perennial species were crossed. The entire plant 
community structure shifted. Now, these areas are more prone to 
wildfire, as discussed above.
    Carefully prescribed livestock grazing in the spring or late fall 
may be effective in controlling cheatgrass in small, localized areas. 
This is in combination with other methods of control. The goal is to 
prevent cheatgrass from producing seeds while at the same time not 
impacting desirable native perennial vegetation through overgrazing. 
Preventing seed production should reduce the number of seeds in the 
soil overall, as seeds only remain viable for about 2 to 3 years. Also, 
maintaining the vigor of desirable perennial species and preventing 
soil disturbance helps prevent cheatgrass invasion and expansion.
    However, a blanket increase in grazing is not the best way to 
reduce cheatgrass invasions and potential for wildfire. This is because 
cheatgrass is only palatable as livestock forage during the early 
spring green-up period, not season long. After a certain point in the 
growing season, it is no longer suitable for livestock grazing and 
livestock may then overgraze desirable species. Once grazed, 
cheatgrass' residual growth (from early spring through to when seeds 
are set and the plant cures) will eventually become the fine fuel which 
carries wildfire.
    The upshot is that cheatgrass is not palatable forage for a long 
enough period of time, nor can it be grazed intensively enough to 
actually reduce the frequency of fire, its intensity, or its behavior. 
Quite the opposite is true. Cheatgrass thrives in disturbance. The 
greater the disturbance, the more it thrives. The relationship between 
fire frequency, intensity, and behavior and cheatgrass cannot be 
explained alone, nor will it be strongly influenced by, livestock 
grazing at the scales necessary for conservation of sagebrush 
landscapes and GRSG. As noted above, as cheatgrass abundance increases, 
wildfires become more frequent and more intense. Native perennial 
rangeland plant species are lost eventually, leaving a near monoculture 
of cheatgrass, ripe for recurring wildfires.
    Rather than a blanket increase in grazing, most rangeland 
management and noxious weed professionals recommend targeted grazing to 
avoid negative impacts to livestock performance and range conditions 
and further recommend that targeted grazing be complemented with an 
integrated strategy for invasive control and restoration. Careful, 
targeted grazing is one tool among many that may help reduce the 
impacts of invasive species and wildfire.

                                 ______
                                 

    The Chairman. Thank you. Now Mr. Goicoechea, who is not 
only a Commission Chairman, but also, I think, Chairman of the 
Ecosystem Council in Nevada.
    You are recognized for 5 minutes.

STATEMENT OF THE HON. J.J. GOICOECHEA, DVM, CHAIRMAN, BOARD OF 
          EUREKA COUNTY COMMISSIONERS, EUREKA, NEVADA

    Dr. Goicoechea. Chairman Bishop, Ranking Member Grijalva, 
and members of the Committee, my name is Dr. J.J. Goicoechea, 
and I am a fourth-generation cattle producer from Eureka, 
Nevada. I am the current Vice Chair of the National Cattlemen's 
Beef Association Federal Lands Committee, and the Chairman of 
the Eureka County Board of County Commissioners. It is a 
pleasure to testify before you today regarding empowering 
state-based management for the greater sage-grouse.
    A fundamental question before us today is what is being 
done today at local and state levels that benefits the recovery 
of the greater sage-grouse. It should be no surprise that 
western states are actively implementing plans within their 
respective borders that are having positive impacts on 
habitats.
    In 2013, Nevada took a major step in providing for the 
management and recovery of the greater sage-grouse. The 
creation of the Nevada Sagebrush Ecosystem Council by the 
Nevada Legislature during that session demonstrated Nevada's 
commitment to the long-term management of the sagebrush 
ecosystem and the species that rely upon it. These species 
include the multiple-use industries dependent upon those same 
ecosystems for their survival.
    Nevada, like most other western states, developed a state-
specific plan for the conservation of the greater sage-grouse. 
It contained state-specific goals and objectives, and was 
intended to be the preferred alternative for the 2015 Nevada, 
Northeastern California land use plan amendment. Instead, a 
broader cookie-cutter approach was taken by the Federal 
agencies. In an attempt to find consistency in the West, the 
Department of the Interior greatly overlooked the fact that no 
two states are exactly alike, no two states have the exact same 
threats and impacts.
    The arbitrary designation of millions of acres of sagebrush 
focal areas and further restricting the very activities that 
made these areas the best of the best is an example of over-
reach and a top-down approach to management that has failed in 
the past, and will only harm populations of sage-grouse if left 
in place.
    Similar to my counterparts, the major threats in Nevada to 
the greater sage-grouse are fire and invasive species. Nevada 
is working diligently with the BLM in an attempt to limit the 
size and severity of wildfires in our state, and to better 
manage invasive species. But we continue to encounter hurdles 
as we work to decrease invasive annual grass.
    The vast majority of these hurdles at the district office 
level arise from the 2015 LUPAs, including the habitat 
objectives contained in Table 2.2. This table, while perhaps 
ideally what sage-grouse would like to have for habitat, is 
being used as nothing more than a tool to further limit 
multiple use on Federal lands, and in the process is allowing 
for fuel loading and the continued spread of invasive species.
    This last summer, a prime example of this occurred in 
Nevada. A ranching operation asked for a period of time to 
leave their cattle on beyond their permit, due to an increased 
fuel load from two back-to-back record winners. The request was 
denied, the cattle were moved, and on July 9 at 4:00 p.m. in 
the afternoon the Rooster Comb Fire ignited. Before it was 
contained, 220,000 acres of sage-grouse habitat had burned in 
Elko, Lander, and Eureka Counties.
    While the birds in that area of the Rooster Comb Fire may 
have ideally wanted 7 inches of deep-rooted perennials and 25 
percent forb cover, today they have 220,000 acres of zero 
cover, no perennial plants, and another attempt to restore 
burned habitat begins with the issuance of livestock grazing 
closures for that area.
    As you can see from my written testimony, Nevada is clearly 
aware of the threats to our state. We are committed to helping 
our Federal land management partners, and we have the statutory 
authority within the Sage Brush Ecosystem Council to coordinate 
with Federal agencies. The creation of the Nevada State Plan 
was an example of collaboration and coordination among all 
groups.
    If there is still a perception that there is a lack of 
regulatory mechanism in place for protecting the greater sage-
grouse, let me say it is not a lack of regulatory mechanisms, 
it is the wrong regulatory mechanisms. Why don't we listen to 
state and local officials that implement plans that were 
developed at the ground level?
    The top-down approach has squeezed public land industries, 
all while continuing to lose sensitive habitats and imperil 
wildlife species. If the true goal is conservation, put it back 
in the hands of those closest to the land. If the goal instead 
is to remove economic drivers from rural communities and there 
is no desire to protect habitats, then we can continue on the 
path that we are on.
    Thank you, Mr. Chairman.

    [The prepared statement of Mr. Goicoechea follows:]
  Prepared Statement of Julian Joseph (J.J.) Goicoechea on behalf of 
Public Lands Council, Nevada Cattlemen's Association, and Eureka County 
                                 Nevada
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Subcommittee, my name is J.J. Goicoechea and I am a fourth generation 
cattle producer from Eureka, Nevada. I am a past president of the 
Nevada Cattlemen's Association and currently serve on the Executive 
Committee for that organization and I am the current Vice-Chair of the 
National Cattlemen's Beef Association Federal Lands Committee. In 
addition, I am in my second term as a Eureka County Nevada Commissioner 
and currently serve as chairman of the board. In 2013 I was appointed 
to represent Local Government on the Nevada Sagebrush Ecosystem Council 
and last year I was reappointed to a second term. I have been honored 
to serve as the chairman of the SEC since its creation. It is a 
pleasure to testify before you today regarding empowering state based 
management for the greater sage-grouse.
    A fundamental question before us today is what is being done at the 
local and state levels now that benefits the ``recovery'' of the 
greater sage-grouse. It should be no surprise that western states are 
actively implementing plans within their respective states that are 
having positive impacts on habitats. In 2013, Nevada took a major step 
in providing for the management and recovery of the greater sage-
grouse. The creation of the Nevada Sagebrush Ecosystem Council by the 
Nevada Legislature during the 2013 regular session demonstrated 
Nevada's commitment to the long-term management of the sagebrush 
ecosystem and the species that rely upon it. These species include the 
multi-use industries that rely upon this same ecosystem for their 
survival. Nevada Revised Statute 232.162, the chapter establishing the 
Nevada Sagebrush Ecosystem Council, reads in part;

        7. The Council shall:

        (a) Consider the best science available in its determinations 
        regarding and conservation of the greater sage grouse 
        (Centrocerus urophasianus) and sagebrush ecosystems in this 
        State;

        (b) Establish and carry out strategies for:

        (1) The conservation of the greater sage grouse and sagebrush 
        ecosystems in this State;

        (h) Coordinate and facilitate discussion among persons, federal 
        and state agencies, and local government concerning the 
        maintenance of sagebrush ecosystems and the conservation of the 
        greater sage-grouse;

    Nevada, much like most other western states, developed a State Plan 
for the conservation of the greater sage-grouse. This plan, entitled 
the 2014 Nevada Greater Sage Grouse Conservation Plan was adopted 
October 1, 2014 and updated April and May of 2015. The Nevada plan 
contains specific goals and objectives for Nevada. It also identified 
state specific threats to the greater sage-grouse and the sagebrush 
ecosystem. The Nevada plan was intended to be the preferred alternative 
in the 2015 Nevada and Northeastern California Land Use Plan Amendment 
by the Bureau of Land Management. Instead, a broader cookie cutter 
approach was taken by the Federal agencies. In an attempt to find 
``consistency'' in the West, the Department of the Interior greatly 
overlooked the fact that no two states are exactly alike, no two states 
have the exact same threats and impacts. Even within states, the 
threats vary among geography location, elevation, and land management 
agencies, etc. In addition, many habitats and populations of sage-
grouse are stable. A robust plan should include the protection of these 
areas and birds in addition to providing lift to others in need. The 
arbitrary designation of millions of acres as Sagebrush Focal Areas and 
further restricting the very activities that made these areas the best 
of best is an example of over-reach and a top down approach to 
management that has failed in the past and will only harm populations 
of sage-grouse if left in place. At no time did the state of Nevada 
endorse or advocate for a special land designation. The Sagebrush 
Ecosystem Council recognizes the importance of quality habitat and is 
ultimately responsible for its protection and enhancement. Restricting 
activities lessens the value of credits created in Nevada's 
Conservation Credit System and actually deters enrollment in protective 
actions that would benefit the sage-grouse for generations.
    Nevada can't carry out our own legislatively mandated management of 
sage-grouse and habitat in our state because the Federal agencies 
elected to once again take a heavy handed top down approach to 
management. Wildlife is the responsibility of the state in which they 
reside. If a species is not on the Endangered Species List, it should 
be the state making decisions for the species.
    The major threats to the GS in Nevada are fire and invasive species 
that often invade the ecosystem after fire. Nevada is working 
diligently with the BLM in an attempt to limit the size and severity of 
wildland fires in our state and to better manage invasive species. We 
continue to encounter hurdles as we work to decrease fuel loading 
invasive annual grass seed loads. The vast majority of these hurdles at 
the District Office level arise from the 2015 LUPAs. Habitat objectives 
for the GS included in the LUPAs are a recipe for disaster when 
considering their impacts on fire behavior. Grazing allotments in SG 
habitat need to meet the objectives contained in Table 2.2. This table, 
while perhaps ideally what SG would like to have for habitat is nothing 
more than a tool to further limit multiple use on Federal lands, and in 
the process allow for fuel loading and the continues spread of invasive 
species. How can the driest state in the Nation address its top threat 
to SG, fire, when a table being used by BLM employees to manage lands 
is defining habitat as having a minimum of 7 inches of droop height. 
When managing for a native deep rooted perineal plant to have 7 inches 
of height in the summer months, what do you think we are also managing 
for?
    It is no secret that cheatgrass is the Number one invasive plant 
threat in Nevada today. Cheatgrass greens up early, ahead of native 
perineal plants and takes the nutrients and water from the soil before 
the native plants growing season. As we wait idly by with our rulers 
and yard sticks, hoping the native grasses get to 7 inches, hoping we 
maintain a canopy cover of shrubs for nesting, we are allowing gasoline 
to grow unchecked. By June, the cheatgrass is over a foot tall in 
places, it is cured, meaning seed heads have developed, it is no longer 
palatable to animals and it waves in the wind waiting for a spark. When 
the spark comes, Nevada's Number one threat to sage-grouse and sage-
grouse habitat once again devastates the ecosystem. Fires of 200,000 
acres plus gobble up islands of previously unburned habitat and 
annihilate restoration efforts in old burn scars. We are seeing the 
same areas burn again and again. What is the first step taken when this 
happens? Remove the one tool that could have prevented severity of the 
fires in the first place, grazing.
    This last summer a prime example of this occurred in Nevada. Late 
spring a ranching operation asked the BLM if they could stay on an 
allotment for a few more weeks beyond the permit. The reason for this 
was that a large buildup of fuel due to two back to back record winters 
was being seen. The ranching operation knew this fuel loading was going 
to be an issue and they had livestock there and were willing to make 
changes in order to help. The answer from the agency was no. The fear 
of litigation by doing something outside a set a sideboards drives 
decisions like this daily. So despite repeated requests to stay longer 
and reduce fuel, the livestock were moved. The Rooster Comb Fire 
ignited on Sunday, July 9 at 4:00 p.m. Before it was contained, it 
burned nearly 220,000 acres of sage-grouse habitat.
    Now large fires were not unusual this summer, but this fire was the 
result of repeated attempts to rehabilitate an area that has burned 
numerous times over the past few decades. Livestock grazing had been 
excluded from the area during recent rehabilitation efforts and this 
year grazing was allowed, but as mentioned above, not effectively to 
help alleviate the Number one threat to sage-grouse in Nevada. So while 
the birds in the area of the Rooster Comb Fire may very well have 
ideally wanted 7 inches of deep rooted perineal plants across the 
landscape with at least 25 percent shrub cover, they now have 220,000 
acres of zero cover, no perineal plants, and another attempt to restore 
burned habitat begins with the issuance of a livestock grazing closure 
decision for the area.

    The Nevada State Plan under the threat of Wildfire and Invasive 
Species lists Objective 1.1: Reduce the amount of sage-grouse habitat 
loss due to large acreage wildfires and invasion or potential 
domination by non-native plants.

        Pre-suppression

        In order to address the threat of fire and invasive plants, 
        which continues to challenge land managers throughout the 
        western United States, the State proposes a paradigm shift. 
        This entails a shift in focus from the current suppression-
        centric approach to a more nuanced, cost effective and 
        proactive approach focusing on pre-suppression activities;

    The second significant threat to sage-grouse habitat in Nevada is 
Pinion Juniper Encroachment. This is a threat isolated to the Great 
Basin for the most part. In the Nevada Plan, our state lays out 
objectives and actions to tackle the continued spread of Pinion Juniper 
into our sagebrush ecosystems. To date thousands of acres of invasive 
Pinion Juniper have been removed from predominately private property. 
The red tape associated with getting NEPA done on public lands once 
again is limiting how effective treatments can actually be. The west 
slope of the Diamond Mountains looks like a patchwork quilt with nearly 
every acre of private property treated for Pinion Juniper and vast 
expanses of public lands remaining untreated. We need to keep in mind 
that sage-grouse will not use habitat that has over 4 percent pinion 
juniper on it per some reports. While private property owners continue 
to leverage grants and expend private dollars to match, and even create 
leks in some cases, to have meaningful watershed wide improvement, we 
need the Federal agencies to remove the red tape, come to the table 
with state and local officials, and spend dollars on meaningful 
projects to better habitat, slow fire spread, decrease fire intensity, 
and bolster our rural economies.
    As you can see, Nevada is clearly aware of the threats to our 
state, we are clearly committed to helping our Federal land management 
partners and we have the statutory authority within the Sagebrush 
Ecosystem Council to coordinate with Federal and state agencies. The 
creation of the Nevada State Plan was an example of collaboration and 
coordination among all groups. The nine (9) voting members representing 
conservation and environmental issues, the Board of Wildlife 
Commissioners, local government, Native American tribes, mining, 
energy, agriculture, general public and ranching consulted with and 
considered input by ex-officio members of the council. The ex-officio 
members were the State Directors of BLM, United States Fish and 
Wildlife and Natural Resource Conservation Service, the State 
Supervisor for the Humboldt Toiyabe National Forest, the Directors of 
Nevada Department of Wildlife, Nevada Department of Agriculture, and 
Nevada Department of Conservation and Natural Resources. Hundreds of 
hours of public comment was accepted and a balanced plan was created 
that will protect the greater sage-grouse, its habitats, all the while 
preserving the economies of rural Nevada.
    If there is still a perception that there is a ``lack of regulatory 
mechanisms'' in place for protecting the greater sage-grouse, I will 
state as I have in numerous public meetings, it isn't a lack of 
regulatory mechanisms it's the wrong regulatory mechanisms. Insanity is 
doing the same thing over and over and expecting a different outcome. 
Why don't we listen to state and local officials and implement plans 
that were developed at the ground level? The top down approach has 
continued to squeeze public land industries all while continuing to 
lose sensitive habitats and imperil wildlife species. If the true goal 
is conservations, put it back in the hands of those closest to the 
land. If the goal instead is to remove economic drivers from rural 
communities with no desire to protect habitats, then continue on the 
path we are on. We have a tremendous head start at that.

                                 ______
                                 

    The Chairman. Thank you, Doctor, I appreciate that.
    OK, now we start with questions from the Committee. I 
remind you that it is under the 5-minute rule, as well.
    I am going to go last, so I will recognize Mr. Lamborn for 
the first questions.
    Mr. Lamborn. I hope I have the right microphone. And this 
is a beautiful room; I am glad it was refinished.
    Mr. Chairman, thank you for having this hearing and for 
your leadership and your legislation on this important issue.
    Dr. Goicoechea, some claim that the Bureau of Land 
Management and Forest Service's 1998 Land Use Planning 
Amendments were adopted with strong state and local support. Is 
that actually the case?
    Dr. Goicoechea. Thank you, Mr. Chairman and Congressman. 
There was coordination and cooperation, if you will. But those 
have become buzz words. We need to stop checking the box, we 
need to stop holding meetings to say that we are coordinating 
and cooperating with local and state agencies, and we need to 
get down to actually using what they presented.
    While they did take input, I think you can see from the 
final documents that they were not seriously considered. Again, 
they wanted uniformity across the West, they took bits and 
pieces, but they did not use the state-specific or local-
specific recommendations, as they should have under FLPMA.
    Mr. Lamborn. OK, thank you. And then for you, or Mr. Bird, 
or Mr. Bedke, or all three of you, my home state of Colorado 
has spent more than $10 million, set aside 130,000 acres for 
habitat, and is developing a mitigation marketplace, all for 
protecting the sage-grouse.
    Some people have expressed fears to me that Secretary 
Zinke's recent order, S.O. 3353, will somehow make the sage-
grouse more likely to be listed as threatened or endangered, 
thus negating the commendable efforts of states like Colorado 
and your states. Are those fears surrounding Secretarial Order 
3353 well founded?
    Mr. Bedke. Mr. Chairman, Congressman, I don't think those 
fears are very well-founded at all. And while I don't know the 
specifics of the Colorado plan, I do know the specifics of the 
Idaho plan. The Idaho plan came about as a direct result of 
then-Secretary Salazar coming to Idaho, asking us to put 
together all of the stakeholders, and coming to a consensus-
based sage-grouse plan, one that worked for Idaho. I am 
assuming a similar process happened in Colorado.
    This plan went on to be blessed by the U.S. Fish and 
Wildlife Service. Again, all under the Obama administration and 
then-Secretary Salazar. It became the preferred alternative 
with the BLM.
    Yet, then there was a change at the Secretarial level, and 
all of our plans went out the window. Overlaid on top of them 
were all of these withdrawals, some of which are encompassed in 
Secretary Zinke's removal. Everything that they are worried 
about was stuff that was on top of already federally approved 
state management plans. So, they went over and above, at least 
in our case, and that is where the rub is.
    We reached consensus in Idaho with this broad group. All of 
the stakeholders were in the room from Day 1 until the very 
end, and we did not quit until we had consensus. As a result, 
again, it was blessed by the U.S. Fish and Wildlife Service, it 
was a co-preferred plan from BLM, and then it was jettisoned.
    Mr. Lamborn. Mr. Bird?
    Mr. Goicoechea?
    Dr. Goicoechea. Thank you. Secretarial Order 3353 did dive 
down in and take a look at some of these inconsistencies and 
asked for those to be brought back to the Secretary of the 
Interior. I think it is critical that we recognize we need to 
collect the data from these states that shows that we are 
protecting habitat, and what the bird populations are doing.
    We will need that data for the 2020 data call, when the 
U.S. Fish and Wildlife Service again decides on the status of 
the greater sage-grouse. And much like Idaho, Nevada's plan 
was, in fact, endorsed by the U.S. Fish and Wildlife Service 
and our state director was an active participant in the Sage 
Brush Ecosystem Council at every meeting and helped us 
construct that plan to what their wants and desires were for 
the bird.
    Mr. Lamborn. Thank you all for being here.
    Mr. Chairman, I yield back.
    The Chairman. Mr. Grijalva.
    OK, Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. More than 2 years 
ago, the Department of the Interior announced that, thanks to 
unprecedented, proactive partnerships between our Federal land 
management agencies, 11 western states which you represent in 
part today, sportsmen, ranchers, farmers, and conservationists, 
the greater sage-grouse does not need protections under the 
Endangered Species Act.
    This very significant achievement was possible thanks to 
years of on-the-ground collaborations and Federal land 
management plans that conserve sagebrush habitat, while 
simultaneously providing predictability for economic 
development, something we all care about.
    The Federal land management plans are based on plans 
developed by each state, not one-size-fits-all, but individual 
plans to suit each state's individual needs. And it was these 
very partnerships that made it possible for the Fish and 
Wildlife Service to conclude in 2015 that the greater sage-
grouse does not need to be listed as endangered or threatened 
under the Endangered Species Act.
    The Trump administration's effort to overturn the Federal 
land management plans, I believe, is putting all of these 
efforts at risk, creating uncertainty for those working on the 
ground to conserve this iconic species and its habitat, and 
increasing the likelihood that the species will need to be 
listed under the Endangered Species Act, something we all want 
to avoid.
    Mr. Tubbs, thank you for being here. You mentioned in your 
written testimony that Montana has a motto of ``Think 
Habitat.'' Why is focusing on habitat the best way to approach 
conservation of the sage-grouse?
    Mr. Tubbs. Mr. Chairman, thank you, Congressman. What we do 
know about sage-grouse, especially in Montana, since that is 
where I come from, is if you have quality habitat, the birds 
will survive. Populations will go up and down over years. The 
trend had been down. We are improving, most recently. But if 
you have good-quality habitat, you can assure that the 
population will remain and grow into the future.
    The biggest threat in Montana, as opposed to the prior 
testimony, is fragmentation of that habitat, not fire.
    Ms. Tsongas. So, then, what would your thoughts be on some 
of the sort of proposed alternatives to habitat-focused 
conservation, such as setting specific population targets or 
running a sage-grouse captive breeding program? What are your 
thoughts about those possible alternatives?
    Mr. Tubbs. Mr. Chairman, Congresswoman, while we certainly 
track population of sage-grouse, and also do lek counts every 
year, the populations vary year to year. One wet spring 
snowfall at the wrong time, and your brood will die and will 
lose all the population of that year, or a lot of it. Then it 
will take several years to rebound. So, any one given year is 
concerning to us, because we might fall into ESA restrictions 
because of a bad spring.
    Instead, we think that quality habitat is a better measure.
    Excuse me, what was the second part of the question?
    Ms. Tsongas. The second part was captive breeding programs.
    Mr. Tubbs. Captive breeding? Captive breeding, and you can 
read all the literature, is not a useful tool in sage-grouse 
conservation. It has not been successful, and is limited to 
remnant populations. I do know Alberta is trying it, but again, 
it is a very small, marginal tool.
    Ms. Tsongas. One of the things I have become aware of in 
Montana, you have the significant challenge of having 78 
percent of the state sage-grouse habitat spread across state, 
tribal, and private lands. But despite that, you have been able 
to create the all lands/all hands approach, as you call it, 
bringing all these diverse stakeholders to the table.
    What keeps these partnerships together at a time when the 
Trump administration is seeking to upend the existing plans? 
What holds you all together?
    Mr. Tubbs. Mr. Chairman, Congresswoman, we have actively 
kept the coalition together. Our plan is not a static plan. We 
are implementing it now with those stakeholders. And we have an 
Audubon to land trust to oil and gas industry and coal industry 
at the table. We have a common motivation: to conserve the bird 
and make sure that Montana has an economy. With those two 
goals, we are working together quite well.
    Ultimately, maybe plan amendments will be needed, but right 
now let's do implementation.
    Ms. Tsongas. Thank you for your testimony. It sounds to me 
like the existing framework established by the states focused 
on habitat protection and restoration is certainly working in 
Montana, and is the best chance we have of protecting the 
species from extinction or being listed under the Endangered 
Species Act. Thank you.
    The Chairman. Mr. Wittman.
    Dr. Wittman. Thank you, Mr. Chairman. I would like to thank 
our panelists for joining us today.
    This is a great opportunity to recognize the importance of 
state management plans and the critical role that they play in 
preserving species. And also understanding how, in the past, 
Federal management plans, I think, have in many ways been 
harmful to certain elements of local and state economies, 
understanding what those impacts are and understanding, too, 
that our states are, in many areas, better situated to make 
decisions about species and conservation plans in their states. 
What works best, what their experience has been, I think, is 
where we need to be.
    And with that, Mr. Bedke, I wanted to get your perspective. 
Several years ago the U.S. Fish and Wildlife Service imposed 
certain overflight restrictions in the area of Mountain Home 
Air Force Base in the Little Jacks Creek area. And what 
happened with that, is it was in response to peregrine falcon 
nesting times.
    And what it did was it cut off a large majority of the base 
air space to training in that particular region, cutting back 
on the opportunities for pilots to get the training they need 
to make sure that they are proficient. And, as you know, with 
pilots, especially in the Air Force and the Navy, if they don't 
have training as tactical pilots, then they lose their 
certifications and that creates an overall reduction in 
readiness for our Nation.
    And many of us served both on the Armed Services Committee 
and the Natural Resources Committee, so we see the crossover 
there, and those are concerns that many of us have in how these 
decisions impact our Nation's military readiness.
    Is there a possibility of additional overflight or use 
restrictions at Mountain Air Force Base by the U.S. Fish and 
Wildlife Service because of sage-grouse? And, if so, is that a 
continuing concern for Idaho and the impacts that that may 
have, both on the state and on our military readiness?
    Mr. Bedke. Congressman, I believe that it does. In some of 
the earlier plans there were withdrawals and limitations on the 
use of the training areas, not only around Mountain Home, but 
also out in Tonopah in Nevada and other places. These are some 
of the best last places to go practice. Limiting that certainly 
inhibits our readiness as a Nation.
    I think that you can have it both ways. However, this is 
not the first time that we have had training areas. And the 
sage-grouse has been able to get by.
    And that is maybe even understated. The sage-grouse 
population in Idaho is still hunted. In 9 of the 11 western 
states, these are still game birds, so it has nearly become a 
surrogate issue, about controlling the land management in these 
Federal lands.
    I appreciate the position that has been expressed from 
Montana and other states, but with respect, Idaho's land 
management overlay is not like Montana's, nor is it like 
Wyoming's or Colorado's or any of the other states. Each state 
is unique, and the take-home message is that Mountain Home and 
the Air Force were at the table when we created the state plan. 
And we touched all of the bases with all of the stakeholders in 
there, again, gaining the blessing of the then-U.S. Fish and 
Wildlife Service and BLM, and then new secretary, new rules, 
and new overlay.
    We are not trying to circumvent, we want a good, viable 
bird population there. Again, coming back to the firefighting 
protocols, if both sides of the room agree that wildfire is the 
Number one threat, then we ought to be about changing the way 
we fight fires.
    It is foolish to have a fire boss come in from a fire in 
Arizona to a fire in Nevada. He has zero expertise with that 
area, and as he gets into cell phone range, we need to be able 
to e-mail him firefighting protocols where, when we didn't have 
the fire, we went in and we have a series of if-then 
statements. If the fire is here, you already have clearance to 
put a fire line there. And if the fire is in that quadrant, 
here is your permission to do what is needed. We are not 
talking about circumventing any of the historical values, or 
any of the cultural values, or any of the values out there at 
all. But during the fire is a bad time to try to get clearance 
for all of these things, and we can do a better job than we 
are.
    The Chairman. Thank you, I appreciate that.
    Dr. Wittman. Thank you.
    The Chairman. I wonder where I have heard those questions 
before.
    Dr. Wittman. I don't know.
    The Chairman. Too bad there is nobody here from Yakima to 
say what the bird did out there, too, right? For the Army.
    Mr. Soto.
    Mr. Soto. Thank you, Mr. Chairman. I wanted to start with, 
there was a new land management plan that came out and, 
obviously, that is why we are here today.
    First, Mr. Tubbs, is this new land management plan 
affecting grazing, or is this about oil and gas drilling, or is 
this about home building? What real restrictions of those three 
categories are affected by the new land management plan?
    Mr. Tubbs. Mr. Chairman, Congressman, one clarification. 
Land management plan being the state's plan or the Federal 
plan?
    Mr. Soto. The Federal plan. Forgive me.
    Mr. Tubbs. So, coming into it, Montana did raise concerns 
about the resource management plans that were being developed 
by the Bureau of Reclamation. Montana's sage-grouse plan had 
yet to be authorized and implemented.
    We were concerned that there would be major impacts, absent 
a state conservation plan if only Federal lands were protected 
in Montana. Given the limited scope of sage-grouse habitat that 
they manage, we were basically being told that their only 
choice would be to lock down Federal lands without a sage-
grouse conservation plan for the state.
    We put that in place. Governor Bullock showed leadership in 
developing that plan, and we have maintained flexibility for 
our economy within sage-grouse habitat. We have reviewed 
thousands of proposals, rarely does a grazing plan require any 
permitting from a Montana perspective.
    Mr. Soto. Sure. So, because I am particularly sensitive 
about the grazing issue, it is not affecting grazing, per se, 
on Federal lands right now?
    Mr. Tubbs. Well, Congressman and Mr. Chairman, most 
recently our sage-grouse oversight team, with review of the 
Federal team, have authorized as accepted practices putting 
water lines for stock tanks so that we can spread out grazing 
and do better land management.
    Montana has a very strong culture of good conservation 
through our ranchers and farmers, and we think our plan 
protects that.
    Mr. Soto. I wanted to go back a little bit. There was, I 
believe, in our last farm bill a sage-grouse initiative which 
created incentives for voluntary conservation. How did that 
initiative end up playing out?
    Mr. Tubbs. Mr. Chairman, Congressman, the sage-grouse 
initiative in Montana is a key partnership with NRCS, our 
conservation districts, and the state. We have initially had 
three staff work with landowners across the state on a number 
of projects.
    The good news is that good sage-grouse conservation also is 
good range management. That helps good stock numbers and 
maintaining a healthy range. It also maintains the bird, as 
well as wildlife species. This area of Montana is also some of 
our top hunting in the United States, some of the biggest mule 
deer bucks or elk that you can get in any state will be found 
in sage-grouse habitat in Montana, and good range management 
preserves all those.
    Mr. Soto. Thank you. Speaker Bedke, first of all, I am 
sorry about what happened to your land with the fire. That is 
terrible, what happened. And that perhaps is one of the things 
that we have to look at, either incorporating state or Federal 
amendments to look at fire prevention that makes sense. And 
also your suggestion about invasive species and how, either 
through state or Federal, we need to address that.
    Is the current land management plan preventing you from 
grazing on Federal land and lands that you own right now?
    Mr. Bedke. Well, Mr. Chairman and Congressman Soto, right 
now, no. But next year, arguably, yes. What we have out there, 
we are blessed to have a lot of sage-grouse. So, therefore, you 
have a lot of leks, strutting grounds, or breeding grounds, and 
early in the spring the birds congregate on these leks.
    Then out around the leks there is a 5-mile buffer zone. And 
in that buffer zone, then, we are required to maintain minimal 
stubble height. The problem is that a cow, when she puts her 
head down to graze, she doesn't stop at 4 inches. And that 
becomes a problem.
    We want to have all of these objective goals, but we need 
to also have subjective goals. If a population is there, then 
that needs to be OK. So, our concern is that leaving that much 
stubble height contributes to the Number one cause of 
degradation, wildfire.
    The Chairman. Thank you.
    Mr. Soto. Thank you, and I yield back.
    The Chairman. Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    Once again, thank you for being here and lending your 
expertise.
    Mr. Tubbs, I have been impressed for the past couple years 
where we have had witnesses before us to talk about how top-
down, heavy-handed, punitive approaches to endangered species 
has just failed, and it has failed since the beginning.
    But what has really impressed me is how, when we get to 
voluntary conservation and partnerships, when it is not 
punitive, how many species actually have been de-listed as a 
result of that.
    I know Montana has been one of the Nation's leaders in 
conserving and restoring the sage-grouse habitats, and I 
understand that Montana established a series of competitive 
grants that led to the restoration of thousands of acres of 
critical land. How effective have these grants been, and the 
spirit of voluntary conservation and other conservation 
partnerships been?
    Mr. Tubbs. Mr. Chairman, Congressman, Montana is blessed 
with wonderful habitat, and much of that habitat is on private 
lands. As a result, land trusts have been working with 
landowners in Montana for decades in conservation practices. 
And, more recently, in conservation practices specifically at 
protecting the greater sage-grouse.
    We have invested just over $3.5 million of state funds in 
sage-grouse conservation on several hundred thousand acres of 
ranch land in Montana, protecting it, and also stewarding those 
ranches into the future as working lands and working ranches.
    The effect is to preserve extremely high-quality habitat. 
That is where most of our money has been invested. We did 
invest in a couple of general habitat easements and are now 
trying those out in our new habitat conservation and mitigation 
plans as to how it can then bridge the gap where we need 
development.
    And development will happen in Montana. By providing this 
type of conservation investment with state dollars, we are able 
to maintain the economy, as well, where impacts to sage-grouse 
are not preventable.
    Mr. Thompson. How many people have applied for these 
grants? And will that trend continue to grow in the future? And 
what kind of leverage are you seeing on those investment 
dollars? What are the grant recipients bringing to the table? 
Any idea, in terms of matching dollars or voluntary dollars in 
this effort?
    Mr. Tubbs. Mr. Chairman, Congressman, we can provide you 
with a full record of it, so that the Committee has the record.
    We've had tremendous value, we are generally in it at a 1-
to-10 or 1-to-5 ratio, in those kind of parameters. Other 
conservation investors are the big land trusts. And it is the 
Montana Land Reliance, which is a big land trust made out of a 
small, little group of folks in Helena, Montana. But they have 
preserved over a million acres, so they celebrated that just 
this year. The Nature Conservancy is the other big land trust 
party that works in this landscape, and we have done deals with 
both. And then the private landowners and their families have 
been donators, as well.
    Mr. Thompson. Thank you.
    Mr. Bird, we all know the devastating wildfire impact. We 
see that, unfortunately, all too real every day, especially 
right now. It is really highlighted, and we know it is 
continuous. And you mentioned wildfire is the sage-grouse's 
Number one threat.
    It seems that Utah has been somewhat successful in 
controlling wildfires, maybe better than some areas, through a 
state program. With a little bit of time, can you elaborate on 
the efforts taken between local, state, Federal, and private 
entities to do that with wildfires?
    Mr. Bird. Mr. Chairman, Congressman, I think the key to it 
is getting money on the ground early, pre-suppression, and then 
post-suppression work in those areas. That is where Utah has 
done a great job. Our Legislature has done a wonderful job of 
getting money on the ground.
    Before fire happens, and afterward, in fact, for every 
state dollar spent on restoration we have had $5 from partner 
agencies. And on pre-suppression work in the state, for every 
dollar we have had $20 from other partners, both local, 
private, and even individual landowners.
    Mr. Thompson. Thank you.
    Chairman, I yield back.
    The Chairman. Mr. Grijalva.
    Mr. Grijalva. Going back to that point that most of the 
sage-grouse habitats in Montana are on private land, an ESA 
listing would have big implications. So, Montana initiated 
conserving habitats a long time ago.
    A question on that, is energy development and other 
resource use easier or more difficult when sage-grouse 
populations are healthy, as we find the situation in Montana 
now, or when they are threatened by extinction?
    Mr. Tubbs. Mr. Chairman, Ranking Member, the situation in 
Montana that we feared was without a Montana sage-grouse 
conservation plan, the Department of the Interior, through its 
Bureau of Land Management, was indicating that it would have to 
severely restrict development of any resources on Federal 
lands.
    It also impacts our agricultural community, both on 
agricultural land, as well as grazing land, if only land use 
plans on the Federal side were there. By adopting a Montana 
conservation plan, we actually freed up the ability to develop 
energy resources, as well as other resources on Federal lands. 
And it is that partnership that we continue to strive to 
succeed at.
    Mr. Grijalva. So, a tremendous amount of outreach and state 
involvement in the various plans, Director Tubbs, ultimately 
led to the 2015 decision not to list the sage-grouse. How has 
Montana been involved in the Secretary's recent decision to 
revisit and review those plans?
    Mr. Tubbs. Mr. Chairman, Congressman, Governor Bullock was 
Chair of the Western Governors' Association when the 
Secretarial Order came out. Working with all 11 western 
governors, they created the Sage Grouse Advisory Group within 
the WGA.
    Initially, there was good consultation early on with the 
Secretary's office. However, they rapidly pushed forward a 
product and defined which direction they were going to go, 
prior to re-engaging with the Governors' Association. And even 
though we continue to meet, we would ask that the 
Administration continue to work with our governors and the 
state of Montana, so that we can continue to improve the 
process.
    Mr. Grijalva. Just to follow up, changing the strategy at 
this point on the conservation plans, would that threaten the 
bird?
    Mr. Tubbs. Mr. Chairman and Ranking Member, I think that it 
is wholly dependent on what those changes would be. While one 
could argue that there is no increased risk to listing, that is 
significantly a question as to whether protections are taken 
away for any one state.
    That is part of the issue with the rangewide conditions 
determination. There are states like Montana that have good 
populations, great habitat. But we have been impacted and would 
be in the future if other states were allowed to change 
protections such that the species was warranted.
    Mr. Grijalva. Thank you, sir.
    I yield back, Mr. Chairman.
    The Chairman. Thank you. OK. Now, for ground rules here, a 
couple of things.
    First of all, this is in deference to Mr. Grijalva. Your 
microphone is on your left. It is the only thing that is going 
to be on the left in the room, but your microphone is on the 
left.
    [Laughter.]
    The Chairman. Second, for the witnesses, you don't have to 
address me on every answer. When I ask my questions, they will 
be intelligent. You can address me then.
    [Laughter.]
    The Chairman. So, you don't have to say ``Mr. Chairman'' 
every time you open your mouth.
    Mr. Gosar.
    Dr. Gosar. Thank you, Mr. Chairman. The Obama 
administration's de facto sage-grouse listing and the 20-year 
mineral moratorium on 10 million acres of land has been one of 
the greatest threats to the livelihood of western communities.
    Some of the most stifling consequences of the Obama-era 
regulations were targeted at businesses. New mining operations 
on this massive swath of land, where more than 7,000 active 
claims were already present, were prohibited for 2 years. 
Thankfully, President Trump's Department of the Interior 
canceled the massive proposed withdrawal, allowing job creators 
and hard rock miners to get back to work immediately.
    Speaker Bedke, it is good to see you again. Given the 
litigation risks, the time it would take to once again amend 98 
management plans, and that the Forest Service has not even 
started to unwind their Obama plan amendments, do you agree 
with me that Congress must act and kill these 98 politically 
amended Obama plans, once and for all?
    Mr. Bedke. Yes, Congressman, I do.
    Dr. Gosar. Would such actions provide the most certainty in 
the timeliest manner for the local stakeholders?
    Mr. Bedke. Yes, it certainly would, and here is the irony. 
We are holding up the Obama administration rules as the 
standard by which all sage-grouse should be managed. And our 
state plans were compliant under that administration. They were 
blessed by that administration. And then, to guild the lily, if 
you will, at that point smacks of over-reach.
    We were on a good path. All we need is for everybody to 
roll it back to the way it was and let the state plans work. 
Montana's plan is going to look different than Idaho's. That is 
because the underlying topography is way different. Idaho is 
going to have similarities to Nevada's and Utah, but we have 
zero oil and gas. So, our mix is going to be different.
    And to have other states say that, if I may, I just heard 
that if Idaho changes its plan, or if the management is changed 
in Idaho, that that somehow threatens Montana. Nothing could be 
further from the truth. But I do take issue with the fact that 
Idaho is providing off-site mitigation for these other states. 
That is not right.
    We have a plan. Hold us to a standard, give us the numbers, 
describe point B, and turn us loose, again, back to all the 
stakeholders that we had at the table. This was not a myopic 
group. It was broad-based. And we came up with a plan, a 
consensus plan, that was eventually endorsed by the then-Obama 
administration. These can work. Just give us the time, get out 
of our way and give us some time to let it work.
    With all due respect, that is my point here today.
    Dr. Gosar. Well, my colleagues from the left, it defies 
everything they stand for--it is the all-encompassing, all-
knowing in Washington, DC, the bureaucracy. And, in Arizona, we 
actually had to fight the Fish and Wildlife Service. That was 
very belligerent. They were anti-law in regards to that, so it 
has been very cumbersome. So, I believe that I would trust the 
rancher back in Idaho or in Nevada versus the Federal 
Government.
    Mr. Bedke. I would agree with you, Congressman, the 
Nation's natural resources are best served by having local 
families acting as those stewards. The Nation's interests and 
these family interests coincide on being good, long-term 
stewards of the public lands in the West.
    Dr. Gosar. I fully agree with you. My grandfather was a 
rancher. And if they cannot be conservationists, they don't 
have the luxury the following year. So, they are extremely in 
tune with the land and nature.
    Dr. Goicoechea, it is good seeing you again. A couple of 
questions for you. At the risk of over-simplifying the issue, 
why would other state management plans not work for Nevada?
    Dr. Goicoechea. Our threats, our topography are very 
different, Congressman. While Speaker Bedke says fire and 
invasives are the same in Idaho, we are the driest state in the 
Union, and no one knows that better than those of us that make 
a living off the land. We cannot apply prescriptions from 
Montana to Nevada. They will not work.
    Dr. Gosar. Well, I am extremely grateful to Secretary Zinke 
and the acting BLM Director Nedd for their actions to unwind 
the bureaucratic mess of the previous administration, which was 
preventing effective state management of the sage-grouse 
recovery. And while taking steps to unwind the de factor sage-
grouse listing through the administrative action is welcome, 
Congress must act in order to provide timely and permanent 
certainty on this issue for local stakeholders in the western 
communities. Thank you.
    The Chairman. Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman, and thank you, 
Speaker Bedke, for being here today.
    I had the privilege of serving with Speaker Bedke for 4 
years in the Idaho Legislature, and it is always good to see 
him.
    Speaker, in 2011, when Secretary Salazar invited western 
states to partner with the Federal Government to work on 
solutions related to sage-grouse, how did the state of Idaho 
respond?
    Mr. Bedke. We responded with enthusiasm. In the formal 
conversations and the informal conversations that we had, we 
took this as an opportunity to help plan our own destiny. For 
once, it looked like the locals would be empowered to solve a 
broad-based problem. It was what we have been talking about for 
decades. And we went into it with good faith. We had a lot of 
meetings, a lot of discussions. Again, this was not a 
homogenous group. And we had a good work product come out of 
that.
    So, you can only imagine our disappointment when the goal 
line was moved, and the rules changed.
    Mr. Labrador. Absolutely. What role did the Federal 
agencies in Idaho play during that process?
    Mr. Bedke. They were in the room. We had all of them in the 
room. And it is not like they got pre-decisional, but they 
certainly were able to communicate kind of a warmer, warmer, 
colder, colder type of an approach as we noodled and 
contemplated and had discussions on what the plan might look 
like.
    And we had Jack Connelly, you know, he wrote the sage-
grouse bible. He was in the room the whole time. And our plan 
reflected what was good for the bird at every turn.
    Mr. Labrador. Did these agencies approve of the plan?
    Mr. Bedke. Certainly, yes. The U.S. Fish and Wildlife 
Service ultimately blessed the plan. I don't think that is the 
proper terminology, but endorsed it, and it became the co-
preferred alternative, with the BLM, under the NEPA process.
    Mr. Labrador. You have mentioned that the main threat to 
sage-grouse in Idaho is fires. Is that correct?
    Mr. Bedke. Yes. Not just I, but that is what the science 
says.
    Mr. Labrador. Correct. Do the Obama administration plans 
address these threats?
    Mr. Bedke. Well, the old plan did, because baked into the 
Idaho plan were robust, firefighting measures, some of the 
things that I have talked about here, having if-then 
statements. You know, if the fire starts here, then it is OK to 
put a fire line there, and getting all the clearances ahead of 
time so that you have an algorithm, basically--if the fire is 
in this section, then it is OK to do this other list of things.
    So, fire was integral, and its control was in the middle of 
all these plans.
    Mr. Labrador. What could be done to make firefighting more 
effective to better protect sage habitat?
    Mr. Bedke. Thank you. I have alluded to that at the time. 
The firefighters know how to put out fires. We hamstring them, 
and tie their hands with Federal regulatory overlay.
    They are as frustrated, that day that we went from 500 
acres to 20,000 acres was a frustrating day for the guys on the 
fire line, it was a frustrating day for the ranchers, whose 
livelihood and the ability to feed their livestock was going up 
in smoke. And to have the heavy equipment sit on a truck 
because there was no Cat tender there, someone to walk in front 
of it as they put the line in, by an existing road that had 
already been disturbed by existing fence lines that had already 
been disturbed, was counterproductive.
    By anyone's standard, they ought to be able to make on-the-
ground decisions. If we are going to tie their hands on the 
ground, then let's give them an algorithm ahead of time that 
they can have in their file, so that they can say it started in 
this quadrant, so therefore I can do these things. And we have 
touched all the archeological, historical, cultural, other 
species concerns ahead of time when you are not under the gun 
of having a fire.
    Mr. Labrador. And it is not just frustrating, but it is 
more dangerous for the firefighters, too, is it not?
    Mr. Bedke. Well, certainly.
    Mr. Labrador. Yes. Are you aware of the notice of intent 
that was recently released by the Department of the Interior?
    Mr. Bedke. Yes.
    Mr. Labrador. Can the existing plans that affect Idaho be 
fixed, or do they need to be completely repealed and replaced 
with a state plan?
    Mr. Bedke. I think that we need to be able to roll back the 
Federal plan amendments to go back to the state's plan, so that 
each state has a plan that works in their locality. I applaud 
these other states, they should applaud us, and we should go 
back to the state plans.
    Mr. Labrador. Thank you, I yield back.
    The Chairman. Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman. I thank the panel for 
taking the time to be able to be here today, as well. It is 
interesting, being able to hear the stories from the different 
states, from Nevada to Montana to Idaho and into Utah, as well, 
in terms of being able to come up with plans that actually work 
for our individual states.
    I come out of the state of Colorado. We have very unique 
topography in the state of Colorado. One of our local counties 
had invested several million dollars in actually mapping out 
the best areas for sage-grouse rehabilitation for the actual 
habitat that would work. That was completely in contradiction 
of what the BLM had originally put out with a broad-brush 
stroke, to where the entire western half of Colorado was 
virtually sage-grouse habitat, even though it could not sustain 
it.
    So, those private-public partnerships, which were developed 
with the local ranchers, with the local counties, with our 
state, were actually yielding what we wanted to be able to 
achieve.
    I certainly applaud the efforts that we are seeing in our 
state and I listen to the conversation. It seems that the 
debate is not so much about species rehabilitation as about 
should the Federal Government make the determination, or should 
the states be able to implement some of those policies. And I 
think a sensible person would certainly step forward and say if 
we want to be able to achieve the goal, let's follow the best 
route.
    Mr. Goicoechea, when you were talking about the fire that 
broke out in your state, you had the ranchers apply to be able 
to actually get in to graze, to be able to create better 
habitat, because you had good moisture growing.
    What was the policy of the Federal Government, and how did 
that impact, ultimately, the habitat of rehabilitating the 
species?
    Dr. Goicoechea. Thank you. So, Mr. Congressman, when you 
are 87 percent controlled by the Federal Government, you find 
yourself a lot of times asking Father or Mother May I, and that 
is what happened in this case. There was not the flexibility to 
go beyond the term permit, even though the range conditions 
showed we have a high fire risk here. In no way, shape, or form 
was there going to be resource damage by allowing those 
livestock to stay.
    The Bureau of Land Management is afraid of litigation. They 
have been litigated time and time again. They do not want to 
step outside. They don't have the flexibility, and these plans 
are not giving them that flexibility. So, when they said no, 
the cattle moved on, and 30 days later we had 220,000 acres of 
black.
    Mr. Tipton. I am a small business guy, and in terms of 
having the flexibility, that was one of the issues that we 
actually had in Colorado. Unfortunately, when they were 
revisiting the plan, some efforts were made in the original 
efforts to be able to incorporate some of the Colorado ideas. 
But they were discarded for consistency of a one-size-fits-all 
program.
    When we are talking about science and the best 
understanding of it, each one of you in your states, you have 
game and fish departments that are there, you have local county 
officials that are there. Would you say they are pretty good 
experts, in terms of probably knowing the habitat, knowing how 
to best be able to address an issue?
    Mr. Goicoechea?
    Dr. Goicoechea. Yes, sir, absolutely. And when it comes to 
firefighting, as well, your state and local departments, those 
volunteers in Nevada, the Nevada Division of Forestry, we know 
the best. We know the conditions on the ground, we know where 
to make that stand. We know who has grazed, how long they have 
grazed, when they have grazed, where the natural breaks are.
    If we don't empower the locals and the state agencies, we 
will never get ahead of habitat loss.
    Mr. Tipton. Director Bird, Speaker Bedke, would you speak 
to that, as well?
    Mr. Bird. I would agree, we do a good job of managing 
wildlife in the states. That is what we do with our wildlife 
agencies. I wish you could come and see some of our local 
meetings with the local landowners, the agencies, the 
sportsmen, and all those folks who are involved working 
together to come up with priorities for projects in their area. 
It is an amazing thing to watch.
    Mr. Bedke. Congressman, many of us have been in these types 
of meetings before, and we did not want to go through the 
frustration and disappointment of having the wrong people in 
the room at the start. So, we went out of our way at the 
beginning of the process to make sure we had the right people 
in the room, the right scientists.
    Again, I referenced earlier Mr. Connelly is the standard. 
He wrote the sage-grouse guidebook. He was in the room with us. 
We, again, did not want to have happen, what has ultimately 
happened, that we would look back at our process and say it was 
deficient in some way, and therefore we have to start over. We 
went to great lengths to have the right people in the room all 
the time.
    Mr. Tipton. My time has expired, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Pearce, are you ready? OK. The one on your left.
    Mr. Pearce. It is hard for me to reach the left, sir. I 
will take your orders, if you make me.
    Mr. Tubbs, you seem to be in a position where you would 
work with the Fish and Wildlife Service, you kind of know the 
way they operate, the way they think. And that is not a trick 
question, I was just trying to get everybody on the ground 
here.
    [Laughter.]
    Mr. Tubbs. Congressman, we certainly have been working with 
the U.S. Fish and Wildlife Service in Montana for decades.
    Mr. Pearce. I know, but when I look at the estimates of 
numbers of birds, the estimates are 200 to 500,000. That is 
kind of a big gap. Behind the scenes, do they ever sit there 
and say, ``Can't we get this a little bit closer?''
    Mr. Tubbs. Mr. Chairman, sorry about that, Congressman----
    Mr. Pearce. Don't put any thoughts in my head.
    Mr. Tubbs. It is a fact of my Montana State Legislature, 
Congressman. In Montana, our fish and wildlife agency is the 
agency that is required to report populations. While we know 
lek counts, actually counting birds is a statistical exercise, 
and not an easy thing to do. So, I think that probably 
results----
    Mr. Pearce. Do you think that is an acceptable gap?
    Mr. Tubbs. Congressman, we are putting additional efforts, 
in fact, our State Legislature has directed our wildlife agency 
to report population estimates into developing those, so we 
hope to have better statistics in the future.
    Mr. Pearce. OK.
    Mr. Tubbs. It will remain a statistical question, though.
    Mr. Pearce. Mr. Bedke, you are the one that experienced the 
fire, right, on your property?
    Mr. Bedke. Yes, this year. But fire is part of the 
ecosystem in the Great Basin, and we experience fires in some 
sort, either I do or my neighbors or my extended family, each 
and every year.
    Mr. Pearce. It is part of the ecosystem, but the ecosystem 
used to be in balance. Is the ecosystem in balance today?
    Mr. Bedke. I believe that it is not, Congressman. If you go 
back to the days where there were huge sage-grouse numbers, 
they were also arguably some of the bad old days of grazing. It 
was a continuous graze situation. There were not any rotational 
systems like we employ now and have for the last 40 years, 30 
years, for sure.
    Back in those days, that is when the bird flourished. And 
the reason is because you turned the cattle out in the spring, 
and they found their own level, so to speak, over the entire 
allotment. And as they did that, they created natural fire 
breaks because they camped out in the bottoms where the streams 
are. If you are out where there are 10 inches of rain per year, 
or 12, then that is where the cattle go, and they eat the more 
desirable plants in the bogs, and then work up the side hills.
    Mr. Pearce. Yes, I appreciate that.
    Mr. Bedke. So, that created natural fire breaks that, in a 
deferred or a rotational system, you do not have now.
    Mr. Pearce. I understand. In New Mexico, I know that we 
experienced that. The ecosystem used to have a major fire every 
8 years. The tree rings would show that. And when we quit 
putting out fires, then we logged to make the difference. Then, 
when we quit logging, instead of 50 trees per acre, we have 500 
or 2,500 trees per acre. The system is out of balance.
    Then the Forest Service says we are going to reintroduce 
fire into the wild, kind of like we just discovered this thing 
here, and it is the way it ought to be. Now we are getting the 
3,000-acre fires. We are seeing what is going on in California. 
And the system is badly out of balance, and fire is 
destructive.
    Did you ever hear the Fish and Wildlife Service complaining 
about the fires and the destruction of habitat and endangered 
species, especially the sage-grouse? Do you ever hear that? Did 
you hear it when you experienced that major fire?
    Mr. Bedke. We certainly did. And those discussions and 
those 18 months of meetings is where I learned that the Number 
one threat to sage-grouse was fire.
    Mr. Pearce. Yes, but what do they do? The Fish and Wildlife 
will stop every activity, but they do not stop the Forest 
Service from mismanaging our forests.
    Mr. Bedke. Congressman, we must conclude that it is not 
about the bird, and it is more about land management.
    Mr. Pearce. Mr. Bird, you are spending a lot of money in 
Utah on trying to stop the problem. What do you all do for 
active management? You just fight fires? What do you do with 
your money?
    Mr. Bird. No, again, it is active, hands-on management. It 
is pre-suppression, it is getting rid of pinyon-juniper, it is 
getting rid of the threats and the problems.
    Mr. Pearce. Does the Forest Service help you in those 
efforts?
    Mr. Bird. They have in this area. The Forest Service and 
BLM have.
    Mr. Pearce. Thank you, Mr. Chairman. I appreciate it.
    The Chairman. All right. Speaking of wildfires, Mr. LaMalfa 
from California, the Burn State.
    Mr. LaMalfa. Thank you, Mr. Chairman. I appreciate this 
panel. Again, thank you for your time and travel, being here, 
and for the level of patience you have with trying to deal with 
this issue. I do have several of these counties in my area, 
whether it is burning forest, burning sage habitat, or what 
have you, that continues to be a problem with little solution 
coming out of Washington. I am more hopeful here in the last 
few months.
    But what I want to hear from the panel here is, how do you 
feel lately, especially that the engagement with the Federal 
Government has been with the state, local level, tribal 
officials on getting to a better solution.
    Again, my area on the California side has Modoc County, 
Lassen County, Plumas County, a neighbor to Mr. Amodei, over 
there on the Nevada side, where he is working very hard, doing 
great work on that, as well, over there, with that common 
backyard.
    The gentleman, Mr. Bird, you were talking a little bit 
earlier about when you get people in the room it was a really 
good, positive meeting, and also Speaker Bedke, as well, when 
you get the right people in the room, the collaboration has 
been pretty good. Do you feel lately, both of you, that the 
Federal collaboration side of that has been helpful? Do you 
feel the ball is being moved?
    Somebody said on this panel also that there is the fear of 
litigation. Just touch on those two things, Mr. Bird, please.
    Mr. Bird. I would think it works best, obviously, at the 
local level. We get along well with our local managers, and 
when they are given the flexibility to work with us, that works 
well. That would be my statement there, sir.
    Mr. Bedke. You will always be surprised if you have a 
common goal. Then, there are ground rules that are set up that 
no one's position in the room is going to trump the other 
positions, and you are going to stay until you are finished, 
you are going to stay until you have a solution.
    It takes you a few meetings to get into that mode, frankly. 
But once you do, then it turns out you have the expertise, good 
ideas, and the good thinking that happens in a group dynamic. 
Then, you have a good product. And that is what we experienced, 
and that is why we are so indignant that they changed it on us 
after all that good work.
    Mr. LaMalfa. They changed it? Which ``they''?
    Mr. Bedke. They, the Federal Government. They amended our 
amendments. Over the top of these state plans, they went to the 
next level that made it impossible, or certainly would make it 
very difficult, to continue things like livestock grazing.
    Mr. LaMalfa. When you show them the results about the 
number of acres of sage-grouse habitat that is being burned and 
lost and the negative results you are seeing, does this shake 
them up any? What do they say when you have these meetings with 
them?
    Mr. Bedke. Well, it depends on how formal a meeting it is. 
No one likes to see the habitat burn.
    Mr. LaMalfa. I wonder. I wonder. Do they like it because of 
the preventative measures, whether they are talking sage 
habitat or forestry, as well, they don't seem to really allow 
effective measures to----
    Mr. Bedke. Any decent land manager knows that the growth 
increment every year will build up, and it does not matter 
whether you are in a forest situation, or a range situation. 
That growth increment is going to be there every year, and you 
can either harvest it or you can eventually burn it. Those are 
your two choices.
    Mr. LaMalfa. Mr. Goicoechea, again, when we see that the 
environmental groups really spend most of their time suing the 
Forest Service or BLM when these efforts are being made, don't 
you feel they are essentially preventing the ability of the 
sage-grouse to actually thrive and be populous in the area at 
the end of the day?
    Dr. Goicoechea. Absolutely. They are preventing the 
flexibility and adaptive management that we need to allow the 
bird to flourish.
    Mr. LaMalfa. And we have heard even in this Committee today 
that grazing is not the answer, that grazing somehow is making 
it worse. Please address that, as my time expires here.
    Dr. Goicoechea. Grazing is a huge tool, and the most 
readily available tool to limiting the size of our fires. In 
the Great Basin, that is the Number one threat. You have heard 
it over and over again.
    Mr. LaMalfa. What does it cost the government to have 
grazing? I would just like to hear that number.
    Dr. Goicoechea. It benefits the government. It makes the 
government money.
    Mr. LaMalfa. The government makes money. Yes, all right.
    Thank you, panelists, I appreciate it.
    The Chairman. Good answer.
    Mr. Graves, who asked me my favorite sage-grouse recipe. 
You can maybe ask them, as well.
    Mr. Graves. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here. And I want to thank all of you for the 
travel today.
    Mr. Bird, I am from Louisiana and I am a little slow, I 
guess, right? I just want to make sure I understand this 
clearly. This is an issue where the Federal Government is 
mismanaging a species and you are asking for more state control 
of that. Is that accurate?
    Mr. Bird. I think, Congressman, any time we have more local 
control it works better.
    Mr. Graves. I am sorry. You said any time you have more 
state control it works better?
    Mr. Bird. More local/state control, it works better.
    Mr. Graves. Wow. How about that? Thank you very, very much. 
I cannot even tell you how much I appreciate that.
    The Chairman. I am assuming that applies to fish, as well 
as birds?
    Mr. Graves. Oh, wow, look at that.
    The Chairman. OK.
    Mr. Graves. How about that?
    [Laughter.]
    Mr. Graves. I didn't think you would draw that connection.
    Speaker Bedke, you are a fifth-generation rancher, as I 
understand. You have people from Washington, DC, that are 
making decisions in your state. Can you talk a little bit about 
what you see as being a disconnect between some of the 
decisions that are being made, versus practical application on 
the ground in your state?
    And what I mean by that is, if you are truly trying to 
advance an objective, whether it is an environmental objective, 
a land management objective, or others, could you talk a little 
bit about how you see a disconnect, or perhaps a 
misunderstanding of practical solutions trying to address some 
of these objectives?
    Mr. Bedke. The reason that I include that, I am the fourth 
generation, and I am in Washington, DC, and the fifth 
generation is doing all the work while I am here. So, the 
reason that we even mention that in our bios is because we are 
proud of that, and we have a legacy and an experience over 
decades, generations of stewardship.
    In my tenure at the ranch, with every new administration we 
make 90-degree turns to the previous policy. That is 
disruptive, over time, to good ecosystem management. Livestock 
has grazed out in this part of the world since the 1860s. So, 
the fact that we are there, and the bird has flourished up to 
this time ought to tell us something. And we can continue to do 
that.
    But the disconnect is that no never means no, yes never 
means yes. We are just waiting for the shift in the political 
winds, and that is ultimately bad land management.
    Mr. Graves. Let's see, I have one more question. I just 
want to make sure, actually, maybe I will ask Mr. Bird, because 
I am not sure I can pronounce the other name.
    [Laughter.]
    Mr. Graves. Can you talk a little bit, and just give your 
perspective. I heard you all talk about this when I came in, 
but you are talking about multiple states, and the ability of 
states to work together toward a common solution, whenever 
states in some cases may have different objectives. Can you 
talk about perhaps an experience that you have had in working 
together with other states and the ability of states to work 
together toward a common objective like this?
    Mr. Bird. Well, like you say, Congressman, all states are 
different. We all have different objectives, different needs.
    I think one example in Utah is that we don't have the same 
percentage and the issues with the oil and gas industry and 
sage-grouse that Wyoming would, or other states. And I think 
working through those differences and/or working through our 
similarities is always helpful.
    Mr. Graves. Would any of the rest of you care to comment on 
that, just on experiences?
    Mr. Bedke. I will jump in. The sage-grouse working group is 
a product of the state legislators getting together. We have a 
common issue, we learned this from the wolf de-listing. So, 
Idaho, Montana, and Wyoming came together to coordinate our 
efforts, to coordinate our state plans so, ultimately, the wolf 
could be de-listed. And we were successful doing that.
    Now the next issue that comes along is the sage-grouse 
issue. We keep that same coordination between the existing 
three states. We add Utah, Nevada, Colorado, and eastern 
Oregon. Those state legislators come. We met regularly in Salt 
Lake City, and we formulated these plans, knowing full well 
that there had to be coordination between the state plans, 
ultimately.
    Mr. Graves. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. McClintock. The principal question I have is whether 
our laws are actually counterproductive to protecting 
endangered species. For example, our experience in the Sierra 
is we now have Draconian restrictions over land management, 
catastrophically overgrown forests.
    Those forests are now susceptible to natural stressors such 
as drought, pestilence, disease, and ultimately catastrophic 
wildfire. We have lost 1,100 square miles of forestland in my 
district to catastrophic fire in the last 5 years, and a lot of 
that has incinerated protected wildlife habitats. In fact, I 
think two fires cost us about 80 spotted owl habitats that we 
lost because we could not manage the land because of laws that 
were purportedly protecting the spotted owl. Now those habitats 
are gone completely.
    Is that the same story for the sage-grouse and other 
management restrictions?
    Mr. Bedke. Sir, to a degree, it is. A range fire is a lot 
different than a forest fire. It is not as hot, and things grow 
back quicker under a range situation, if you can ever get any 
rain.
    But in the forest, it is certainly a much bigger deal. You 
have to thin the growth increment in a forest. And if you 
don't, then, like I said earlier, either man will harvest it or 
nature will harvest it. And when man has pre-empted nature as 
long as it has in a forest situation, then the fires are 
catastrophic, and they are sterilizing.
    Mr. McClintock. But in the case of range land, you 
mentioned the fact that forest firefighting efforts were 
delayed catastrophically for lack of, what did you call it, a 
Cat spotter?
    Mr. Bedke. Cat tender.
    Mr. McClintock. Cat tender.
    Mr. Bedke. Yes, and it has nothing to do with felines, and 
everything to do with the machine that is built in Peoria, 
Illinois.
    Mr. McClintock. But, basically, in the middle of a wildfire 
emergency, where they are trying to cut a fire break, they were 
delayed because there wasn't an expert who could precede the 
bulldozer to determine whether or not there might be 
archeological finds or, I assume also, sage-grouse nests in 
front of the bulldozer as the fire was bearing down on it? Do I 
understand that correctly?
    Mr. Bedke. You understand it perfectly. It is as if we had 
a fire in this room, and fire extinguishers hanging on that 
wall, and you couldn't use them.
    Mr. McClintock. When I was at the Detwiler Fire, which 
caused the evacuation of Mariposa and threatened the Yosemite 
Valley just a couple of months ago, the firefighters were 
complaining to me that they had been trying for years to get 
permits for controlled burns so that they could have defensible 
space between the dying forests and the range land, which they 
rightly calculated was in immediate danger of igniting. And it 
did. And they couldn't get permits for it.
    And then fire comes through, and the amount of carbon being 
released by these fires makes a mockery of all of our 
environmental laws.
    Mr. Bedke. Again, if you want to argue with me, 
Congressman, you are going to have to change the subject.
    [Laughter.]
    Mr. Bedke. Because that is exactly the point. All of these 
preventative measures that you reference have to go through 
NEPA. And our NEPA process is set up so that----
    Mr. McClintock. It is needlessly time-consuming and 
ultimately cost-prohibitive.
    Mr. Bedke. It is time consuming and prone to lawsuits. So, 
you have this paralysis by this wanting to love the ground 
through NEPA.
    Mr. McClintock. Let me change the subject for a moment.
    Mr. Bedke. All right.
    Mr. McClintock. Nobody wants to see any species go extinct. 
But I don't understand why captive breeding programs and fish 
hatchery programs shouldn't be employed to maintain these 
populations.
    Mr. Bedke. That is exactly the mentality that I took in the 
room, as well. I have learned since that it is hard to do 
captive breeding programs with the sage-grouse. It works very 
well with other species, but for some reason----
    Mr. McClintock. But in many cases they still don't let us 
include them in the population counts.
    Mr. Bedke. That is the case, certainly, with fish.
    Mr. McClintock. OK. One more, oh yes, on climate change. It 
seems to me that the climate has been changing for about 4\1/2\ 
billion years. The planet has been warming on and off since the 
last Ice Age.
    But it is changing, it is warming. Doesn't that argue in 
favor of more active management of our lands, so that we can 
match the density of the vegetation to the ability of the land 
to support it?
    Mr. Bedke. And in unison, the choir said yes.
    The Chairman. Thank you.
    Ms. Cheney.
    Ms. Cheney. Thank you very much, Mr. Chairman, and thank 
you to all of our witnesses for being here today.
    Speaker Bedke, I was particularly struck by your testimony 
and by your description of what had happened most recently on 
your land. And you had a line in your written testimony where 
you noted that good intentions are not good enough. I think 
that is a very apt description for what has happened here. And 
I think it is a diplomatic description, frankly, for what has 
happened here.
    But when you look at the policies that we have seen, 
particularly out of the last 8 years, and the attempt to impose 
this one-size-fits-all, Wyoming has 37 percent of the sage-
grouse population, and we are very proud of our state 
management plan.
    I wonder, though, if you could describe in a little bit 
more detail what happened when you saw these amendments 
imposed, and specifically, what were the brakes that you saw 
put on the state management plan that had been so carefully 
developed and put into place in Idaho?
    Mr. Bedke. Well, they went beyond the mark. And we knew we 
had to defend these plans, long term, and made them as bullet-
proof as we possibly could, and still allow for the traditional 
uses out there. Everyone at the table, including the ranchers, 
knew that their practices were going to have to be modified, 
and they were in agreement to do that.
    All right, so then you have the plan amendments that 
overlay over the top. Like I described, the lek buffers. If you 
have a lot of leks, you have a lot of 5-mile circumference, or 
5-mile circles around each one of these leks, where their use 
at certain times of the year are severely limited. And to 
conduct a grazing program in these polka dots, over, literally, 
tens of thousands of acres, you cannot fence them economically 
to keep the cattle out.
    So, it becomes very, very subjective, based on, again, the 
political winds that are blowing. And that was our largest 
concern.
    Then these wholesale mineral withdrawals, the tens of 
millions of acres that were lifted and all the headlines read 
that Zinke is removing the protection for the sage-grouse. 
Well, that was never a problem in the first place.
    I look to everything through the lens of a livestock 
person, and not a miner or the others, or a mineral or gas 
explorer. So, specifically for the livestock were the buffer 
zones and the stubble height requirements. After you graze, you 
still had to have 7 inches of stubble height after you go in 
there, and that is hard to accomplish.
    And it becomes a judgment call each and every day out there 
by the land management agencies whether or not you are in 
compliance. And if you are not, then baked into their protocols 
was this 50 percent reduction, and a 50 percent reduction, and 
a 50 percent reduction. Well, you can only stand so many of 
those, and then you are out of business.
    Ms. Cheney. Thank you. And in addition to the damage that 
has been done to the grazing industry, for example, and I 
apologize if I don't get your name right, Mr.--J.J.? J.J., you 
can call me Liz.
    In addition to the damage that has been done to some of our 
industries, the grazing industry and the mineral industry, 
isn't it true that when we are trying to impose a one-size-
fits-all solution to Washington we are also not as effective as 
we could be in helping to preserve the sage-grouse?
    Dr. Goicoechea. Congresswoman Liz, that is exactly correct. 
And that is why we have to get away from it.
    And what Speaker Bedke is alluding to as he talks about the 
grazing and the 7 inches are the habitat objectives in that 
table. They may work well in parts of Wyoming, they may work 
well in parts of Montana. There are hardly any places in Nevada 
where they are going to work well. Seven inches? If we had 7 
inches of grass and could grow it regularly, we would not be 
sitting in here, having this conversation today. And that is 
part of the problem.
    We have to get back to that local, we are damaging the 
bird, we are burning the habitat by trying to achieve something 
that ecologically is impossible to do.
    Ms. Cheney. Thank you very much. And I think it is a sad 
and tragic example, but a really important example of, across 
the board, what happens when you have mismanagement from 
Washington, and I am fully supportive and very proud to be a 
co-sponsor of the Chairman's legislation. Thank you.
    The Chairman. Thank you. And I appreciate Representative 
Cheney for covering for me on the Floor the other night, too. 
Thank you.
    Mr. Gianforte.
    Mr. Gianforte. Good. Thank you, Mr. Chairman. And thank you 
to the panel for being here. And it is great to hear the 
successes you are having.
    I want to call out Director Tubbs first, for the phenomenal 
work that has been done in Montana, and you have led that 
effort. We have been able to protect the great sage-grouse in 
Montana. I understand that our male sage-grouse population is 
up 153 percent since 2014, largely thanks to the all lands/all 
hands approach that you have spearheaded.
    I can attest myself last week being in southern Phillips 
County, trying to fill an antelope tag, that there were many 
sage-grouse that we witnessed in the pastures, so that was 
good. Keep up the good work. I appreciate it.
    My first question is for Speaker Bedke. I want to dig in a 
little more. You testified that rangewide plans lack the 
recognition of the issues that are facing the species in a 
specific state. And some states are happier with these rules 
than others, because of the differences we have talked about.
    You have also noted a disregard for science in some of 
these plans. I want to go specifically to wildfires, because 
you listed that as the primary issue in affecting habitat, and 
we talked at some length here about the specific regulations 
that are impeding local firefighting. You mentioned a couple.
    My question is, what additionally should we be doing to 
free up and provide more local control, as we attempt to fight 
fire and protect sage-grouse habitat?
    Mr. Bedke. Well, I envision a world where an edict comes 
from Washington, for a change, out to the local offices that 
says, ``You will have pre-fire suppression plans so that we can 
accomplish some of the,'' and that is not going to eliminate 
all the fires out there. Every front that comes through is 
going to have lightning with it, and there are going to be 
fires started, but we can minimize the size of these fires.
    Because if it is an all-hands-on-deck for the sage-grouse, 
and the Number one issue or the Number one threat is fire, then 
we can do better here. Yet, our actions out on the ground 
contradict that statement. I can only describe my frustration 
watching that.
    Mr. Gianforte. And we have heard testimony here that we are 
better off----
    Mr. Bedke. Yes, but what we need to do, then, is create 
fire districts out there, so that the ranchers are trained and 
have access to equipment. Because they live out there, and many 
times they will be the ones to see the smoke, and they can go 
out and address that, so they need to be properly trained and 
their communication systems need to be able to talk to the 
Federal land management agencies. We have started doing that 
with great success in some parts of the state.
    Mr. Gianforte. OK. Mr. Bird, you testified that you have 
actually cut the wildfire impact on sage-grouse by 50 percent, 
protecting over 500,000 acres. Can you just go into a little 
more detail on how you did that, and what should we do at the 
Federal level to encourage that behavior or get out of the way?
    Mr. Bird. Every acre of pre-suppression saves a ton of 
money in the end. And we know, as states, as local entities, 
where our greatest threats are. And the key is working those 
areas. Whether it is sage-grouse habitat or whether it is near 
communities, we know where those threats are. And it is a 
matter of getting ahead of ourselves and doing that pre-
suppression work.
    Oftentimes, as we know, when the fire season goes on and 
Federal money gets fewer and further between, the Forest 
Service, for instance, will go over budget on their fire. And 
what goes first? That pre-suppression money that could have 
been on the ground and could have prevented those fires in the 
first place.
    Mr. Gianforte. So, reducing fuel loads, doing preparation 
actually reduces the intensity and the severity of the fires?
    Mr. Bird. Right. And just following up on Speaker Bedke, we 
have a new program in Utah called the catastrophic fire 
program, and that is getting into those local fire districts, 
getting into those local areas, training them so that they can 
take care of those fires immediately.
    In fact, I think it is closer to 90 percent of the initial 
fire attack in Utah is done by those local volunteer agencies. 
And if they are properly trained, they can do a remarkable job.
    Mr. Gianforte. Again, I want to thank the panel here for 
your testimony today. It is clear that when there is more local 
control, we get better outcomes for the sage-grouse and for our 
local producers.
    And, with that, I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Amodei.
    Mr. Amodei. Thank you, Mr. Chairman, and thank you for your 
indulgence in letting anybody show up at this meeting. I 
appreciate it.
    Mr. Goicoechea, for those of you who have a hard time 
pronouncing his name, the only reason I know is because I spent 
14 years in the Nevada Legislature with his father. They are 
Spanish Basque, I believe. So, for those of you that are into 
kind of that what side of the ridge line those sheep herders 
are from, the French Basque will not be happy to know that Dr. 
Goicoechea, who is a large-animal vet, is from the wrong side 
of the ridge line.
    That notwithstanding, though, I go into that embarrassing 
part for both of us to underscore the fact that as I look at 
this distinguished panel with the Speaker from Idaho, the 
Deputy Director from Utah's Natural Resources Department, and 
the Director from Montana, what we have sitting over there in 
the nice Basque gentleman's chair is the guy who is the head of 
the Nevada Sagebrush Ecosystem Council, which was the policy 
group formed by the legislature. The bill was signed by the 
Governor to do numerous things, if you look at the statute, but 
it is basically to establish what the facts are and what the 
policy ought to be, and create a sagebrush conservation plan 
for the state of Nevada. Thank you for your service, Dr. 
Goicoechea.
    So, when we talk about collaboration and transparency, I 
want to start out with a few questions that are pretty easy 
ones to answer.
    Have you completed a Nevada plan for the conservation of 
the sage-grouse and its habitat?
    Dr. Goicoechea. Yes, sir.
    Mr. Amodei. Does that plan contain a provision dealing with 
wild horses?
    Dr. Goicoechea. Yes, sir.
    Mr. Amodei. Did the plan that was put into the BLM resource 
management plans and travel management plans in Nevada contain 
an element that dealt with wild horses?
    Dr. Goicoechea. Not efficiently at all, no.
    Mr. Amodei. Thank you. Now, let me ask you this. Did your 
plan have a mitigation system in it?
    Dr. Goicoechea. Yes, sir, the Nevada conservation credit 
system.
    Mr. Amodei. Did the one that was enacted in the six or 
seven Nevada district offices, their resource management and 
travel management plans, did it include a mitigation system in 
it?
    Dr. Goicoechea. No, sir.
    Mr. Amodei. Can you tell me any part of the Nevada plan 
that was adopted after the draft EIS was circulated in Nevada 
and the final one came out? Was there any part of the Nevada 
plan that was picked up in that transparent collaborative 
process?
    Dr. Goicoechea. No, sir, I can't tell you of one.
    Mr. Amodei. So, when we hear about transparency, let's go 
to another area, sagebrush focal areas. About 3 million acres 
in Nevada, is that correct?
    Dr. Goicoechea. Yes, sir. A little over.
    Mr. Amodei. Did your group--by the way, your group worked 
for how long on this plan?
    Dr. Goicoechea. Several, a couple of years.
    Mr. Amodei. Public hearings?
    Dr. Goicoechea. Public hearings, hundreds of hours of 
hearings and public testimony.
    Mr. Amodei. Noticed in accordance with the open meeting 
law?
    Dr. Goicoechea. Absolutely.
    Mr. Amodei. Your members included environmentalists, they 
included members of the public, they included members of the 
State Wildlife Commission, ex officio were all the Federal land 
managers in the state. Is that accurate?
    Dr. Goicoechea. That is accurate.
    Mr. Amodei. When did you find out that Nevada was to have 3 
million acres of something called a sagebrush focal area?
    Dr. Goicoechea. When the record of decision was signed.
    Mr. Amodei. And that was not in the draft EIS?
    Dr. Goicoechea. No, sir.
    Mr. Amodei. I would like to add for the Committee's record 
that in my service on an inferior committee, when we had the 
Director of the Bureau of Land Management, the Chief of the 
Forest Service, we asked the question, ``Where did the 
sagebrush focal areas come from?''
    I would further represent for the Committee's record that 
the answer from those gentlemen basically said it came from 
fish.
    So, when then-Director of Fish and Wildlife, Mr. Ashe, was 
there, we said, ``How did you figure out where the lines 
were?'' Well, that was an open, collaborative process.
    It was such a good, open, and collaborative process that if 
you look in your Committee brief you will see that a Federal 
district court judge, who probably does not show up as a 
contributor to the present Administration's campaign fund, 
ruled that they had not complied with NEPA and that these came 
out of nothing that would resemble, these are my words, no one 
else's, an open and collaborative process.
    So, as you can tell, I want to thank you for those answers. 
I want to also do a couple other things.
    One is it is my understanding that, of the $65 million that 
the people in the 114th Congress appropriated to the Department 
of the Interior to take care of sagebrush things on the ground, 
that $35 million of it stayed within the Beltway. So, when we 
talk about fuels management and other sorts of collaborative 
things, that is not a great record of putting things in the 
Beltway.
    Are we thinking maybe things closer to the state are 
better, perhaps?
    Now the last thing I want to go through, real quickly, 
because I am almost out of time. Mr. Chairman, it is my 
understanding that, in the last 20 years, BLM statistics, not 
counting the last fire season, there were between 6 and 7 
million acres burned in Nevada, that sheep grazing is about 20 
percent of what it used to be, that Federal land managers have 
basically permitted 150,000 acres in mining, and that cattle 
grazing is down about 20 percent from its height. Are those 
numbers basically accurate?
    Dr. Goicoechea. Those are basically accurate. Yes, sir.
    Mr. Amodei. So, based on those numbers, when you talk about 
the Number one threat to habitat, whether it is fragmentation 
or loss, would it be your conclusion that when we talk about 
mining and grazing and things like that, and the decisions of 
Federal land managers, that those are not the threats?
    Dr. Goicoechea. Yes, sir. The threats are----
    Mr. Amodei. Thank you. And thank you Mr. Chairman, and God 
bless the West.
    Dr. Goicoechea. I don't want the gavel to come flying at 
me.
    The Chairman. Yes.
    [Laughter.]
    The Chairman. And after that you can carry your laundry on 
the streets if you want to.
    Let me just take a couple seconds to ask a few questions 
here.
    Mr. Goicoechea, first of all, there have been three reviews 
of sage-grouse by the Fish and Wildlife Service. Each time they 
have said that they did not warrant listing. There is another 
one scheduled in 2020. Based on your experience in past times, 
do you expect them to find something different in this fourth 
review that they have not found in the other three?
    Dr. Goicoechea. No, sir, I do not. And I believe that it is 
critical that we continue to collect that data that shows what 
we are doing in our states is effective and is protecting those 
birds.
    The Chairman. OK, Mr. Bird, the state of Utah spent roughly 
$3 million in the management of habitat and things like the 
watershed protection initiative, and everything else.
    What is the difference between the population, say, in the 
last 30 years of the bird in the state of Utah?
    Mr. Bird. Up, they are up.
    The Chairman. Significantly?
    Mr. Bird. They are up.
    The Chairman. They are up.
    Same thing, Mr. Speaker. You put, like, $750 million in 
sage-grouse management in Idaho?
    Mr. Bedke. I think that is a cumulative number from all the 
western states.
    The Chairman. As I think some of the others have been 
saying here, have the requirements that have been put on you 
most recently from the Federal Government, the BLM, as well as 
the Forest Service, have they augmented those situations, what 
you are trying to do, or has it been basically a hindrance to 
what you are attempting to do?
    Mr. Bedke. Well, it is certainly a hindrance within the 
stakeholder community. The creation of the sagebrush focal 
areas, as Congressman Amodei referenced, plus the buffer zones, 
plus the stubble height requirements seem more designed to 
limit livestock grazing than anything else.
    The Chairman. And we will not even go into detail of what 
happens if you let that growth take place without any kind of 
limitations to it, without any kind of grazing on it. 
Eventually what happens when it gets old and dies and cuts out 
any kind of new growth, it becomes fodder for wildfires, making 
it even more dangerous than it was before.
    There is one thing I just want to notice, that from the 
four of you that are here, you are representing Idaho, Utah, 
Montana, and Nevada. And, as was mentioned by the Ranking 
Member, in private lands there has been great control as far as 
habitat. I think it was also mentioned by Mr. Tubbs, you have 
done great habitat on your private lands.
    Fifty-four percent of the West is owned by the Federal 
Government. Montana, though, is about 20 percent below that 
average. You bring the average down there. You have much more 
private land than the rest of the states have. No offense. You 
and California lower the average for the rest of us here. You 
have more private property, which means you should do a better 
job in managing than the other states do. If not, it is on your 
head.
    I know Utah would love to have something like 30 percent of 
Utah or even 54 percent of Utah owned by the Federal 
Government. We don't. We have a much more difficult problem, 
which means the state has control over these areas, but not on 
the Federal lands. And I realize in Nevada you don't have 
squat, as far as private lands in the state of Nevada. 
Everything has to go through this process.
    What you four gentlemen have illustrated is that every 
state is indeed different, and it has been brought out by 
several Members here. Every plan has to be different. If we 
really care about the bird, if we care about not just 
controlling anything, but rehabilitation of the species, it has 
to be done differently. And that was what the original intent 
that Secretary Salazar said. And at one time that was the 
approach that you all went through in coming up with state 
plans, and then it was cut off.
    Mr. Tubbs, I think you said it. One time the governors were 
simply cut off of the process, and then brought back in 
afterwards. Too late. And that is why there have been a lot of 
lawsuits by governors from different states in the West, 
because they were cut off and then brought back too late.
    If we really want to solve this problem, you have to let 
state plans go into effect, and you have to give them a chance 
to show that they can actually accomplish their results, and 
that is going to take a couple of years to do that.
    But what we are doing right now is wrong, and I applaud 
this Administration for trying to see if we can roll it back. 
But what we have to do is roll back in an intelligent way to 
make sure that the states are not only just given the 
authority, but also are not going to be limited in what their 
authority does by outside sources or outside limitations that 
come in there.
    I thank all four of you for being here. I thank the 
Committee also for being here and the questions they have.
    Are there other questions on another round?
    Mr. Grijalva. No, Mr. Chairman. Just to enter into the 
record from Assistant Secretary of Defense for Readiness, Mr. 
Feehan, on a response to a question regarding the Endangered 
Species Act and effect on military preparedness, in which he 
says that the current status without any legislative change 
protects their interest, in terms of preparation.
    And to just clarify that response by Director Tubbs was in 
terms of inclusion in the review of the current plans had to do 
with this present Administration, not the former.
    With that, I yield back.
    The Chairman. Is there anyone else?
    Then, if not, for our witnesses, once again, thank you for 
being here. I appreciate that. The public record will stay open 
for a while.
    If there are other questions that Members have, they may be 
submitted to you. We would ask you to respond to those. Those 
will all be part of the record in a timely fashion.
    Where is my other sheet of what I have to say at the very 
end? No one can go until I say it.
    Well, it is not there, not there, or not there. Oh, well, 
thank you for being here.
    [Laughter.]
    The Chairman. There is something I have to say, and it is 
we are adjourned.

    [Whereupon, at 12:04 p.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

  Prepared Statement of Gary R. Herbert, Governor of the State of Utah
    Thank you, Chairman Bishop and Ranking Member Grijalva for holding 
this important hearing. I appreciate you inviting me to share with you 
and members of this Committee some thoughts on management concepts for 
public lands as they pertain to ``Empowering States in Sage Grouse 
Management.''
                              introduction
    It is easy to come and testify against unpopular Federal programs. 
That is not my purpose today. I am here to deliver a message about our 
successes and what is needed to protect sage-grouse, western habitats, 
and hardworking Americans.
    Catastrophic wildfire has become a major concern across the 
American West. This year, the Federal Government has spent $2 billion 
on wildfire control. This is a new record and a tremendously burdensome 
expenditure for the American taxpayer. The fires were so bad that the 
smoke plume literally spanned the Nation this summer. Some of America's 
most pristine forests, national parks, and vistas burned for months. 
The impacts of catastrophic wildlife to the lives of millions of 
Americans cannot be understated.
                    watershed restoration initiative
    When it comes to sage-grouse, our Number one concern in the state 
of Utah is wildfire. In 2007, Utah experienced a severe wildfire 
season. The state's wildfires in sage-grouse areas were particularly 
bad. One catastrophic wildfire burned over 200,000 acres in central 
Utah. The wildfire burned so hot, that it jumped a multi-lane 
interstate freeway and actually killed a driver. As a state, we 
assessed the problem and took action. We raised millions of dollars in 
private and state funding. We began to address the root causes of 
catastrophic wildfire in sage-grouse habitats and began to restore Utah 
watersheds.
    This program, The Utah Watershed Restoration Initiative, has 
completed hundreds of projects in the last 10 years. Over 40 private, 
state, and Federal partners contribute to this program financially. We 
have invested over 150 million dollars and treated approximately 1.5 
million acres. By any standard, this program has been an overwhelming 
success. It has not only saved the state from wildfire, it has saved 
hundreds of millions of dollars in firefighting costs.
    These projects do more than just control wildfire. They restore our 
watersheds, native vegetative communities, and dramatically enhance 
habitat for wildlife. These areas are wetter, produce more runoff, and 
they dramatically increase the resilience and redundancy of habitats 
for sage-grouse. Our researchers are documenting dramatic measurable 
improvements in habitat utilization, nesting success, and population 
response of sage-grouse in these restored areas.
                          results for wildfire
    The Watershed Restoration Initiative is working to control 
wildfire. We have fewer fires in our Sage Grouse Management Areas. 
Naturally occurring fires are smaller and easier to put out. 
Catastrophic wildfire numbers are a mere fraction of what these were 
just 10 years ago.
    One measure of success: ``Total acres burned'' has improved 
dramatically. From 1999-2007, the 9 years before these conservation 
actions, wildfires within the state of Utah burned 628,663 acres within 
Utah Sage Grouse Management Areas. This amounts to 8.7 percent of 
acreage within Utah's SGMAs in a 9-year period.
    From 2008-2016, the 9 years after these conservation actions were 
commenced, wildfires within the state of Utah burned 114,111 acres 
within Utah's Sage Grouse Management Areas. This amounts to 1.5 percent 
of acreage within Utah's SMGAs that were impacted by wildfire during 
the 9-year period.
    This is fivefold improvement since just 2008. Just as importantly, 
this means that 514,552 fewer acres were burned by wildfire in the last 
9 years compared to the 9 years before the Watershed Restoration 
Initiative Commenced. The improvement within Utah's SGMAs is 
significant and demonstrates that Utah's regulatory system is more than 
adequate to control the threat of wildfire.
                            why this matters
    I am here to do more than just share a feel good success story of a 
program that is working. I am here to protect these programs. In 2015, 
the Obama administration issued new Federal land use plans in the name 
of sage-grouse. This followed 30 years of listing petitions that 
claimed that western states could not manage sage-grouse.
    We understand the needs of our sage-grouse, and their unique 
habitats within the state. We have protected and grown our grouse 
populations for decades. We have studied and adaptively managed for 
sage-grouse success. We have spent tens of millions of dollars to 
protect, restore, enhance, and grow sage-grouse habitat in the state of 
Utah. The state, stakeholders, and citizens support these common-sense 
programs that work for Utah and its citizens. Our investment in sage-
grouse conservation has been very successful.
              federal plans hurt programs needed the most
    The new BLM and Forest Service sage-grouse plan amendments are 
aimed at imposing more regulations on the state of Utah. Let me be very 
direct so there can be no confusion. These new regulations are a far 
cry from ``collaboration'' or ``balance.'' In fact, these plans 
undermine the programs that are doing the most for sage-grouse in Utah.
    Let me give you one example. The Federal sage-grouse plans are 
based on a paradigm of regulation, not conservation. Take oil and gas 
drilling. Documents obtained by the state of Utah show that Federal 
officials are mandating ``no surface occupancy'' for oil and gas 
drilling within Utah's Sage Grouse Management Areas. Is oil and gas a 
big problem in Utah's Sage Grouse Management Areas? Not at all. In 
fact, there are less than 200 active oil and gas wells on the 7.4 
million acres of Utah's SGMAs. This is far below the oil and gas 
density levels for priority habitat agreed upon with Federal officials.
    Ninety-four percent of Utah's sage-grouse are protected within 
Utah's Sage Grouse Management Areas. This is the highest percentage of 
birds protected within core areas of any western state. This is also 
our best sage-grouse habitat. Instead of looking for ways to augment 
the Watershed Restoration Initiative that has saved 500,000 acres from 
wildfire and post wildfire effects, Federal sage-grouse plans were 
focused on a few oil and gas wells.
    It gets worse. The state of Utah relies on economic activity in 
areas outside of our Sage Grouse Management Areas help pay for Utah's 
Watershed Restoration Initiative. These new regulations have 
essentially brought much of the new economic activity in areas outside 
of Utah's SGMAs to a standstill. What this means is that funding from 
mitigation, sportsmen, and state tax revenues are being lost. This 
threatens the one program, (i.e. the Watershed Restoration Initiative) 
that is doing the most to protect and restore sage-grouse in the state 
of Utah.
    These Federal sage-grouse plans may be well intentioned, but they 
are a threat to the partnerships, funding, and collaboration that makes 
Utah's Watershed Restoration Initiative Work. Let me be clear: These 
BLM and Forest Service Plans are bad for conservation, bad for Utahns, 
and bad for sage-grouse.
                good intentions unintended consequences
    Good intentions do not make good policy. This year the Federal 
Government has spent $2 billion trying to control western wildfires. 
This is the most that has ever been spent in American history. For 100 
years, we have controlled the natural fire cycle that kept stands of 
invasive pinyon and juniper trees in check. Litigation has stopped most 
logging and forest thinning needed to control the fuel loads. Federal 
regulators continue to cut cattle and sheep grazing which also are an 
important fire prevention measure.
    These ill-advised policies are not working. Western states must now 
live with the catastrophic wildfires, toxic smoke filled air, loss of 
homes and businesses, and even the loss of human life. Certainly, this 
was not the outcome environmental activists expected. However, it is 
the good citizens of my state who must live with the unintended 
consequences of these failed policies on a daily basis.
                       let western states manage
    My earnest petition is that Congress let the people who are 
impacted the most enact the policies needed to protect our families, 
and our communities. Western states are in the best spot to look beyond 
the good intentions and consider the very real, and very disastrous, 
real world impacts of these policies.
    I am asking you to protect a program that is unrivaled in the 
Nation. The success of our Watershed Restoration Initiative in 
restoring and protecting sage-grouse is one of the reasons why Utah's 
legislature passed a nearly unanimous bipartisan resolution in support 
of a bill introduced by Congressman Bishop to protect Utah's sage-
grouse conservation efforts.
    It is time to revitalize and replace outdated Federal land 
policies. The new era of public lands will be one in which state and 
local entities take on a greater role and will use their skill, 
flexibility, and innovation to meet the recreation, environmental, and 
energy needs of the 21st century.
    Congress must look at these policies from a conservation, fiscal, 
and human standpoint. Let our state's programs continue to work. Take 
action and pass legislation that throws out these ill-advised Great 
Basin BLM and Forest Service Land Use Plans. Protect the proven on-the-
ground conservation programs that are working for sage-grouse, sage-
grouse habitats, and hardworking Americans.

                                 ______
                                 
Rep. Adam Smith Submission

                          Department of the Army,  
                   Assistant Secretary of the Army,
                                             Washington, DC

                                                     April 15, 2016

The Honorable Adam Smith
Ranking Member
Committee on Armed Services
U.S. House of Representatives
Washington, DC 20515

    Dear Representative Smith:

    This letter is in response to your request regarding the Greater 
Sage-grouse and whether a future decision to list the species under the 
Endangered Species Act would affect military training, operations, and 
readiness.
    The Department of the Army is closely monitoring the status of the 
Greater Sage-grouse and its relationship to the Army mission. We 
currently believe that existing statutory authorities adequately 
protect the interests of the Department and we do not anticipate a need 
for additional legislation from Congress. The Army's responses to your 
specific questions are attached.
    Thank you for your inquiry into this matter and your continued 
support of the Army, our Soldiers and their Families.

            Sincerely,

                                          Katherine Hammack

Enclosure

                                 *****

1. How would the land use plans, and other requirements for protection 
of the Greater Sage-grouse and its habitat, affect military training, 
operations, or readiness? The Army has reviewed relevant portions of 
Bureau of Land Management, U.S. Forest Service, and state management 
plans and does not believe these plans will affect Army training, 
operations, or readiness to any significant degree. Army installations 
such as Yakima Training Center with a resident population of greater 
sage-grouse have already included conservation measures for this 
species in their Integrated Natural Resources Management Plan (INRMP). 
INRMPs and the species conservation measures therein are approved by 
both the U.S. Fish and Wildlife Service (USFWS) and the state 
conservation agency. The Greater Sage-grouse conservation measures in 
the INRMP have not prevented Yakima Training Center from meeting its 
military mission.

2. If the Greater Sage-grouse were to be listed as threatened or 
endangered under the ESA, what affect would that decision have on 
military training, operations, or readiness? If the species were to be 
listed as threatened or endangered, consultation under Section 7 of the 
Endangered Species Act (ESA) would be required for actions on Army 
lands that may affect the species. While there had been some concern 
that listing the Greater Sage-grouse may result in additional 
restrictions, the Army now expects the USFWS to take into account the 
Greater Sage-grouse conservation measures we have implemented through 
our INRMPs, rather than requiring additional restrictions or mitigation 
actions. We also expect our installations would be exempt from the 
designation of critical habitat because of the conservation measures in 
our INRMPs. Therefore, considering these expectations, the Army does 
not anticipate a significant impact to military training, operations, 
or readiness if the species is listed under the ESA.

3. How do the Integrated Natural Resources Management Plans (INRMPs) 
allow for both training and wildlife conservation at U.S. military 
installations while not adversely affecting military training, 
operations, or readiness? Army INRMPs establish conservation measures 
for the natural resources on Army installations that are consistent 
with the military use of our installations and ensure that there is no 
net loss in the capability of installation lands to support the 
military mission. Army INRMPs arc developed by the Army's installation 
natural resource managers in close coordination with our training range 
managers and installation commanders. This ensures that there are 
effective species conservation measures and that those measures are 
tailored to the installation military mission to avoid adverse effects 
to mission.

4. What statutory authorities does the Department of Defense have to 
address potential conflicts that may arise in the future to ensure that 
military training, operations, and readiness will not be adversely 
affected? Does the Department believe these authorities are sufficient 
to protect the interests of the Department of Defense without 
additional legislation from Congress? Congress made several important 
changes to Section 4 of the ESA in 2003 that provide DoD the 
authorities to address conflicts. ESA subparagraph 4(a)(3)(B) exempts 
military lands from critical habitat designation if the lands are 
covered by an approved INRMP that provides a benefit to the subject 
species. The DoD may also rely on ESA paragraph 4(b)(2) to exclude the 
installation from critical habitat designation based on potential 
impacts to national security. The DoD may also invoke subsection 7(j) 
of the ESA. This provision directs the Endangered Species Committee to 
grant an exemption for any action the Secretary of Defense believes is 
necessary for reasons of national security. The cited authorities are 
sufficient to protect the interests of the Army without additional 
legislation from Congress.

                                 ______
                                 

Rep. Grijalva Submissions

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Sage-Grouse Implementation Options in Northwest Colorado

Greater Sage-grouse Conservation--The Collaboration Continues

The BLM's Greater Sage-grouse Plans provide a framework for managing 
the activities on our public lands in a way that preserves multiple 
use, sustains the land for future generations, and meets the 
conservation goals for sage-grouse and the sagebrush habitat. Thanks to 
these plans, the U.S. Fish and Wildlife Service found that the greater 
sage-grouse no longer required listing under the Endangered Species 
Act, a status we can keep with thoughtful implementation in each state 
and region. The collaborative framework provides discretion to BLM 
state and field offices. This allows them to work with cooperating 
agencies and other partners, to determine the best way to achieve the 
goals and objectives of the plans in the context of proposed uses.

An overview of the discretion available to the BLM to manage major 
public land uses under the Northwest Colorado Plan is provided below.

Protective measures

    <bullet> Practices, such as avoiding large-scale transmission 
            lines, to preserve land and vegetation, are limited to 
            sage-grouse habitat.

    <bullet> The strongest measures, for instance only allowing oil and 
            gas development without surface disturbance, are only 
            targeted on the most important habitat.

    <bullet> These habitat areas are identified by state and federal 
            scientists.

Avoidance

The Plans' framework, rather than closing lands to uses, identifies 
potentially harmful uses that should be avoided but may be permitted as 
needed, even in high quality habitat, such as:

    <bullet> Wind energy development in General Habitat Management 
            Areas

    <bullet> Major rights-of-way/infrastructure--such as transmission 
            lines--in General and Priority Habitat Management Areas

    <bullet> Minor rights-of-way/infrastructure--such as roads--in 
            General and Priority Habitat Management Areas

Oil and gas leasing and development

Only lands within one mile of active leks are closed to leasing. 
Agencies are required to prioritize oil and gas leasing and development 
outside sage-grouse habitat. Neither the Rocky Mountain Record of 
Decision nor the Northwest Colorado Plan specify methods for 
prioritization--focusing instead on what BLM state offices should 
``consider.'' Similarly, BLM's guidance (IM 2016-143) provides a set of 
``factors to consider'' in prioritizing leasing and development, 
including:

    <bullet> Parcels immediately adjacent or proximate to existing oil 
            and gas leases and development operations or other land use 
            development should be more appropriate for consideration 
            before parcels that are not near existing operations.

    <bullet> Parcels that are within existing Federal oil and gas units 
            should be more appropriate for consideration than parcels 
            not within existing Federal oil and gas units.

    <bullet> Parcels in areas with higher potential for development are 
            more appropriate for consideration than parcels with lower 
            potential for development.

    <bullet> Parcels in areas of lower-value sage-grouse habitat or 
            further away from important life-history habitat features 
            are more appropriate for consideration than parcels in 
            higher-value habitat or closer to important life-history 
            habitat features.

    <bullet> Parcels within areas having completed field-development 
            Environmental Impact Statements or Master Leasing Plans 
            that allow for adequate site-specific mitigation and are in 
            conformance with the objectives and provisions in the 
            Greater Sage-grouse Plans may be more appropriate for 
            consideration than parcels that have not been evaluated by 
            the BLM in this manner.

    <bullet> Parcels within areas where law or regulation indicates 
            that offering the lands for leasing is in the government's 
            interest will generally be considered more appropriate for 
            leasing.

    <bullet> As appropriate, use the BLM's Surface Disturbance Analysis 
            and Reclamation Tracking Tool (SDARTT) to evaluate 
            Expressions of Interest (nominated parcels) in Priority 
            Habitat Management Areas, to ensure that existing surface 
            disturbance does not exceed the disturbance and density 
            caps and that development of valid existing rights (solid 
            minerals, rights-of-way) for approved-but-not-yet-
            constructed surface disturbing activities would not exceed 
            the caps.

  Travel management

    <bullet> No routes are closed in the Record of Decision or 
            Northwest Colorado Plan.

    <bullet> Route designation is to be determined in follow-on 
            planning tailored to specific planning areas based on broad 
            considerations set out in the Northwest Colorado Plan.

  Livestock grazing

    <bullet> No areas are closed to grazing, either in the Record of 
            Decision or Northwest Colorado, and the Plan does not set 
            out habitat requirements.

    <bullet> The Northwest Colorado Plan sets out sage-grouse seasonal 
            habitat indicators and associated desired conditions or 
            objectives.

    <bullet> BLM's guidance (IM 2016-142) provides for at least one 
            alternative to consider adopting thresholds and defined 
            responses as terms and conditions for renewal of a grazing 
            permit or lease in Priority Habitat Management Areas, but 
            does not require they be incorporated.

  Effectiveness monitoring

    <bullet> The Northwest Colorado Plan sets out objectives and 
            commits the agencies to track whether these objectives are 
            being met.

    <bullet> BLM's guidance (IM 2016-139) requires the agency to 
            compile monitoring data and prepare reports regarding the 
            effectiveness of the plan in meeting the objectives and 
            goals for different resources but does not mandate a 
            specific response. If objectives are not being met or 
            progress is not being made toward meeting them, BLM's 
            report is to discuss ``if and how the BLM can work to 
            reduce or eliminate any of the causal factors.''

Adaptive management

    <bullet> The Northwest Colorado Plan sets out triggers for 
            considering when actions, such as changing General Habitat 
            Management Areas to Priority Habitat Management Areas, may 
            need to be taken, based on habitat conditions and 
            population numbers determined with state agencies.

    <bullet> Triggers are based on habitat loss and population 
            declines.

    <bullet> Hard triggers (where measured levels indicate conservation 
            is not succeeding) require specific responses.

    <bullet> Soft triggers (where measured levels indicate conservation 
            actions may not be achieving desired results) require 
            conservation on a project-by-project basis that is designed 
            with stakeholders to ``implement an appropriate response 
            strategy.''

                                 ______
                                 

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

  Sage-Grouse Implementation Options in Idaho/Southwestern Montana

Greater Sage-grouse Conservation--The Collaboration Continues

The BLM's Greater Sage-grouse Plans provide a framework for managing 
the activities on our public lands in a way that preserves multiple 
use, sustains the land for future generations, and meets the 
conservation goals for sage-grouse and the sagebrush habitat. Thanks to 
these plans, the U.S. Fish and Wildlife Service found that the greater 
sage-grouse no longer required listing under the Endangered Species 
Act, a status we can keep with thoughtful implementation in each state 
and region. The collaborative framework provides discretion to BLM 
state and field offices. This allows them to work with cooperating 
agencies and other partners, to determine the best way to achieve the 
goals and objectives of the plans in the context of proposed uses.

An overview of the discretion available to the BLM to manage major 
public land uses under the Idaho/Southwestern Montana Plan is provided 
below.

Protective measures

    <bullet> Practices, such as avoiding large-scale transmission 
            lines, to preserve land and vegetation, are limited to 
            sage-grouse habitat.

    <bullet> The strongest measures, for instance only allowing oil and 
            gas development without surface disturbance, are only 
            targeted on the most important habitat.

    <bullet> These habitat areas are identified by state and federal 
            scientists.

Avoidance

The Plan's framework, rather than closing lands to uses, identifies 
potentially harmful uses that should be avoided but may be permitted as 
needed, even in high quality habitat, such as:

    <bullet> Wind energy development in General and Important Habitat 
            Management Areas

    <bullet> Solar energy development in Important Habitat Management 
            Areas

    <bullet> Major rights-of-way/infrastructure--such as transmission 
            lines--in General, Important and Priority Habitat 
            Management Areas

    <bullet> Minor rights-of-way/infrastructure--such as roads--in 
            Important and Priority Habitat Management Areas

Oil and gas leasing and development

No areas are closed to leasing. Agencies are required to prioritize oil 
and gas leasing and development outside sage-grouse habitat. Neither 
the Great Basin Record of Decision nor the Idaho Plan specify methods 
for prioritization--focusing instead on what BLM state offices should 
``consider.'' Similarly, BLM's guidance (IM 2016-143) provides a set of 
``factors to consider'' in prioritizing leasing and development, 
including:

    <bullet> Parcels immediately adjacent or proximate to existing oil 
            and gas leases and development operations or other land use 
            development should be more appropriate for consideration 
            before parcels that are not near existing operations.

    <bullet> Parcels that are within existing Federal oil and gas units 
            should be more appropriate for consideration than parcels 
            not within existing Federal oil and gas units.

    <bullet> Parcels in areas with higher potential for development are 
            more appropriate for consideration than parcels with lower 
            potential for development.

    <bullet> Parcels in areas of lower-value sage-grouse habitat or 
            further away from important life-history habitat features 
            are more appropriate for consideration than parcels in 
            higher-value habitat or closer to important life-history 
            habitat features.

    <bullet> Parcels within areas having completed field-development 
            Environmental Impact Statements or Master Leasing Plans 
            that allow for adequate site-specific mitigation and are in 
            conformance with the objectives and provisions in the 
            Greater Sage-grouse Plans may be more appropriate for 
            consideration than parcels that have not been evaluated by 
            the BLM in this manner.

    <bullet> Parcels within areas where law or regulation indicates 
            that offering the lands for leasing is in the government's 
            interest will generally be considered more appropriate for 
            leasing.

    <bullet> As appropriate, use the BLM's Surface Disturbance Analysis 
            and Reclamation Tracking Tool (SDARTT) to evaluate 
            Expressions of Interest (nominated parcels) in Priority 
            Habitat Management Areas, to ensure that existing surface 
            disturbance does not exceed the disturbance and density 
            caps and that development of valid existing rights (solid 
            minerals, rights-of-way) for approved-but-not-yet-
            constructed surface disturbing activities would not exceed 
            the caps.

  Travel management

    <bullet> No routes are closed in the Record of Decision or Idaho 
            Plan.

    <bullet> Route designation is to be determined in follow-on 
            planning tailored to specific planning areas with broad 
            ``guidelines'' included in Appendix L to the Idaho Plan.

  Livestock grazing

    <bullet> No areas are closed to grazing, either in the Record of 
            Decision or Idaho Plan, and the Plan does not set out 
            habitat requirements.

    <bullet> The Idaho Plan sets out sage-grouse seasonal habitat 
            indicators and associated desired conditions or objectives.

    <bullet> BLM's guidance (IM 2016-142) provides for at least one 
            alternative to consider adopting thresholds and defined 
            responses as terms and conditions for renewal of a grazing 
            permit or lease in Sagebrush Focal Areas or Priority 
            Habitat Management Areas, but does not require they be 
            incorporated.

  Effectiveness monitoring

    <bullet> The Idaho Plan sets out objectives and commits the 
            agencies to track whether these objectives are being met.

    <bullet> BLM's guidance (IM 2016-139) requires the agency to 
            compile monitoring data and prepare reports regarding the 
            effectiveness of the plan in meeting the objectives and 
            goals for different resources but does not mandate a 
            specific response. If objectives are not being met or 
            progress is not being made toward meeting them, BLM's 
            report is to discuss ``if and how the BLM can work to 
            reduce or eliminate any of the causal factors.''

Adaptive management

    <bullet> The Idaho Plan sets out triggers for considering when 
            actions, such as changing Important Habitat Management 
            Areas to Priority Habitat Management Areas, may need to be 
            taken, based on habitat conditions and population numbers 
            determined with state agencies.

    <bullet> Triggers are based on habitat loss and population 
            declines.

    <bullet> Hard triggers (where measured levels indicate conservation 
            is not succeeding) require specific responses.

    <bullet> Soft triggers (where measured levels indicate conservation 
            actions may not be achieving desired results) require 
            conservation on a project-by-project basis that is designed 
            with stakeholders to ``implement an appropriate response 
            strategy.''

                                 ______
                                 

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

         Sage-Grouse Implementation Options in Montana

Greater Sage-grouse Conservation--The Collaboration Continues

The BLM's Greater Sage-grouse Plans provide a framework for managing 
the activities on our public lands in a way that preserves multiple 
use, sustains the land for future generations, and meets the 
conservation goals for sage-grouse and the sagebrush habitat. Thanks to 
these plans, the U.S. Fish and Wildlife Service found that the greater 
sage-grouse no longer required listing under the Endangered Species 
Act, a status we can keep with thoughtful implementation in each state 
and region. The collaborative framework provides discretion to BLM 
state and field offices. This allows them to work with cooperating 
agencies and other partners, to determine the best way to achieve the 
goals and objectives of the plans in the context of proposed uses.

An overview of the discretion available to the BLM to manage major 
public land uses under the Montana Plans \1\ is provided below.
---------------------------------------------------------------------------
    \1\ These plans provide management for all but Southwestern 
Montana, which is managed under a separate sage-grouse plan that 
contains similarly flexible provisions as the Montana Plans.

---------------------------------------------------------------------------
Consistency with Montana's plan

    <bullet> The Montana Plans are designed to be consistent with the 
            State of Montana's sage-grouse plan and to ensure that 
            sage-grouse are managed similarly on state, private and 
            federal lands.

    <bullet> The Montana Plans contain a built-in review process 
            allowing for changes, including to disturbance caps, based 
            on updates to and progress achieved by the State of 
            Montana's sage-grouse plan.

Protective measures

    <bullet> Practices, such as avoiding large-scale transmission 
            lines, to preserve land and vegetation, are limited to 
            sage-grouse habitat.

    <bullet> The strongest measures, for instance only allowing oil and 
            gas development without surface disturbance, are only 
            targeted on the most important habitat.

    <bullet> These habitat areas are identified by state and federal 
            scientists.

Avoidance

The Plans' framework, rather than closing lands to uses, identifies 
potentially harmful uses that should be avoided but may be permitted as 
needed, even in high quality habitat, such as:

    <bullet> Wind energy development in General and Restoration Habitat 
            Management Areas

    <bullet> Solar energy development in General and Restoration 
            Habitat Management Areas

    <bullet> Major rights-of-way/infrastructure--such as transmission 
            lines--in General, Restoration and Priority Habitat 
            Management Areas

    <bullet> Minor rights-of-way/infrastructure--such as roads--in 
            Restoration and Priority Habitat Management Areas

Oil and gas leasing and development

No areas are closed to leasing. Agencies are required to prioritize oil 
and gas leasing and development outside sage-grouse habitat. Neither 
the Rocky Mountain Record of Decision nor the Montana Plans specify 
methods for prioritization--focusing instead on what BLM state offices 
should ``consider.'' Similarly, BLM's guidance (IM 2016-143) provides a 
set of ``factors to consider'' in prioritizing leasing and development, 
including:

    <bullet> Parcels immediately adjacent or proximate to existing oil 
            and gas leases and development operations or other land use 
            development should be more appropriate for consideration 
            before parcels that are not near existing operations.

    <bullet> Parcels that are within existing Federal oil and gas units 
            should be more appropriate for consideration than parcels 
            not within existing Federal oil and gas units.

    <bullet> Parcels in areas with higher potential for development are 
            more appropriate for consideration than parcels with lower 
            potential for development.

    <bullet> Parcels in areas of lower-value sage-grouse habitat or 
            further away from important life-history habitat features 
            are more appropriate for consideration than parcels in 
            higher-value habitat or closer to important life-history 
            habitat features.

    <bullet> Parcels within areas having completed field-development 
            Environmental Impact Statements or Master Leasing Plans 
            that allow for adequate site-specific mitigation and are in 
            conformance with the objectives and provisions in the 
            Greater Sage-grouse Plans may be more appropriate for 
            consideration than parcels that have not been evaluated by 
            the BLM in this manner.

    <bullet> Parcels within areas where law or regulation indicates 
            that offering the lands for leasing is in the government's 
            interest will generally be considered more appropriate for 
            leasing.

    <bullet> As appropriate, use the BLM's Surface Disturbance Analysis 
            and Reclamation Tracking Tool (SDARTT) to evaluate 
            Expressions of Interest (nominated parcels) in Priority 
            Habitat Management Areas, to ensure that existing surface 
            disturbance does not exceed the disturbance and density 
            caps and that development of valid existing rights (solid 
            minerals, rights-of-way) for approved-but-not-yet-
            constructed surface disturbing activities would not exceed 
            the caps.

  Travel management

    <bullet> No routes are closed in the Record of Decision or Montana 
            Plans.

    <bullet> Route designation is to be determined in follow-on 
            planning tailored to specific planning areas.

  Livestock grazing

    <bullet> No areas are closed to grazing, either in the Record of 
            Decision or Montana Plans, and the Plans do not set out 
            habitat requirements.

    <bullet> The Montana Plans set out sage-grouse seasonal habitat 
            indicators and associated desired conditions or objectives.

    <bullet> BLM's guidance (IM 2016-142) provides for at least one 
            alternative to consider adopting thresholds and defined 
            responses as terms and conditions for renewal of a grazing 
            permit or lease in Sagebrush Focal Areas or Priority 
            Habitat Management Areas, but does not require they be 
            incorporated.

  Effectiveness monitoring

    <bullet> The Montana Plans set out objectives and commit the 
            agencies to track whether these objectives are being met.

    <bullet> BLM's guidance (IM 2016-139) requires the agency to 
            compile monitoring data and prepare reports regarding the 
            effectiveness of the plan in meeting the objectives and 
            goals for different resources but does not mandate a 
            specific response. If objectives are not being met or 
            progress is not being made toward meeting them, BLM's 
            report is to discuss ``if and how the BLM can work to 
            reduce or eliminate any of the causal factors.''

Adaptive management

    <bullet> The Montana Plans set out triggers for considering when 
            actions, such as habitat restoration, may need to be taken, 
            based on habitat conditions and population numbers 
            determined with state agencies.

    <bullet> Triggers are based on habitat loss and population 
            declines.

    <bullet> Hard triggers (where measured levels indicate conservation 
            is not succeeding) require specific responses.

    <bullet> Soft triggers (where measured levels indicate conservation 
            actions may not be achieving desired results) require 
            conservation on a project-by-project basis that is designed 
            with stakeholders, including state agencies, ``with 
            consideration of local knowledge and conditions.''

                                 ______
                                 

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

           Sage-Grouse Implementation Options in Nevada

Greater Sage-grouse Conservation--The Collaboration Continues

The BLM's Greater Sage-grouse Plans provide a framework for managing 
the activities on our public lands in a way that preserves multiple 
use, sustains the land for future generations, and meets the 
conservation goals for sage-grouse and the sagebrush habitat. Thanks to 
these plans, the U.S. Fish and Wildlife Service found that the greater 
sage-grouse no longer required listing under the Endangered Species 
Act, a status we can keep with thoughtful implementation in each state 
and region. The collaborative framework provides discretion to BLM 
state and field offices. This allows them to work with cooperating 
agencies and other partners, to determine the best way to achieve the 
goals and objectives of the plans in the context of proposed uses.

An overview of the discretion available to the BLM to manage major 
public land uses under the Nevada Plan is provided below.

Protective measures

    <bullet> Practices, such as avoiding large-scale transmission 
            lines, to preserve land and vegetation, are limited to 
            sage-grouse habitat.

    <bullet> The strongest measures, for instance only allowing oil and 
            gas development without surface disturbance, are only 
            targeted on the most important habitat.

    <bullet> These habitat areas are identified by state and federal 
            scientists.

Avoidance

The Plan's framework, rather than closing lands to uses, identifies 
potentially harmful uses that should be avoided but may be permitted as 
needed, even in high quality habitat, such as:

    <bullet> Wind energy development in General Habitat Management 
            Areas

    <bullet> Major rights-of-way/infrastructure--such as transmission 
            lines--in General and Priority Habitat Management Areas

    <bullet> Minor rights-of-way/infrastructure--such as roads--in 
            Priority Habitat Management Areas

Oil and gas leasing and development

No areas are closed to leasing. Agencies are required to prioritize oil 
and gas leasing and development outside sage-grouse habitat. Neither 
the Great Basin Record of Decision nor the Nevada Plan specify methods 
for prioritization--focusing instead on what BLM state offices should 
``consider.'' Similarly, BLM's guidance (IM 2016-143) provides a set of 
``factors to consider'' in prioritizing leasing and development, 
including:

    <bullet> Parcels immediately adjacent or proximate to existing oil 
            and gas leases and development operations or other land use 
            development should be more appropriate for consideration 
            before parcels that are not near existing operations.

    <bullet> Parcels that are within existing Federal oil and gas units 
            should be more appropriate for consideration than parcels 
            not within existing Federal oil and gas units.

    <bullet> Parcels in areas with higher potential for development are 
            more appropriate for consideration than parcels with lower 
            potential for development.

    <bullet> Parcels in areas of lower-value sage-grouse habitat or 
            further away from important life-history habitat features 
            are more appropriate for consideration than parcels in 
            higher-value habitat or closer to important life-history 
            habitat features.

    <bullet> Parcels within areas having completed field-development 
            Environmental Impact Statements or Master Leasing Plans 
            that allow for adequate site-specific mitigation and are in 
            conformance with the objectives and provisions in the 
            Greater Sage-grouse Plans may be more appropriate for 
            consideration than parcels that have not been evaluated by 
            the BLM in this manner.

    <bullet> Parcels within areas where law or regulation indicates 
            that offering the lands for leasing is in the government's 
            interest will generally be considered more appropriate for 
            leasing.

    <bullet> As appropriate, use the BLM's Surface Disturbance Analysis 
            and Reclamation Tracking Tool (SDARTT) to evaluate 
            Expressions of Interest (nominated parcels) in Priority 
            Habitat Management Areas, to ensure that existing surface 
            disturbance does not exceed the disturbance and density 
            caps and that development of valid existing rights (solid 
            minerals, rights-of-way) for approved-but-not-yet-
            constructed surface disturbing activities would not exceed 
            the caps.

  Travel management

    <bullet> No routes are closed in the Record of Decision or Nevada 
            Plan.

    <bullet> Route designation is to be determined in follow-on 
            planning tailored to specific planning areas.

  Livestock grazing

    <bullet> No areas are closed to grazing, either in the Record of 
            Decision or Nevada Plan, and the Plan does not set out 
            habitat requirements.

    <bullet> The Nevada Plan sets out sage-grouse seasonal habitat 
            indicators and associated desired conditions or objectives.

    <bullet> BLM's guidance (IM 2016-142) provides for at least one 
            alternative to consider adopting thresholds and defined 
            responses as terms and conditions for renewal of a grazing 
            permit or lease in Sagebrush Focal Areas or Priority 
            Habitat Management Areas, but does not require they be 
            incorporated.

  Effectiveness monitoring

    <bullet> The Nevada Plan sets out objectives and commits the 
            agencies to track whether these objectives are being met.

    <bullet> BLM's guidance (IM 2016-139) requires the agency to 
            compile monitoring data and prepare reports regarding the 
            effectiveness of the plan in meeting the objectives and 
            goals for different resources but does not mandate a 
            specific response. If objectives are not being met or 
            progress is not being made toward meeting them, BLM's 
            report is to discuss ``if and how the BLM can work to 
            reduce or eliminate any of the causal factors.''

Adaptive management

    <bullet> The Nevada Plan sets out triggers for considering when 
            actions, such as habitat restoration, may need to be taken, 
            based on habitat conditions and population numbers 
            determined with state agencies.

    <bullet> Triggers are based on habitat loss and population 
            declines.

    <bullet> Hard triggers (where measured levels indicate conservation 
            is not succeeding) require specific responses.

    <bullet> Soft triggers (where measured levels indicate conservation 
            actions may not be achieving desired results) require 
            conservation on a project-by-project basis that is designed 
            with stakeholders, including state agencies, ``with 
            consideration of local knowledge and conditions.''

                                 ______
                                 

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

            Sage-Grouse Implementation Options in Oregon

Greater Sage-grouse Conservation--The Collaboration Continues

The BLM's Greater Sage-grouse Plans provide a framework for managing 
the activities on our public lands in a way that preserves multiple 
use, sustains the land for future generations, and meets the 
conservation goals for sage-grouse and the sagebrush habitat. Thanks to 
these plans, the U.S. Fish and Wildlife Service found that the greater 
sage-grouse no longer required listing under the Endangered Species 
Act, a status we can keep with thoughtful implementation in each state 
and region. The collaborative framework provides discretion to BLM 
state and field offices. This allows them to work with cooperating 
agencies and other partners, to determine the best way to achieve the 
goals and objectives of the plans in the context of proposed uses.

An overview of the discretion available to the BLM to manage major 
public land uses under the Oregon Plan is provided below.

Protective measures

    <bullet> Practices, such as avoiding large-scale transmission 
            lines, to preserve land and vegetation, are limited to 
            sage-grouse habitat.

    <bullet> The strongest measures, for instance only allowing oil and 
            gas development without surface disturbance, are only 
            targeted on the most important habitat.

    <bullet> These habitat areas are identified by state and federal 
            scientists.

Avoidance

The Plan's framework, rather than closing lands to uses, identifies 
potentially harmful uses that should be avoided but may be permitted as 
needed, even in high quality habitat, such as:

    <bullet> Wind energy development in General Habitat Management 
            Areas and certain counties with significant wind potential 
            in Priority Habitat Management Areas

    <bullet> Solar energy development in General Habitat Management 
            Areas

    <bullet> Major rights-of-way/infrastructure--such as transmission 
            lines--in General and Priority Habitat Management Areas

    <bullet> Minor rights-of-way/infrastructure--such as roads--in 
            Priority Habitat Management Areas

Oil and gas leasing and development

No areas are closed to leasing. Agencies are required to prioritize oil 
and gas leasing and development outside sage-grouse habitat. Neither 
the Great Basin Record of Decision nor the Oregon Plan specify methods 
for prioritization--focusing instead on what BLM state offices should 
``consider.'' Similarly, BLM's guidance (IM 2016-143) provides a set of 
``factors to consider'' in prioritizing leasing and development, 
including:

    <bullet> Parcels immediately adjacent or proximate to existing oil 
            and gas leases and development operations or other land use 
            development should be more appropriate for consideration 
            before parcels that are not near existing operations.

    <bullet> Parcels that are within existing Federal oil and gas units 
            should be more appropriate for consideration than parcels 
            not within existing Federal oil and gas units.

    <bullet> Parcels in areas with higher potential for development are 
            more appropriate for consideration than parcels with lower 
            potential for development.

    <bullet> Parcels in areas of lower-value sage-grouse habitat or 
            further away from important life-history habitat features 
            are more appropriate for consideration than parcels in 
            higher-value habitat or closer to important life-history 
            habitat features.

    <bullet> Parcels within areas having completed field-development 
            Environmental Impact Statements or Master Leasing Plans 
            that allow for adequate site-specific mitigation and are in 
            conformance with the objectives and provisions in the 
            Greater Sage-grouse Plans may be more appropriate for 
            consideration than parcels that have not been evaluated by 
            the BLM in this manner.

    <bullet> Parcels within areas where law or regulation indicates 
            that offering the lands for leasing is in the government's 
            interest will generally be considered more appropriate for 
            leasing.

    <bullet> As appropriate, use the BLM's Surface Disturbance Analysis 
            and Reclamation Tracking Tool (SDARTT) to evaluate 
            Expressions of Interest (nominated parcels) in Priority 
            Habitat Management Areas, to ensure that existing surface 
            disturbance does not exceed the disturbance and density 
            caps and that development of valid existing rights (solid 
            minerals, rights-of-way) for approved-but-not-yet-
            constructed surface disturbing activities would not exceed 
            the caps.

  Travel management

    <bullet> No routes are closed in the Record of Decision or Oregon 
            Plan.

    <bullet> Route designation is to be determined in follow-on 
            planning tailored to specific planning areas with broad 
            considerations included in the Oregon Plan.

  Livestock grazing

    <bullet> No areas are closed to grazing, either in the Record of 
            Decision or Oregon Plan, and the Plan does not set out 
            habitat requirements.

    <bullet> The Oregon Plan sets out sage-grouse seasonal habitat 
            indicators and associated desired conditions or objectives.

    <bullet> BLM's guidance (IM 2016-142) provides for at least one 
            alternative to consider adopting thresholds and defined 
            responses as terms and conditions for renewal of a grazing 
            permit or lease in Sagebrush Focal Areas or Priority 
            Habitat Management Areas, but does not require they be 
            incorporated.

  Effectiveness monitoring

    <bullet> The Oregon Plan sets out objectives and commits the 
            agencies to track whether these objectives are being met.

    <bullet> BLM's guidance (IM 2016-139) requires the agency to 
            compile monitoring data and prepare reports regarding the 
            effectiveness of the plan in meeting the objectives and 
            goals for different resources but does not mandate a 
            specific response. If objectives are not being met or 
            progress is not being made toward meeting them, BLM's 
            report is to discuss ``if and how the BLM can work to 
            reduce or eliminate any of the causal factors.''

Adaptive management

    <bullet> The Oregon Plan sets out triggers for considering when 
            actions, such as changing General Habitat Management Areas 
            to Priority Habitat Management Areas, may need to be taken, 
            based on habitat conditions and population numbers 
            determined with state agencies.

    <bullet> Triggers are based on habitat loss and population 
            declines.

    <bullet> Hard triggers (where measured levels indicate conservation 
            is not succeeding) require specific responses.

    <bullet> Soft triggers (where measured levels indicate conservation 
            actions may not be achieving desired results) require 
            conservation on a project-by-project basis that is designed 
            with stakeholders to ``implement an appropriate response 
            strategy.''

                                 ______
                                 

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

             Sage-Grouse Implementation Options in Utah

Greater Sage-grouse Conservation--The Collaboration Continues

The BLM's Greater Sage-grouse Plans provide a framework for managing 
the activities on our public lands in a way that preserves multiple 
use, sustains the land for future generations, and meets the 
conservation goals for sage-grouse and the sagebrush habitat. Thanks to 
these plans, the U.S. Fish and Wildlife Service found that the greater 
sage-grouse no longer required listing under the Endangered Species 
Act, a status we can keep with thoughtful implementation in each state 
and region. The collaborative framework provides discretion to BLM 
state and field offices. This allows them to work with cooperating 
agencies and other partners, to determine the best way to achieve the 
goals and objectives of the plans in the context of proposed uses.

An overview of the discretion available to the BLM to manage major 
public land uses under the Utah Plan is provided below.

Protective measures

    <bullet> Practices, such as avoiding large-scale transmission 
            lines, to preserve land and vegetation, are limited to 
            sage-grouse habitat.

    <bullet> The strongest measures, for instance only allowing oil and 
            gas development without surface disturbance, are only 
            targeted on the most important habitat.

    <bullet> These habitat areas are identified by state and federal 
            scientists.

Avoidance

The Plan's framework, rather than closing lands to uses, identifies 
potentially harmful uses that should be avoided but may be permitted as 
needed, even in high quality habitat, such as:

    <bullet> Major rights-of-way/infrastructure--such as transmission 
            lines--in Priority Habitat Management Areas

    <bullet> Minor rights-of-way/infrastructure--such as roads--in 
            Priority Habitat Management Areas

Limited Prescriptions

The Utah Plan provides for BLM to permit uses without specifying in 
detail how protections will be managed for:

    <bullet> Major rights-of-way/infrastructure in General Habitat 
            Management Areas

    <bullet> Minor rights-of-way/infrastructure in General Habitat 
            Management Areas

    <bullet> Wind energy development in General Habitat Management 
            Areas

    <bullet> Oil and gas development in General Habitat Management 
            Areas

Oil and gas leasing and development

No areas are closed to leasing. Agencies are required to prioritize oil 
and gas leasing and development outside sage-grouse habitat. Neither 
the Great Basin Record of Decision, Rocky Mountain Record of Decision 
nor the Utah Plan specify methods for prioritization--focusing instead 
on what BLM state offices should ``consider.'' Similarly, BLM's 
guidance (IM 2016-143) provides a set of ``factors to consider'' in 
prioritizing leasing and development, including:

    <bullet> Parcels immediately adjacent or proximate to existing oil 
            and gas leases and development operations or other land use 
            development should be more appropriate for consideration 
            before parcels that are not near existing operations.

    <bullet> Parcels that are within existing Federal oil and gas units 
            should be more appropriate for consideration than parcels 
            not within existing Federal oil and gas units.

    <bullet> Parcels in areas with higher potential for development are 
            more appropriate for consideration than parcels with lower 
            potential for development.

    <bullet> Parcels in areas of lower-value sage-grouse habitat or 
            further away from important life-history habitat features 
            are more appropriate for consideration than parcels in 
            higher-value habitat or closer to important life-history 
            habitat features.

    <bullet> Parcels within areas having completed field-development 
            Environmental Impact Statements or Master Leasing Plans 
            that allow for adequate site-specific mitigation and are in 
            conformance with the objectives and provisions in the 
            Greater Sage-grouse Plans may be more appropriate for 
            consideration than parcels that have not been evaluated by 
            the BLM in this manner.

    <bullet> Parcels within areas where law or regulation indicates 
            that offering the lands for leasing is in the government's 
            interest will generally be considered more appropriate for 
            leasing.

    <bullet> As appropriate, use the BLM's Surface Disturbance Analysis 
            and Reclamation Tracking Tool (SDARTT) to evaluate 
            Expressions of Interest (nominated parcels) in Priority 
            Habitat Management Areas, to ensure that existing surface 
            disturbance does not exceed the disturbance and density 
            caps and that development of valid existing rights (solid 
            minerals, rights-of-way) for approved-but-not-yet-
            constructed surface disturbing activities would not exceed 
            the caps.

  Travel management

    <bullet> No routes are closed in the Record of Decision or Utah 
            Plan.

    <bullet> Route designation is to be determined in follow-on 
            planning tailored to specific planning areas with broad 
            considerations included in the Utah Plan.

  Livestock grazing

    <bullet> No areas are closed to grazing, either in the Record of 
            Decision or Idaho Plan, and the Plan does not set out 
            habitat requirements.

    <bullet> The Utah Plan sets out sage-grouse seasonal habitat 
            indicators and associated desired conditions or objectives.

    <bullet> BLM's guidance (IM 2016-142) provides for at least one 
            alternative to consider adopting thresholds and defined 
            responses as terms and conditions for renewal of a grazing 
            permit or lease in Sagebrush Focal Areas or Priority 
            Habitat Management Areas, but does not require they be 
            incorporated.

  Effectiveness monitoring

    <bullet> The Utah Plan sets out objectives and commits the agencies 
            to track whether these objectives are being met.

    <bullet> BLM's guidance (IM 2016-139) requires the agency to 
            compile monitoring data and prepare reports regarding the 
            effectiveness of the plan in meeting the objectives and 
            goals for different resources but does not mandate a 
            specific response. If objectives are not being met or 
            progress is not being made toward meeting them, BLM's 
            report is to discuss ``if and how the BLM can work to 
            reduce or eliminate any of the causal factors.''

Adaptive management

    <bullet> The Utah Plan sets out triggers for considering when 
            actions, such as changing General Habitat Management Areas 
            to Priority Habitat Management Areas, may need to be taken, 
            based on habitat conditions and population numbers 
            determined with state agencies.

    <bullet> Triggers are based on habitat loss and population 
            declines.

    <bullet> Hard triggers (where measured levels indicate conservation 
            is not succeeding) require specific responses.

    <bullet> Soft triggers (where measured levels indicate conservation 
            actions may not be achieving desired results) require 
            conservation on a project-by-project basis that is designed 
            with stakeholders to ``implement an appropriate response 
            strategy.''

                                 ______
                                 

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

           Sage-Grouse Implementation Options in Wyoming

Greater Sage-grouse Conservation--The Collaboration Continues

The BLM's Greater Sage-grouse Plans provide a framework for managing 
the activities on our public lands in a way that preserves multiple 
use, sustains the land for future generations, and meets the 
conservation goals for sage-grouse and the sagebrush habitat. Thanks to 
these plans, the U.S. Fish and Wildlife Service found that the greater 
sage-grouse no longer required listing under the Endangered Species 
Act, a status we can keep with thoughtful implementation in each state 
and region. The collaborative framework provides discretion to BLM 
state and field offices. This allows them to work with cooperating 
agencies and other partners, to determine the best way to achieve the 
goals and objectives of the plans in the context of proposed uses.

An overview of the discretion available to the BLM to manage major 
public land uses under the Wyoming Plans is provided below.

Consistency with Wyoming's plan

    <bullet> The Wyoming Plans are modeled on and designed to be 
            consistent with the State of Wyoming's sage-grouse plan and 
            to ensure that sage-grouse are managed similarly on state, 
            private and federal lands.

    <bullet> The Wyoming Plans incorporate the latest habitat 
            information from the state, which Wyoming released just 
            three months before BLM finalized the plans in Sept. 2015.

Protective measures

    <bullet> Practices, such as avoiding large-scale transmission 
            lines, to preserve land and vegetation, are limited to 
            sage-grouse habitat.

    <bullet> The strongest measures, for instance only allowing oil and 
            gas development without surface disturbance, are only 
            targeted on the most important habitat.

    <bullet> These habitat areas are identified by state and federal 
            scientists.

Avoidance

The Plans' framework, rather than closing lands to uses, identifies 
potentially harmful uses that should be avoided but may be permitted as 
needed, even in high quality habitat, such as:

    <bullet> Wind energy development in Priority Habitat Management 
            Areas

    <bullet> Solar energy development in General and Priority Habitat 
            Management Areas

    <bullet> Major rights-of-way/infrastructure--such as transmission 
            lines--in Priority Habitat Management Areas

    <bullet> Minor rights-of-way/infrastructure--such as roads--in 
            Priority Habitat Management Areas

Oil and gas leasing and development

No areas are closed to leasing. Agencies are required to prioritize oil 
and gas leasing and development outside sage-grouse habitat. Neither 
the Rocky Mountain Record of Decision nor the Wyoming Plans specify 
methods for prioritization--focusing instead on what BLM state offices 
should ``consider.'' Similarly, BLM's guidance (IM 2016-143) provides a 
set of ``factors to consider'' in prioritizing leasing and development, 
including:

    <bullet> Parcels immediately adjacent or proximate to existing oil 
            and gas leases and development operations or other land use 
            development should be more appropriate for consideration 
            before parcels that are not near existing operations.

    <bullet> Parcels that are within existing Federal oil and gas units 
            should be more appropriate for consideration than parcels 
            not within existing Federal oil and gas units.

    <bullet> Parcels in areas with higher potential for development are 
            more appropriate for consideration than parcels with lower 
            potential for development.

    <bullet> Parcels in areas of lower-value sage-grouse habitat or 
            further away from important life-history habitat features 
            are more appropriate for consideration than parcels in 
            higher-value habitat or closer to important life-history 
            habitat features.

    <bullet> Parcels within areas having completed field-development 
            Environmental Impact Statements or Master Leasing Plans 
            that allow for adequate site-specific mitigation and are in 
            conformance with the objectives and provisions in the 
            Greater Sage-grouse Plans may be more appropriate for 
            consideration than parcels that have not been evaluated by 
            the BLM in this manner.

    <bullet> Parcels within areas where law or regulation indicates 
            that offering the lands for leasing is in the government's 
            interest will generally be considered more appropriate for 
            leasing.

    <bullet> As appropriate, use the BLM's Surface Disturbance Analysis 
            and Reclamation Tracking Tool (SDARTT) to evaluate 
            Expressions of Interest (nominated parcels) in Priority 
            Habitat Management Areas, to ensure that existing surface 
            disturbance does not exceed the disturbance and density 
            caps and that development of valid existing rights (solid 
            minerals, rights-of-way) for approved-but-not-yet-
            constructed surface disturbing activities would not exceed 
            the caps.

  Travel management

    <bullet> No routes are closed in the Record of Decision or Wyoming 
            Plans.

    <bullet> Route designation is to be determined in follow-on 
            planning tailored to specific planning areas.

  Livestock grazing

    <bullet> No areas are closed to grazing, either in the Record of 
            Decision or Wyoming Plans, and the Plans do not set out 
            habitat requirements.

    <bullet> The Wyoming Plans set out sage-grouse seasonal habitat 
            indicators and associated desired conditions or objectives.

    <bullet> BLM's guidance (IM 2016-142) provides for at least one 
            alternative to consider adopting thresholds and defined 
            responses as terms and conditions for renewal of a grazing 
            permit or lease in Sagebrush Focal Areas or Priority 
            Habitat Management Areas, but does not require they be 
            incorporated.

  Effectiveness monitoring

    <bullet> The Wyoming Plans set out objectives and commit the 
            agencies to track whether these objectives are being met.

    <bullet> BLM's guidance (IM 2016-139) requires the agency to 
            compile monitoring data and prepare reports regarding the 
            effectiveness of the plan in meeting the objectives and 
            goals for different resources but does not mandate a 
            specific response. If objectives are not being met or 
            progress is not being made toward meeting them, BLM's 
            report is to discuss ``if and how the BLM can work to 
            reduce or eliminate any of the causal factors.''

Adaptive management

    <bullet> The Wyoming Plans set out triggers for considering when 
            actions, such as habitat restoration, may need to be taken, 
            based on habitat conditions and population numbers 
            determined with state agencies.

    <bullet> Triggers are based on habitat loss and population 
            declines.

    <bullet> Hard triggers (where measured levels indicate conservation 
            is not succeeding) require specific responses.

    <bullet> Soft triggers (where measured levels indicate conservation 
            actions may not be achieving desired results) require 
            conservation on a project-by-project basis that is designed 
            with stakeholders, including state agencies, ``with 
            consideration of local knowledge and conditions.''

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Grijalva Submission

    -- The Integrated Rangeland Fire Management Strategy 
            Actionable Science Plan, October 2016, produced by 
            the U.S. Department of the Interior.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
